<html>
<title> - H.R. 41, H.R. 113, H.R. 490, H.R. 608, H.R. 977, H.R. 1126, H.R. 1413 AND H.R. 2050</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                     H.R. 41, H.R. 113, H.R. 490, 
                    H.R. 608, H.R. 977, H.R. 1126, 
                        H.R. 1413 AND H.R. 2050 

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, October 25, 2011

                               __________

                           Serial No. 112-75

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

70-953 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio



                                ----------                              

                                CONTENTS

                                ----------                              
                                                                   Page

Hearing held on Tuesday, October 25, 2011........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement of....................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     4
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     4
        Prepared statement of....................................     6
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts..............................    15
        Prepared statement of....................................    16

Statement of Witnesses:
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah..............................................    22
        Prepared statement on H.R. 1126..........................    23
    DeFazio, Hon. Peter, a Representative in Congress from the 
      State of Oregon............................................    25
        Prepared statement on H.R. 1413..........................    25
    Dreier, Hon. David, a Representative in Congress from the 
      State of California, Oral statement on H.R. 113............     7
    Heinrich, Hon. Martin, a Representative in Congress from the 
      State of New Mexico, Oral statement on H.R. 490............    26
    Huizenga, Hon. Bill, a Representative in Congress from the 
      State of Michigan..........................................    12
        Prepared statement on H.R. 977...........................    14
    Issa, Hon. Darrell, a Representative in Congress from the 
      State of California........................................     9
        Prepared statement on H.R. 41............................    11
    Liesemer, Ronald, Ph.D., Vice President, Citizens for Access 
      to the Lakeshore...........................................    51
        Prepared statement on H.R. 977...........................    52
    Pool, Mike, Deputy Director, Bureau of Land Management, U.S. 
      Department of the Interior.................................    27
        Prepared statement on H.R. 41............................    29
        Prepared statement on H.R. 490...........................    30
        Prepared statement on H.R. 977...........................    30
        Prepared statement on H.R. 1126..........................    32
        Prepared statement on H.R. 1413..........................    34
    Reichert, Hon. David, a Representative in Congress from the 
      State of Washington........................................    17
        Prepared statement on H.R. 608...........................    18
    Rosenberg, Erica, Board President, Western Lands Project.....    48
        Prepared statement on H.R. 1126..........................    49
    Simpson, Hon. Michael, a Representative in Congress from the 
      State of Idaho.............................................    20
        Prepared statement on H.R. 2050..........................    21
    Steed, Brian C., J.D., Ph.D., Economics Instructor, Jon M. 
      Huntsman School of Business, Utah State University.........    42
        Prepared statement of....................................    43
    Ward, J. Mark, Senior Policy Analyst/Public Lands and Natural 
      Resources Counsel, Utah Association of Counties............    35
        Prepared statement on H.R. 1126..........................    36
?

Additional materials supplied:
    Camp, Hon. Dave, a Representative in Congress from the State 
      of Michigan, Statement submitted for the record on H.R. 977    65
    Freeman, P. Michael, Former Los Angeles County Fire Chief, 
      Statement submitted for the record on H.R. 113.............     8
    Pena, Jim, Acting Deputy Chief for National Forest System, 
      Forest Service, U.S. Department of Agriculture, Statements 
      submitted for the record, Prepared statement on H.R. 41....    66
        Prepared statement on H.R. 113...........................    66
        Prepared statement on H.R. 490...........................    67
        Prepared statement on H.R. 608...........................    67
        Prepared statement on H.R. 1413..........................    68
        Prepared statement on H.R. 2050..........................    70






                                  (IV)
                                     

LEGISLATIVE HEARING ON H.R. 41, TO DESIGNATE CERTAIN FEDERAL 
LANDS IN SAN DIEGO COUNTY, CALIFORNIA, AS WILDERNESS, AND FOR 
OTHER PURPOSES. ``BEAUTY MOUNTAIN AND AGUA TIBIA WILDERNESS ACT 
OF 2011''; H.R. 113, TO PROVIDE FOR ADDITIONS TO THE CUCAMONGA 
AND SHEEP MOUNTAIN WILDERNESS AREAS IN THE ANGELES AND SAN 
BERNARDINO NATIONAL FORESTS AND THE PROTECTION OF EXISTING 
PROPERTY RIGHTS IN SUCH ADDITIONS, TO REQUIRE THE SECRETARY OF 
AGRICULTURE TO TAKE STEPS TO PREVENT AND PREPARE FOR WILDFIRES 
IN THE CUCAMONGA, SHEEP MOUNTAIN, AND SAN GABRIEL WILDERNESS 
AREAS AND ADDRESS THE BACKLOG OF MAINTENANCE IN THE ANGELES AND 
SAN BERNARDINO NATIONAL FORESTS, AND FOR OTHER PURPOSES. 
``ANGELES AND SAN BERNARDINO NATIONAL FORESTS PROTECTION ACT''; 
H.R. 490, TO MODIFY THE BOUNDARIES OF CIBOLA NATIONAL FOREST IN 
THE STATE OF NEW MEXICO, TO TRANSFER CERTAIN BUREAU OF LAND 
MANAGEMENT LAND FOR INCLUSION IN THE MANZANO MOUNTAIN 
WILDERNESS, AND FOR OTHER PURPOSES; H.R. 608, TO EXPAND THE 
ALPINE LAKES WILDERNESS IN THE STATE OF WASHINGTON, TO 
DESIGNATE THE MIDDLE FORK SNOQUALMIE RIVER AND PRATT RIVER AS 
WILD AND SCENIC RIVERS, AND FOR OTHER PURPOSES. ``ALPINE LAKES 
WILDERNESS ADDITIONS AND PRATT AND MIDDLE FORK SNOQUALMIE 
RIVERS PROTECTION ACT''; H.R. 977, TO DESIGNATE AS WILDERNESS 
CERTAIN LAND AND INLAND WATER WITHIN THE SLEEPING BEAR DUNES 
NATIONAL LAKESHORE IN THE STATE OF MICHIGAN, AND FOR OTHER 
PURPOSES. ``SLEEPING BEAR DUNES NATIONAL LAKESHORE CONSERVATION 
AND RECREATION ACT''; H.R. 1126, TO DIRECT THE SECRETARY OF THE 
INTERIOR TO SELL CERTAIN FEDERAL LANDS IN ARIZONA, COLORADO, 
IDAHO, MONTANA, NEBRASKA, NEVADA, NEW MEXICO, OREGON, UTAH, AND 
WYOMING, PREVIOUSLY IDENTIFIED AS SUITABLE FOR DISPOSAL, AND 
FOR OTHER PURPOSES. ``DISPOSAL OF EXCESS FEDERAL LANDS ACT OF 
2011''; H.R. 1413, TO PROVIDE FOR THE DESIGNATION OF THE 
DEVIL'S STAIRCASE WILDERNESS AREA IN THE STATE OF OREGON, TO 
DESIGNATE SEGMENTS OF WASSON AND FRANKLIN CREEKS IN THE STATE 
OF OREGON AS WILD OR RECREATION RIVERS, AND FOR OTHER PURPOSES. 
``DEVIL'S STAIRCASE WILDERNESS ACT OF 2011''; AND H.R. 2050, TO 
AUTHORIZE THE CONTINUED USE OF CERTAIN WATER DIVERSIONS LOCATED 
ON NATIONAL FOREST SYSTEM LAND IN THE FRANK CHURCH-RIVER OF NO 
RETURN WILDERNESS AND THE SELWAY-BITTERROOT WILDERNESS IN THE 
STATE OF IDAHO, AND FOR OTHER PURPOSES. ``IDAHO WILDERNESS 
WATER RESOURCES PROTECTION ACT''
                              ----------                              


                       Tuesday, October 25, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:06 a.m. in 
Room 1334, Longworth House Office Building, Hon. Rob Bishop, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Johnson, Hastings (ex 
officio), Benishek, Grijalva, Kildee, DeFazio, Heinrich, 
Garamendi and Markey (ex officio).
    Mr. Bishop. All right. This hearing will be in order. The 
Chair notes the presence of a quorum. The Subcommittee on 
National Parks, Forests and Public Lands is meeting today to 
hear testimony on eight bills.
    Under the rules, the opening statements are limited to the 
Chairman and Ranking Member. However, I ask unanimous consent 
to include any other Members' opening statements in the hearing 
record if submitted to the clerk by the close of business 
today. And hearing no objection, so ordered.

  STATEMENT OF THE HONORABLE ROB BISHOP, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Bishop. I want to thank our colleagues who have joined 
us here to testify on their bills. We will go through, as I 
think is already noticed to you, H.R. 41, H.R. 113, H.R. 490, 
H.R. 608, H.R. 977, H.R. 1126, H.R. 1413 and H.R. 2050, all of 
them dealing with wilderness. Each of these wilderness 
designations is found within the district of the Congressman 
who is representing or presenting the bill, which is a 
significant issue.
    Each of them deals with areas that are obviously areas of 
special significance that we want to protect and/or have an 
impact on the livelihood of the communities where these areas 
are found. But we also recognize that when we lock up lands for 
special designations it restricts access for energy, for 
recreation, for job activities, and sometimes the brunt of poor 
land management is devastating to rural communities where most 
of these lands are found.
    I am happy, though, that we are doing this process by 
dealing with bills on an individual basis rather than having a 
comprehensive omnibus bill in which stuff is just added to it 
and sneaks by in one fell swoop with very little consideration 
of the consequences.
    I am also happy that in one of the bills we will be 
discussing today, we'll be talking about excess or surplus 
property. With the maintenance backlog that we have and our 
current budget climate, it is somewhat silly to have government 
land that is neither needed or wanted or used and, 
unfortunately as is often the case, they don't even know they 
own it in the first place.
    So we will be talking about both of those issues as we go 
forward. I look forward to hearing from our witnesses. I 
recognize the Ranking Member for his opening statement.
    [The prepared statement of Mr. Bishop follows:]

   Statement of The Honorable Rob Bishop, Chairman, Subcommittee on 
                National Parks, Forests and Public Lands

    Monuments, wilderness and other land-use designations have been a 
topic of much debate in this subcommittee. While there are certain 
areas of special significance that should be managed as wilderness or 
otherwise preserved for future generations, we need to ensure that 
those designations are fully vetted and protect the interests and 
livelihoods of the communities and stakeholders that could be impacted.
    This hearing is an important part of that process. Locking-up lands 
throughout the West has the potential to restrict access for energy 
production, recreation, and other job-creating activities and devastate 
the rural communities that unfairly bear the brunt of poor land 
management decisions. It is important to return to a practice of 
looking at wilderness proposals thoroughly and individually as opposed 
to comprehensive omnibus bills and Administrative actions that seek to 
designate millions of acres in one fell swoop with little, if any, 
consideration of the consequences.
    Secondly, I also look forward to exploring options to reduce the 
federal estate, particularly in those cases in which the government has 
identified excess or surplus lands. The federal government currently 
has a multi-billion dollar maintenance backlog for the lands it holds. 
Especially given our current budget climate, it makes perfect sense to 
free the federal government from land it doesn't need and allow 
agencies to focus on our most prized national parks, forests and other 
lands.
    I look forward to hearing from our witnesses today and I now 
recognize the Ranking Member for his opening statement.
                                 ______
                                 

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. During the joint 
subcommittee hearing in April, the Majority displayed graphic 
photographs of mutilated and dead bodies and alleged that the 
presence of wilderness near the border contributed to these 
violent murders. In addition to the murder, the Majority has 
blamed wilderness for undocumented immigration, terrorism, drug 
smuggling and economic devastation of all kinds.
    The Majority has categorized the designation of wilderness 
as an assault on the rights guaranteed under the Second 
Amendment. Wilderness supporters have been characterized as 
arrogant and even in some cases unAmerican. This labeled 
rhetoric and gross mischaracterization has made legitimate 
discussion of wilderness proposals difficult. According to 
Border Patrol, the presence of wilderness has no impact on 
border security.
    The economic benefits of wilderness have been well 
documented in multiple peer-reviewed economic studies, and 
hunting and shooting are not only allowed in wilderness; they 
are enriched by it. And those disturbing photos displayed 
during the joint hearing turned out to be of murders which did 
not even occur in the United States.
    It is my hope that today's hearing could provide an 
opportunity for a more rational discussion of the concept of 
protecting wild places for future generations. The Members 
testifying today have all worked through the difficult process 
of reaching local consensus regarding wilderness proposals. The 
process involves long hours of reviewing maps and agency 
recommendations to arrive at boundaries acceptable to a wide 
variety of local stakeholders.
    Crime scene photos and speeches about border enforcements 
are diversions. The real wilderness debate is about the 
appropriate balance between preserving wild places and pursuing 
oil and gas development, road building and off-road vehicle 
use. Currently 2.5 percent of the contiguous United States is 
designated wilderness, while roughly one-third of the Federal 
land in the Lower 48 is open to some level of oil and gas 
development. Two point five for wilderness. Thirty-three 
percent for oil and gas development.
    The Members testifying today support raising the wilderness 
percentage slightly in their districts, and these proposals 
deserve an honest assessment and a hearing. Far from the 
arrogance, the process of developing a viable wilderness 
proposal requires the humility to recognize the importance of 
competing land uses and the lasting value of leaving some areas 
in the same condition in which we found them.
    In signing the Wilderness Act in 1964, President Lyndon 
Johnson said: ``If future generations are to remember us with 
gratitude rather than contempt, we must leave them more than 
the miracles of technology. We must leave them a glimpse of the 
world as it was in the beginning, not just after we got through 
with it.''
    Mr. Chairman, I look forward to learning more about each of 
these wilderness proposals before the Subcommittee. I want to 
congratulate the Members for their diligence and hard work in 
bringing this legislation forward, and I thank the colleagues 
and the witnesses for being here today.
    It is a significant hearing in that wilderness has been a 
bad word in the discussion before this Committee and the 
Natural Resources Committee, and it is refreshing and certainly 
a breath of fresh air to discuss wilderness in an open, 
rational and factually based discussion. Mr. Chairman, I look 
forward to that. Thank you.
    [The prepared statement of Mr. Grijalva follows:]

       Statement of The Honorable Raul Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Mr. Chairman, during a joint subcommittee hearing in April, the 
Majority displayed graphic photographs of mutilated, dead bodies and 
alleged that the presence of wilderness near the border contributed to 
these violent murders.
    In addition to murder, the Majority has blamed wilderness for 
undocumented immigration, terrorism, drug smuggling and economic 
devastation.
    The Majority has characterized the designation of wilderness as an 
assault on the rights guaranteed under the Second Amendment. Wilderness 
supporters have been characterized as arrogant and even un-American.
    This level of rhetoric and gross mischaracterization has made 
legitimate discussion of wilderness proposals difficult.
    According to the Border Patrol, the presence of wilderness has no 
impact on border security.
    The economic benefits of wilderness have been well-documented in 
multiple, peer-reviewed, economic studies and hunting and shooting are 
not only allowed in wilderness, they are enriched by it. And those 
disturbing photos displayed during the joint hearing turned out to be 
of murders which did not even occur in the United States.
    It is my hope that today's hearing will provide an opportunity for 
a more rational discussion of the concept of protecting wild places for 
future generations.
    The Members testifying today have all worked through the difficult 
process of reaching local consensus regarding a wilderness proposal. 
That process involves long hours reviewing maps and agency 
recommendations to arrive at boundaries acceptable to a wide variety of 
local stake-holders.
    Crime scene photos and speeches about border enforcement are 
diversions--the real wilderness debate is about the appropriate balance 
between preserving wild places and pursuing oil and gas development, 
road-building and off-road vehicle use.
    Currently, 2.5% of the contiguous United States is designated 
wilderness while roughly one third of the federal land in the lower 48 
is open to some level of oil and gas development; 2.5% for wilderness, 
33% for oil and gas.
    The Members testifying today support raising the wilderness 
percentage slightly in their districts and these proposals deserve an 
honest assessment.
    Far from arrogance, the process of developing a viable wilderness 
proposal requires the humility to recognize the importance of competing 
land uses and the lasting value of leaving some areas in the same 
condition in which we found them.
    In signing the Wilderness Act in 1964, President Lyndon Johnson 
said, ``If future generations are to remember us with gratitude rather 
than contempt, we must leave them more than the miracles of technology. 
We must leave them a glimpse of the world as it was in the beginning, 
not just after we got through with it.
    Mr. Chairman, I look forward to learning more about each of the 
wilderness proposals before the Subcommittee today and I thank our 
colleagues and the other witnesses for their work on these measures. I 
yield back.
                                 ______
                                 
    Mr. Bishop. Thank you. We also are happy to have the 
distinguished Chairman of the full Committee here. I recognize 
Representative Hastings for an opening statement.

 STATEMENT OF THE HONORABLE DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman, and thank you very 
much for having this hearing. I am glad the Ranking Member 
totally agrees with our approach here in having a very open and 
transparent process.
    A wilderness area is the most restrictive land use 
designation that Congress, and only Congress, can apply to our 
nation's lands. It greatly limits the American public's access 
to their lands. Please note that I specifically said that it is 
Congress and only Congress that has the authority to designate 
lands as wilderness. The Obama Administration attempted to 
bypass the clear letter of the law with its Wild Lands 
Secretarial Order, which was a backdoor attempt to create new 
wilderness by Executive fiat. They were forced by the actions 
of this House, however, to abandon that effort.
    Let me be clear. There are lands that should be managed as 
wilderness, and in my view most of those lands have already 
been designated. However, this hearing today demonstrates that 
Chairman Bishop and I are open to the possibility of 
appropriately designating new wilderness areas. That is not to 
say that I am endorsing each of the bills before us today 
because each proposal must undergo careful, individual review, 
which this Committee is committed to undertaking.
    Decisions on wilderness designations should be made on a 
case-by-case basis. They should be done in accordance with the 
Wilderness Act. They should have broad local input so as to 
enjoy wide local support, and they should include a review of 
the potential designation's impact on the public's access, 
limitations on recreation, for example, and effect on local 
economies and job creation activities.
    To reiterate a point that Chairman Bishop made when he 
announced this hearing, the lands affected by each of these 
bills before the Subcommittee today are located within the 
congressional district represented by the bill's sponsor. There 
is a near zero--in fact there is a zero--chance that the 
Committee will act on or advance bills that seek to designate 
wilderness areas in a district or a state that a Member isn't 
elected to represent.
    I have often said that I respect the knowledge and 
prerogative of a Member on proposals that affect their 
district, as they were elected to represent that district and 
they know it best. However, this respect is not a blank check, 
and this Committee has a responsibility to review proposals 
carefully.
    Let me also be clear that there are times when Congress 
must act to address situations that arise after the designation 
of a wilderness area. It takes an Act of Congress to create a 
wilderness area, and it requires an Act of Congress to fix or 
make necessary modest adjustments to an established wilderness 
area.
    It simply is not reasonable for advocates of establishing 
new wilderness to come to this Committee and argue that we 
cannot legislate reasonable, common sense modifications to 
prior designations that have risen up over time. Mr. Simpson of 
Idaho has just a bill before us today, and I myself have 
introduced legislation to uphold promises made by prior 
designations.
    For new wilderness designations to advance and become law, 
proposals to make necessary adjustments to existing wilderness 
and better manage our public lands as a whole will also need to 
advance. The Committee will review and judge each proposed 
wilderness bill on a case-by-case basis, but as Chairman of the 
full Committee I don't intend to lose perspective on how best 
to manage the nation's lands as a whole.
    The Federal government owns more lands than it can afford 
to properly manage. The deficit on maintaining and caring for 
our existing lands runs into the billions of dollars. We must 
make thoughtful and careful land use decisions that reflect our 
country's current economic situation and the need to keep our 
Federal lands healthy and the importance of keeping public 
lands as open to the American public as possible for multiple 
use purposes.
    And with that, thank you for the courtesy, and I yield back 
my time.
    [The prepared statement of Mr. Hastings follows:]

Statement of The Honorable Doc Hastings, Chairman, Committee on Natural 
  Resources, on H.R. 41, H.R. 113, H.R. 490, H.R. 608, H.R. 977, H.R. 
                     1126, H.R. 1413 and H.R. 2050

    Thank you, Chairman Bishop. As we have a distinguished panel of our 
colleagues arrayed before us waiting to testify, I will be brief.
    A wilderness area is the most restrictive land use designation that 
Congress can apply to our nation's lands--it greatly limits the 
American public's access to their lands. Please note that I 
specifically said that it is Congress, and only Congress, that has the 
authority to designate lands as wilderness. The Obama Administration 
attempted to bypass the clear letter of the law with its Wild Lands 
Secretarial Order, which was a backdoor attempt to create new 
wilderness by Executive fiat. They were forced by Act of Congress to 
abandon that effort.
    Let me be clear, there are lands that should be managed as 
wilderness, and, in my view, most of those lands have already been 
designated. However, this hearing today demonstrates that Chairman 
Bishop and 1 are open to the possibility of appropriately designating 
new wilderness areas. That is not to say I am endorsing each of the 
bills before us today because each proposal must undergo careful, 
individual review--which this Committee is committed to undertaking.
    Decisions on wilderness designations should be made on a case-by-
case basis, be done in accordance with the Wilderness Act, be informed 
by broad local input so as to enjoy wide local support, and include a 
review of the potential designation's impact on the public's access, 
limitations on recreation, and effect on local economies and job 
creation activities.
    To reiterate a point that Chairman Bishop made previously, the 
lands affected by each of the bills before the Subcommittee today are 
located within the congressional district represented by the bill's 
sponsor. There is a near zero percent chance that the Committee will 
act on or advance bills that seek to designate wilderness in a district 
or state that a Member isn't elected to represent. I have often said 
that I respect the knowledge and prerogative of a Member on proposals 
that affect their district, as they were elected to represent that 
district and know it best. However, this respect is not a blank check, 
and this Committee has a responsibility to review proposals carefully.
    Let me also be clear that there are times when Congress must act to 
address situations that arise after the designation of a wilderness 
area. It takes an Act of Congress to create a wilderness area, and it 
requires an Act of Congress to fix or make necessary modest adjustments 
to an established wilderness area. It simply is not reasonable for 
advocates of establishing new wilderness to come to this Committee and 
argue that we cannot legislate reasonable, common sense modifications 
to prior designations that have arisen over time. Mr. Simpson of Idaho 
has just such a bill before us today, and I myself have introduced 
legislation to uphold promises made in prior designations. For new 
wilderness designations to advance and become law, proposals to make 
necessary adjustments to existing wilderness and to better manage our 
public lands as a whole will also need to advance. The Committee will 
review and judge each proposed wilderness bill on a case-by-case basis, 
but as Chairman, I don't intend to lose perspective on how best to 
manage the nation's lands as a whole.
    The federal government already owns more lands than it can afford 
to properly manage. The deficit on maintaining and caring for our 
existing lands runs into the billions of dollars. We must make 
thoughtful and careful land-use decisions that reflect our country's 
current economic situation, the need to keep our lands healthy, and the 
importance of keeping public lands as open to the American public as 
possible for multiple-use purposes.
                                 ______
                                 
    Mr. Bishop. Thank you. With that, we welcome the witnesses, 
each who has a bill that we will be talking before us here.
    Several of you have already requested--actually four of you 
requested--to go first. I can't quite do that, but I recognize 
that you also have other commitments, so if it is OK with the 
entire panel the three who are here that have other commitments 
I would like to be the first three presenters, and then we will 
finish the rest of the panel.
    I will tell you, though, that once you are done if you 
would like to stay and join us on the dais to participate in 
the rest of the discussion about any of these bills, please 
feel free to do so. We would be more than happy. We can even 
seat you closer, closer than my friend from Michigan is, if he 
wants to come a little bit closer to the middle of this dais.
    Obviously any written statement you have will be part of 
the record. We ask you to limit your oral comments to five 
minutes. We will start with Congressman Dreier from California, 
then Congressman Issa if possible, and then I would like to ask 
Congressman Huizenga if he would go third because you three 
have already said that you have another commitment at the same 
time, so we will try and go in that area.
    Congressman Dreier, please.

 STATEMENT OF THE HONORABLE DAVID DREIER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Thank you very much, Mr. Chairman. So suffice 
it to say I won't be joining you at the dais following our 
testimony here.
    Let me say that it is somewhat with mixed emotions that I 
appear here. To have Doc Hastings and Rob Bishop wielding the 
gavel over me and sitting higher than I am is something that 
makes me extremely uncomfortable----
    Mr. Bishop. OK. Your time has expired.
    Mr. Dreier.--but I think I will survive it. Just wait until 
you come to the next Rules Committee meeting.
    I want to tell Mr. Grijalva and Mr. Garamendi that we have 
made your amendment in order on the bill that was before the 
Rules Committee yesterday, so we look forward to consideration 
of that.
    On the issue that I am here to address, let me just say 
that I completely concur with everything that was said in the 
opening remarks by the Subcommittee Chairman and the Chairman 
of the full Committee. I, too, am one who is very skeptical of 
the expansion of wilderness areas, and I thought that it was 
just stated by the full Committee Chairman, and yesterday in 
the Rules Committee the Chairman of the Subcommittee, you, Mr. 
Chairman, made it clear that the Federal government owns and 
controls much more land than it should.
    That was your statement yesterday during the hearing, and I 
concur with that. At the same time, I do believe that we need 
to have, as Mr. Grijalva said and you both have said as well, a 
focus on balance and recognizing the multiple use of lands.
    Two years ago this last summer, I met with the very, very 
wide-ranging group of people in Southern California focused on 
the Angeles National Forest and the San Bernardino Forest, and 
I came to the conclusion that a modest expansion of the 
wilderness areas would go a long way toward dealing with the 
very, very high degree of sensitivity that we have in Southern 
California and around the country to our natural resources and 
the beauty that exists there.
    The Angeles National Forest I have been told is the most 
utilized national forest in the Nation by virtue of its 
proximity. In Los Angeles County, and I know, Mr. Chairman--
your daughter lives in Orange County--you know very well. Los 
Angeles County has nearly 10 million people and so by virtue of 
its proximity these areas are utilized.
    So this group had approached me and talked to me about 
this, and I came to the conclusion this modest, 17,724 acre 
expansion was the right thing for us to do. The interesting 
irony and very, very tragic and sad irony is that the day after 
the meeting that I had with them, which came after they had 
worked with staff and all for a long period of time, we saw a 
little fire begin in the area, and that fire, Mr. Chairman, 
grew to be the largest fire in the history of Los Angeles 
County, 160,000 acres burned and two very courageous 
firefighters, Ted Hall and Arnie Quinones, were killed.
    I stood with their families and said as we look at this 
notion of the expansion of the wilderness areas, I will do 
everything that I possibly can to ensure that priority number 
one is the issue of saving lives and property, and I will say 
that it is for that reason that if you look at the section-by-
section analysis, Section 6 in this bill has raised some 
concern from the Forest Service, as I told you, Mr. Chairman, 
when we were walking in this morning, and also from some of the 
environmental groups.
    They are concerned about it, but I feel very strongly about 
that Section 6 saying that we need to make sure that we do 
everything we can to provide those firefighters with the 
ability to get to, access and prevent and deal with the 
aftermath of these fires.
    So I believe that this is a responsible measure that we 
have got. It is balanced. We have taken those things into 
consideration. Just a few moments ago, I got the word that the 
now retired chief, Chief Freeman of the Los Angeles County Fire 
Department, is in support of this section and the legislation, 
and I would like to ask that his statement, Mr. Chairman, be 
included in the record.
    Mr. Bishop. Without objection.
    [The prepared statement of Mr. Freeman submitted for the 
record by Mr. Dreier follows:]

Statement of P. Michael Freeman, Former Los Angeles County Fire Chief, 
on H.R. 113, the Angeles and San Bernardino National Forests Protection 
                                  Act

    Natural Resources Committee Chairman Hastings, Ranking Member 
Markey, Subcommittee Chairman Bishop, Ranking Member Grijalva, and 
members of the National Parks, Forests and Public Lands Subcommittee, 
thank you for giving me the opportunity to submit testimony on H.R. 
113, the Angeles and San Bernardino National Forests Protection Act.
    My name is P. Michael Freeman and I am the former Fire Chief of Los 
Angeles County. I recently retired after 22 years of service as the 
Fire Chief and 47 total years of experience as a firefighter. As Fire 
Chief, I ran a fire department for a county with more than 9.8 million 
people and an incredibly diverse landscape, with everything from 
coastline to mountains and forests.
    One of the many challenges I faced as Fire Chief was ensuring the 
safety of our firefighters, residents as well as the communities at the 
foothills of the Angeles National Forest during wildfire season. 
Multiple factors contribute to this difficult task including rough 
terrain, a close urban interface as well as unpredictable fire 
patterns. This is why it is vital that firefighters have the resources 
and flexibility needed to fight wildfires.
    Preventing and containing wildfires is an issue that I have worked 
on with Congressman David Dreier for many years. Fighting wildfires in 
Los Angeles County can be incredibly dangerous and strenuous. In 2009, 
the Los Angeles County Fire Department, along with multiple other 
firefighters, battled the Station Fire. This fire ended up burning more 
than 160,000 acres and was the largest wildfire in the modern history 
of Los Angeles County. Tragically, it also took the lives of two 
firefighters, Fire Captain Ted Hall and Firefighter Specialist Arnie 
Quinones. In September, 2009, the House of Representatives passed a 
resolution honoring these two brave men. I deeply appreciate your 
support in recognizing Captain Hall and Specialist Quinones who made 
the ultimate sacrifice while serving Los Angeles County.
    In the aftermath of the Station Fire, my colleagues and I had many 
meetings on the lessons learned from this fire. In addition, 
Congressman Dreier and I discussed ways to better protect firefighters 
and prevent large-scale forest fires from occurring. The fire 
management section included in H.R. 113 is the culmination of these 
conversations.
    Although I am now retired, ensuring that current and future 
firefighters have the ability to properly carry out fire prevention and 
suppression activities remains extremely important to me. That is why 
it is my hope that the Committee will support the fire management 
language in H.R. 113. Thank you for your time and consideration.
                                 ______
                                 
    Mr. Dreier. I believe that this is a very balanced proposal 
which can in fact gain strong bipartisan support, and so I 
thank you very much for that, and with that I am going to 
excuse myself if I may. Thank you all.
    Mr. Bishop. Thank you, Mr. Chairman. I appreciate that.
    We will now hear from the other gentleman from California. 
Congressman Issa, if you would?

 STATEMENT OF THE HONORABLE DARRELL ISSA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Issa. Thank you, Mr. Chairman, Ranking Member. I am 
going to piggyback directly on what Chairman Dreier said. It is 
pretty easy to see that you can abuse wilderness as a 
designation. My bill, the Beauty Mountain bill, is an attempt 
not to abuse, but in fact to, if you will, try to perfect what 
is already in place.
    Beauty Mountain, half of which is in Congresswoman Bono's 
district and is already designated as wilderness and roughly 
half of which is in my district, is an area that has been 
managed as though it was wilderness by multiple agencies of the 
Federal government for the 11 years that I have been in 
Congress and actually for the 18 years that Congressman Packard 
was my predecessor. It has been clearly designated as not 
usable for mining or other energy, and yet it has not really 
been prepared to be properly managed.
    When Congressman Bono put the first half into wilderness 
some I guess six years ago, I asked her to leave Southern 
Beauty Mountain out because I didn't feel that we had gone 
through a lot of the questions. It has taken us a number of 
years. We believe we have answered all the questions.
    As the bill goes through this Committee and, Mr. Hastings, 
I am particularly concerned that we scrutinize it because I 
have done the best I can do, but the resources of this 
Committee can allow you to properly give it one more once over.
    What we have done is recognized that as it was originally 
half done, a road which was to be maintained through the center 
of it for the public was never maintained for the public. It is 
available in very marginal condition in case of fire and the 
chains can be let go, but it hasn't been maintained on the 
north or south end the way it should be. My bill attempts to 
make it clear that this is a public access.
    Additionally, the bill provides not just ingress and 
egress, but corridors for offloading equestrian and other 
parking requirements so that people can actually either walk or 
ride their horses through this area as is intended in the 
statute.
    We also have tried to set aside additional area for camping 
and the like because we believe that the ecotourism that is 
envisioned by these no engine areas doesn't happen if you abut 
them directly up to areas where there is no opportunity to have 
a transition for the public. We think we have addressed all of 
that. We certainly have tried.
    I would like to very much request that the Committee take 
one more look at the bill and see if we have addressed 
everything we have attempted to. We have been working with the 
Majority and Minority over multiple Congresses and we have 
tried to get it right, but the goal for my constituents and for 
Congresswoman Bono's constituents is to recognize that if it is 
going to be managed by multiple agencies as wilderness without 
coordination and without access or maintenance capabilities so 
the public gets the benefit then it doesn't serve the intention 
at all of the statute.
    Last, but not least, we were not able to address, because 
of cost, any remediation. This wilderness area includes an area 
that to this day still has the remnants of a meth lab, still 
has the remnants of an apple orchard, still has remnants. Now, 
these are decades old, but they are still there. Well, the meth 
lab not decades old, but the previous agricultural use is 
decades old.
    And so one of the concerns that we have which we hope this 
Committee will look at is this is good land for ecotourism. 
This is good land for habitat to truly have an opportunity to 
be not disturbed by motorcycles or cars, but at the same time 
this is an area in which all of the agencies that have 
jurisdiction have sort of viewed it as a low cost, low 
participation area.
    So again, I am very excited to offer the bill. I believe 
that completing Beauty Mountain is essential, but getting it 
right is essential because we believe that if you are going to 
have wilderness, this 21,000 acres--and Mr. Dreier said his was 
small; mine is barely larger in totality than his addition, but 
it is something that to our community is desirable, but 
desirable if we get it right.
    So I rely on the Committee's assistance to get it right. I 
look forward to having all of my personnel resources of my 
staff available to work with you in any way possible. I thank 
you for your consideration and yield back.
    [The prepared statement of Mr. Issa follows:]

 Statement of The Honorable Darrell Issa, a Representative in Congress 
  from the State of California, on H.R. 41, the ``Beauty Mountain and 
                  Agua Tibia Wilderness Act of 2011''

    I would like to start out by thanking Chairman Bishop and Ranking 
Member Grijalva for bringing up my bill H.R. 41, the ``Beauty Mountain 
and Agua Tibia Wilderness Act of 2011,'' and other Wilderness bills, 
for consideration. I would also like to thank Chairman Hastings and 
Ranking Member Markey, of the full committee, for their continued 
recognition of the importance of Wilderness.
    At this time it would also be appropriate to express my gratitude 
and appreciation for the hard work and dedication shown by those who 
have been instrumental in helping to formulate the plans, draw the maps 
and perfect the overall bill. Without their perseverance this would not 
have been possible. They include the individuals at the Bureau of Land 
Management, the Conservation Fund, people at the Forest Service, 
employees at the Departments of Agriculture and Interior, staff members 
on the Natural Resources Committee, my own personal staff and the 
public.
    H.R. 41 will ensure that some of California's most magnificent 
scenery and rich wildlife habitats are conserved for the future. It 
will also improve the recreational opportunities and aid the local 
economy through increased tourism.
    My bill will designate more than 21,000 acres of land, in Southern 
California, as new Wilderness. The addition of 7,796 acres to the Agua 
Tibia Wilderness, located in the Cleveland National Forest, will ensure 
that my constituents, and all Americans, will have even more access to 
the beautiful deep canyons and coastal sage scrub located there and 
will protect the Cutca Trail for hikers and equestrians.
    The addition of 13,635 acres of Wilderness to Beauty Mountain will 
expand on the already existing 15,627 acres of rustic and rugged 
terrain, majestic oak lands and fascinating rock formations. It will 
also secure space for a parking area, campground, corrals and access to 
clean water, and safeguard traditional hunting spaces.
    Both areas serve as critical plant and wildlife migration corridors 
between Anza-Borrego Desert State Park on the east and the coastal 
mountains of Riverside and San Diego counties on the west. Agua Tibia 
and Beauty Mountain are places that species such as the Coastal Rosy 
Boa and the Golden Eagle call home. San Diego State University has even 
established a field-school there to study it as an ``evolutionary 
hotspot.''
    Wilderness is public land that has been protected from development 
and vehicle use not to isolate it from humans, but so that humans can 
experience nature in its most primal state. This bill will allow 
present day Americans to see and encounter terrain, plants and animals 
in a state similar to how the Native Americans and the first pioneers 
viewed it generations ago.
    When crafting this bill, special care was taken to accept comments 
and input from local agencies, groups and individuals so that major 
concerns were addressed. These were extremely helpful and the end 
product is a better piece of legislation due to the open forum. For 
example, mining issues were studied and the potential for energy 
development was reviewed and in both cases the Bureau of Land 
Management and Forest Service stated that the areas were not viable 
candidates for such activities. In addition, offroading interests were 
contacted and toured the areas in the field and as a result the bill 
will not close any legally-open roads or trails to vehicles. This will 
ensure that hunters and others will still be able to access camp sites 
that they have used for generations. This bill also took special 
efforts to protect private property rights and to ensure that 
firefighting and fire prevention activities would not be impeded. 
Lastly, the measure permits immigration enforcement, search and rescue 
and other important activities.
    This bill preserves land while making sure that the public can 
still enjoy it. It is a responsible and sensible step toward protecting 
a beautiful natural resource. Equestrians will be able to trot along 
beautiful trails, hikers can tackle and challenge themselves on 
mountainous terrain while witnessing spectacular views, hunters will 
still be able to enjoy traditional game such as deer and quail, and 
campers can sleep under the sky and observe the stars near the Palomar 
Observatory which is just a few miles south of Agua Tibia. In fact, 
this measure is unique in that it calls for the establishment of 
equestrian-friendly campgrounds in a region that has many riders but 
very few facilities for them.
    This bill will also positively impact the economy of businesses in 
my district through eco-tourism. During this time of high unemployment 
and a stagnant economy, efforts that encourage private sector job 
growth should be supported.
    This legislation has bi-partisan appeal, with a companion bill 
introduced by Senator Barbara Boxer, and support from the 
Administration. Secretary of the Interior, Ken Salazar, mentioned H.R. 
41 in a letter to Congress regarding designating certain lands as 
Wilderness.
    In closing, I would once again like to thank Chairman Bishop and 
Ranking Member Grijalva for bringing this bill before the Subcommittee 
on National Parks, Forests and Public Lands and for the chance to be 
here. This legislation will protect and preserve lands for use by 
current and future generations and I look forward to seeing this bill 
brought to the House floor and eventually signed into law.
                                 ______
                                 
    Mr. Bishop. Thank you. And once again, if you would like to 
stay with us you are welcome to do so.
    Actually, I haven't put that in a motion yet. I would ask 
unanimous consent that any Member who wishes to stay here be 
allowed to be on the dais. Thank you. All right.
    Mr. Issa. And without objection, I will go to Judiciary I 
am afraid. Thank you.
    Mr. Bishop. If I object, will you stay?
    Mr. Issa. Mr. Chairman, I have no rule to hold against you. 
I will do as you wish.
    Mr. Bishop. Yes, yes. OK. Thank you for being here.
    Congressman Huizenga from Michigan? Bill, I hope I have 
pronounced that properly.
    Mr. Huizenga. You did, Chairman, and when my bill is up in 
front of your Committee it doesn't matter how you pronounce my 
name.
    Mr. Bishop. OK. Congressman Smith, you are recognized.

 STATEMENT OF THE HONORABLE BILL HUIZENGA, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Huizenga. I appreciate that, Mr. Chairman. Chairman 
Bishop, I appreciate that, and Chairman Hastings and Ranking 
Member Grijalva. Thank you for taking this up. This is an 
important hearing.
    Sleeping Bear National Lakeshore Conservation and 
Recreation Act. The legislation which sits before you really is 
about establishing reasonable boundaries, preserving historic 
landmarks, protecting private property both within and around 
the property, around the park, and maintains hunting and 
fishing rights exercised for generations and, more importantly, 
as Chairman Hastings was talking about, there has been broad 
local input.
    It enjoys broad public support in Michigan and especially 
locally. It is bipartisan, bicameral sponsorship in Congress, 
and it really protects a popular unit of the National Park 
System in our state.
    I would also like to thank Chairman Dave Camp for 
partnering with me in this effort and being here as a co-lead 
in the House, as well as Congressman Benishek and Congressman 
Kildee, who were co-sponsors of this bill, H.R. 977.
    Earlier this year, with over 100,000 votes nationwide, 
Sleeping Bear Dunes National Lakeshore was named the most 
beautiful place in America by ABC's Good Morning America, 
beating such locales as Aspen, Colorado; Cape Cod, 
Massachusetts; Hawaii; Sedona, Arizona. With an annual 
visitation of about 1.2 million people, it is estimated that 
the economic impact of $78 million locally is significant.
    And I can tell you that maintaining and protecting access 
to the lakeshore is absolutely vital as a part of that economy 
because it is entirely dependent on tourism, tourism and 
agriculture up in that area. Chairman Hastings had referenced a 
little bit about that broad local input and, Chairman Bishop, 
you referenced ``locking'' up the land as being significant. I 
could not agree with you more, and quite honestly the road to 
this piece of legislation has not been an easy one.
    In 2002, I was the District Director for my predecessor, 
Peter Hoekstra. At that time, the district was coming out of 
Congressman Bart Stupak's--I am sorry. This area, this county, 
was coming out of Congressman Bart Stupak's district, going and 
being split into both Peter Hoekstra and Dave Camp's district. 
I remember a press conference up there at the time that had 
Carl Levin, Bart Stupak, Peter Hoekstra, Dave Camp all on the 
same page saying hey, wait a minute. We need to hit the time 
out button here.
    And that was because the National Park Service had really 
ignored public input and had developed a management plan that 
would have brought the park back to ``pre Columbian era'', and 
they were talking about tearing up all the county roads to the 
beaches, destroying many historic landmarks and making sure 
that the park was virtually inaccessible to the public, and 
that was just viewed as completely unacceptable.
    This quickly resulted, as you can imagine, in just an 
amazing outcry in northern Michigan and the eventual formation 
of Citizens For Access To The Lakeshore or CAL, a 
representative of which, Ron Liesemer, who is here behind me, 
will be joining you later in the next panel.
    In 2009, after eight years of collaboration among the 
park's officials, road commissions, chambers of commerce, local 
private business people, rotary clubs and virtually every other 
stakeholder imaginable, the Park Service finalized and adopted 
a new management plan with vast support throughout the 
community. Is it unanimous? No. Is it vast? Absolutely.
    There is a consensus within the community that this is the 
direction to go. The plan embodied in this legislation is a 
balanced proposal that will ensure access to this popular 
resource, protecting hunting and fishing, preserving private 
property rights while protecting those from the most fragile 
aspects.
    I believe that an important responsibility of Congress is 
to also hold the Executive Branch accountable for their 
actions, particularly when they don't consult the public. This 
started in 1970. It was also done in the early 1980s and then 
in 2002. It has been over Republican and Democrat 
Administrations.
    But Congress needs to recognize and act on those policies 
and recommendations when the public has been fully engaged, 
which is what has happened here. This is a perfect example of 
that. H.R. 977 has done that. Sleeping Bear Dunes National 
Lakeshore Conservation and Recreation Act demonstrates how the 
process can and frankly should work. The local citizens and 
stakeholders have invested significant time and effort in 
working with us, with the National Park Service and in 
developing the appropriate policies for the area.
    Again, I would like to thank the Committee for recognizing 
the high level of local involvement that has gone into this, 
and it is my hope that the full Committee will soon send this 
bill before the full House of Representatives. I appreciate 
being here with you today.
    [The prepared statement of Mr. Huizenga follows:]

Statement of The Honorable Bill Huizenga, a Representative in Congress 
 from the State of Michigan, on H.R. 977, Sleeping Bear Dunes National 
               Lakeshore Conservation and Recreation Act

    Thank you Chairman Bishop, Ranking Member Grijalva and members of 
the subcommittee for holding this hearing on the Sleeping Bear Dunes 
National Lakeshore Conservation and Recreation Act. The legislation, 
which would designate approximately 32,557 acres as wilderness, enjoys 
broad public support in Michigan, bipartisan, bicameral sponsorship in 
Congress and protects an important and popular unit of the National 
Park System in our state. I would also like to thank Chairman Dave Camp 
for partnering with me in this effort and being the co-lead here in the 
House.
    Earlier this year, with over 100,000 votes nationwide, Sleeping 
Bear Dunes National Lakeshore was named the ``Most Beautiful Place in 
America'' by ABC's Good Morning America beating such locales as Aspen, 
Colorado; Cape Cod, Massachusetts; Lanikai Beach, Hawaii; and Sedona, 
Arizona. With an average yearly visitation of 1.2 million people and an 
estimated economic impact of $78 million per year, protecting and 
maintaining access to the Lakeshore is absolutely vital as its economy 
is almost entirely dependent on tourism.
    The road to introduction for this legislation was not easy. 
Originally, the National Park Service ignored public input in 
developing the management plan. As a result, the Park Service 
recommendations were flawed and were rejected by the public and 
Michigan's Congressional delegation. However, rather than trying to 
move ahead, the Park Service, with prodding from the Congressional 
delegation, went back to the drawing board and engaged in a transparent 
process with extensive discussions with the local citizens and 
stakeholders. The result, embodied in this legislation, is a balanced 
proposal that will ensure access to this popular resource while 
protecting its most fragile aspects.
    An important responsibility of Congress is to hold the Executive 
Branch accountable for their actions particularly when they do not 
consult with the public. However, Congress should also recognize and 
act on those policies and recommendations in which the public has been 
fully engaged. An example of this is H.R. 977. The Sleeping Bear Dunes 
National Lakeshore Conservation and Recreation Act demonstrates how the 
process can and should work. The local citizens and stakeholders have 
invested significant time and effort in working with us and with the 
National Park Service in developing the appropriate policies for this 
area.
    Again, I would like to thank the Committee for recognizing the high 
level of local involvement by scheduling H.R. 977 for action, and it is 
my hope that the full Committee will soon send this bill before the 
full House of Representatives for consideration.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate your testimony from the 
gentleman from Michigan.
    You indicated you had another engagement as well. You are 
welcome to stay here if you would like to. Otherwise, you are 
free to hobble on to your next group. Try not to take out some 
of the viewers there with your crutches.
    Mr. Huizenga. I will try not to. Thank you, Chairman.
    Mr. Bishop. With that, let me finish off the rest of the 
panel. Once again to the three of you who still remain, if you 
would like to stay here, please free to do so.
    Representative Reichert, we will have--I am sorry. Mr. 
Reichert, we won't have you go yet.
    I note the presence of the Ranking Member of the full 
Committee, who by right has the opportunity to give an opening 
statement. I will recognize Mr. Markey at this time if he would 
like to do that.

 STATEMENT OF THE HONORABLE EDWARD J. MARKEY, A REPRESENTATIVE 
       IN CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much and thank 
the Members for joining us here today.
    Mr. Chairman, it is remarkable that the two sides of this 
wilderness debate can look at the same proposals and see very 
different things. Where wilderness opponents see a Federal land 
grab, we see an attempt to bring balance to Federal land 
management policy that is currently tilted wildly in favor of 
resource extraction.
    Where opponents see wasted space that could be better used 
for well pads and roads and open pit mines, we see pristine, 
open spaces which protect habitat, provide clean drinking water 
and allow visitors from around the world to marvel at the 
incredible beauty of this country. And where wilderness 
opponents see missed opportunities for multinational 
corporations to reap vast profits, we see economic engines 
powering local economies with tourism and recreation dollars.
    In order to have a rational discussion of wilderness 
proposals, the fundamental misconceptions that lead to these 
very different views must be addressed.
    First, the Wilderness Act does not create wilderness. In 
fact, Congress does not even create wilderness. Wilderness was 
created long before we arrived by a much higher power. The best 
we can do and what the Wilderness Act seeks to do is identify 
those areas we have not yet altered beyond recognition and 
preserve them so that those who come after us will have some 
idea of what this world looked like when it was given to us by 
our Creator.
    Second, wilderness is a multiple use designation. The fact 
that off-road vehicles and oil wells are prohibited does not 
mean these areas are locked up. A wide variety of recreational 
activities, including hunting and fishing, are allowed and in 
fact flourish in wilderness areas. Grazing and even mining 
occur in some wilderness areas, and any activity necessary for 
the control of insects or fire or the protection of public 
safety are allowed in wilderness.
    And finally, the choice between preserving wilderness and 
energy development is a false one. We have accomplished and we 
must continue to do both. Oil production on public lands is at 
an almost 10-year high. Gas production is at an all-time high, 
and these levels could increase dramatically if energy 
companies simply begin production on leases that they already 
hold.
    Nearly two-thirds of the Federal land in the Lower 48 
states is already open to some level of energy production. The 
wilderness designations on land where by definition energy 
production is not now occurring will have no impact whatsoever 
on overall oil and gas production in this country. Previous 
Congresses have identified wilderness preservation as an 
important goal on par with other uses of our public lands. 
Unfortunately, the goals of wilderness preservation has been 
undermined, mischaracterized and sacrificed on the alter of 
energy development.
    The Members testifying today on their wilderness proposals 
deserve a fair hearing free of the falsehoods and 
mischaracterizations that have been used in the past to inflame 
the wilderness debate. I look forward to hearing all of the 
witnesses testify today, and we thank each of you for 
appearing, and I yield back the balance, Mr. Chairman.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Mr. Chairman, it is remarkable that the two sides of this 
wilderness debate can look at the same proposals and see very different 
things.
    Where wilderness opponents see a federal land grab, we see an 
attempt to bring balance to federal land management policy that is 
currently tilted wildly in favor of resource extraction.
    Where opponents see wasted space that could be better used for 
well-pads and roads and open pit mines, we see pristine, open spaces 
which protect habitat, provide clean drinking water and allow visitors 
from around the world to marvel at the incredible beauty of this 
country.
    And where wilderness opponents see missed opportunities for 
multinational corporations to reap vast profits, we see economic 
engines powering local economies with tourism and recreation dollars.
    In order to have a rational discussion of wilderness proposals, the 
fundamental misconceptions that lead to these very different views must 
be addressed.
    First, the Wilderness Act does not create wilderness. In fact, 
Congress does not even create wilderness. Wilderness was created long 
before we arrived by a much higher power.
    The best we can do, and what the Wilderness Act seeks to do, is 
identify those areas we have not yet altered beyond recognition and 
preserve them so that those who come after us will have some idea of 
what this world looked like when it was given to us by our Creator.
    Second, wilderness is a multiple-use designation. The fact that 
off-road vehicles and oil wells are prohibited does not mean these 
areas are ``locked up.''
    A wide variety of recreational activities, including hunting and 
fishing, are allowed, and in fact flourish, in wilderness areas. 
Grazing, and even mining occur in some wilderness areas.
    And any activity necessary for the control of insects or fire, or 
the protection of public safety are allowed in wilderness.
    Finally, the choice between preserving wilderness and energy 
development is a false one; we have accomplished, and must continue, 
both.
    Oil production on public lands is at an almost ten year high, gas 
production is at an all-time high and these levels could increase 
dramatically if energy companies simply begin production on leases they 
already hold.
    Nearly two thirds of the federal land in the lower 48 states is 
already open to some level of energy production.
    New wilderness designations, on land where, by definition, energy 
production is not now occurring, will have no impact whatsoever on 
overall oil and gas production in this country.
    Previous Congresses have identified wilderness preservation as an 
important goal, on par with other uses of our public lands. 
Unfortunately, the goal of wilderness preservation has been undermined, 
mischaracterized and sacrificed on the altar of energy development.
    The Members testifying today on their wilderness proposals deserve 
a fair hearing--free of the falsehoods and mischaracterizations that 
have been used in the past to inflame the wilderness debate.
    I look forward to learning more about these proposals and thank our 
colleagues for their hard work and commitment to balanced federal land 
management policy. I yield back.
                                 ______
                                 
    Mr. Bishop. I thank the Ranking Member for his 
participation.
    All right. Now we will go back to Mr. Reichert and ask you 
how you particularly wish to dress the garden.

STATEMENT OF THE HONORABLE DAVID REICHERT, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Reichert. Well, I thank the Chairman for holding this 
hearing and the Ranking Member and also full Committee Chairman 
Hastings and the Ranking Member of the full Committee, Mr. 
Markey, for attending today and allowing us to present our 
thoughts on particular wilderness areas that pertain 
specifically to our districts.
    And I agree. I would be personally a little bit 
disappointed and upset if someone from another district or 
another state decided that they wanted to look at an area in my 
district and consider it as a project for themselves. In 
Washington state, I think as everyone on this Committee is very 
well aware, we are very environmentally astute and very 
environmentally aware, and we work very closely together on 
these issues.
    This has been a project in the making since 2007, and we 
have done this the right way. We have come together as a 
community, as stakeholders in meeting after meeting after 
meeting after meeting, drawing and redrawing the boundaries of 
the addition to the current Alpine Lakes Wilderness Area. Our 
hope is that you will continue the good work that you did in 
the last Congress in passing this bill out of your Committee 
and onto the Floor as it passed last Congress also.
    I agree with some of the comments that were made today from 
both sides, but especially agree with the points that have been 
made regarding individuality specific to districts. Local 
control I think is absolutely critical in this area. As I said, 
as the community has come together this is a project that has 
had people put a lot of heart and soul into finally coming to a 
decision and moving forward on this wilderness area.
    This is an opportunity for us on the west side of the 
Cascades in Washington to add some wilderness area that has 
been abused in the past, and I know this from personal 
experience as the sheriff in King County for eight years, the 
last eight years of my career there, but 33 years there and 
knowing this area very, very well as a cop on the streets and 
as the sheriff of the county.
    This was an area that was used by crooks to dump stolen 
goods, stolen automobiles. It was an area used by some of the 
community to dump old furniture and dishwashers. It has also 
recently become an area, until volunteers came forward and 
helped clean up this hopefully protected area here in the near 
future, has become an area where people have dumped meth 
residue, old meth labs, meth equipment, and it really has 
created a problem where some of this residue has seeped into 
the rivers and streams nearby.
    Alpine Lakes Wilderness Area has not just originated here 
on the House side, but it is also supported by people on the 
opposite side of the aisle, on both sides of the aisle in the 
House, but also there is a companion bill on the Senate side 
that Patty Murray has. My staff has given me some facts for you 
to show how in-depth we have gone here.
    This has been extensive consultation, consensus building 
with local stakeholders and, as I said, as late as May 2007 
frequent gatherings to collaborate with elected officials, 
conservation enthusiasts, recreation groups, property rights 
groups and advocates. We constructed this modified proposal. 
This is why, one of the many reasons why, this and the original 
proposal enjoys strong, broad-based local support.
    They have given numbers of 74 elected officials, and this 
is a rural area again so there are not a lot of elected 
officials out there, but this represents the majority of 
elected officials in the area, 115 businessmen and women 
ranging from recreational outfitters to restaurants and 
retailers.
    So again, this we see as an economic opportunity for areas 
like North Bend, as the Chairman knows, Snoqualmie, Summit and 
other small cities around the area, bicycles, fishing shops and 
restaurants, and we appreciate your considering our bill. Thank 
you for the opportunity to testify this morning.
    [The prepared statement of Mr. Reichert follows:]

Statement of The Honorable Dave Reichert, a Representative in Congress 
  from the State of Washington, on H.R. 608, Alpine Lakes Wilderness 
  Additions and Pratt and Middle Fork Snoqualmie Rivers Protection Act

    Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee--thank you for holding this hearing on the Alpine Lakes 
Wilderness Additions and Pratt and Middle Fork Snoqualmie Rivers 
Protection Act (H.R. 608), and for allowing me to testify in support of 
this measure. I would also like to extend my appreciation to the 
Natural Resources committee for approving the legislation last year and 
the House passing it unanimously. Additionally, I wanted to mention 
that Senator Patty Murray has been an outstanding partner in this 
bipartisan conservation effort, and I am pleased to have her leadership 
and the support of Senator Maria Cantwell on this bill.
    H.R. 608 builds upon the proud Washington State tradition initiated 
by Senators Warren Magnuson (D-WA), Scoop Jackson (D-WA), and Dan Evans 
(R-WA) of working together to protect our public lands and preserve 
recreational opportunities for outdoors enthusiasts. The people of 
Washington State understand how this bipartisanship works for their 
lasting benefit: look no further than Mt. Rainier, Olympic, and the 
North Cascades National Parks to see how these anchors of outdoor 
recreation are treasured by residents and visitors alike.
    The current 394,000-acre Alpine Lakes Wilderness reaches the crest 
of the Cascade Mountains just east of the Seattle-Bellevue metropolitan 
area. In 1976, the Alpine Lakes Wilderness was designated by Congress 
and has become one of the most popular wilderness areas in the country. 
Now, 30 years later, H.R. 608 provides an opportunity to permanently 
protect key additions to the Alpine Lakes Wilderness in my 
congressional district that will preserve important wildlife habitats, 
existing recreational opportunities, and local economies that rely on 
both. The legislation embraces important lower-elevation lands, 
completes watersheds, protects two rivers with Wild and Scenic 
designations (the Pratt and Middle Fork Snoqualmie Rivers), and 
provides clean water and flood control for the Middle Fork and South 
Fork valleys. Congressionally-designated Wilderness and Wild and Scenic 
River designations are the strongest and most durable means to ensure 
these special areas are preserved for our children and grandchildren to 
experience.
    The Middle Fork and South Fork valleys are the closest and most 
accessible mountain valleys to residents of the greater Seattle-
Bellevue metropolitan area. The proposed additions have been carefully 
crafted with consideration for existing recreational opportunities for 
hiking, camping, rafting, kayaking, horseback riding, mountain biking, 
and wildlife viewing. It also protects a large area of accessible 
lowland forests, preserving hunting and fishing opportunities in 
primitive settings.
    This proposal also protects an important wildlife habitat that 
contains abundant elk and deer populations. And although salmon are not 
present in the Middle Fork, there are substantial populations of 
resident trout that rely on the streams of the Pratt and Middle Fork 
Snoqualmie Rivers. These watersheds are sources of clean water, 
important for downstream fisheries and commercial and residential water 
users. Preserving the forests as Wilderness would ensure maintenance of 
flow during the dry summer months, and aid in flood control. The 
Snoqualmie basin is subject to flood events on a regular basis; the 
low-elevation forest valleys are critical to controlling run-off rates 
here and the proposed additions would preserve intact forest 
ecosystems, protecting against increasing flood severity on downstream 
infrastructure and residents.
    The benefits of the legislation are clear, but the process we 
engaged in to reach this consensus measure is equally important for the 
Subcommittee to consider. I am proud of the fact that this legislation 
is the result of extensive consultation and consensus-building with 
local stakeholders. Meetings began as early as May 2007, and frequent 
gatherings to collaborate with elected officials, conservation 
enthusiasts, recreation groups, and property-rights advocates 
constructed and modified this proposal to address concerns raised by 
stakeholders. That is one of many reasons why this and the original 
proposal enjoys the strong, broad-based local support of 74 elected 
officials; 115 businesses, ranging from recreational outfitters to 
restaurants and retailers; 15 hunting and angling groups; 14 
recreational groups, including paddlers, bikers, and hikers; 25 
conservation organizations; and 68 religious leaders.
    This collaborative approach is best exemplified by an agreement 
worked out between user groups for access to trails along the 
wilderness boundary. Through discussions with mountain bikers, hikers, 
and conservationists, a consensus plan was crafted to use the trail 
adjacent to the proposed wilderness addition on alternate days, so that 
those hikers seeking a trail experience without encountering bicyclists 
could do so on specific days. Here is an innovative resolution to what 
might otherwise have been a festering controversy. This collaboration 
is a perfect example of the broad coalition of supporters for this 
proposal, and the unity of purpose among them in seeking federal 
designation for these wilderness additions.
    The additions made by H.R. 608 to the Alpine Lakes Wilderness Area, 
combined with the designation of the Middle Fork Snoqualmie River, fit 
the Washington State tradition of collaborative, consensus-based, 
environmental stewardship. This wilderness will serve vast, untold 
numbers of Americans. It serves those who choose to adventure into its 
quiet valleys and up to its sentinel peaks. Some of those are hardy 
mountain climbers; for others the adventure is an afternoon walk, 
grandparents introducing their grandchildren to nature at its most wild 
and inviting along a quiet, easy wilderness trail. It serves the larger 
group of wilderness users who take pleasure from the wilderness they 
view from the Mountains-to-Sound Greenway, an extraordinary corridor of 
protected federal, state, and private lands offering all kinds of 
recreational opportunities to those who travel across our state on 
Interstate 90, which crosses the Cascades just south of the Alpine 
Lakes Wilderness. Those who savor the wild scenery from more developed 
sites and roadways are no less users of wilderness than the adventurers 
who trek to the highest, farther peaks.
    Finally, this wilderness serves the future generations for whom we 
must act today. As a grandfather, I understand that we have a stake 
today in a future I will not live to see. That is the world in which 
our grandchildren's children will live their lives, amid whatever kind 
of landscape we have left them. Count mine as one solid voice on behalf 
of ensuring that the landscape we bequeath to future generations is one 
with an abundant, generous, and diverse system of wilderness areas, not 
only in the most remote stretches of our beautiful country, but right 
here close to home--in a ``backyard wilderness'' such as the Alpine 
Lakes.
    I urge you to support this legislation and to approve it for floor 
consideration. Again, I appreciate your leadership and responsiveness 
in scheduling this hearing, and I would be pleased to respond to any 
questions.
                                 ______
                                 
    Mr. Bishop. Thank you, Congressman.
    Representative Chaffetz? If you want to switch, I don't 
care. We are going to finish the row at the table somewhere. Do 
you want to go first, Representative Simpson?
    Mr. Simpson. I will go first. I was very pleased that----
    Mr. Bishop. We have a pre-existing relationship, so I can 
accept this, can't we?
    Mr. Simpson. I was going to say, I was glad to see that the 
small gift I brought the Chairman and the Chairman of the full 
Committee, the Idaho potato pin, didn't influence your order of 
presentation here.
    Mr. Hastings. Would the gentleman yield for a moment?
    Mr. Simpson. I would be happy to.
    Mr. Hastings. You didn't tell the whole story about our 
conversation on yield per acre. I don't think you mentioned 
that.
    Mr. Simpson. I knew I shouldn't have brought that up.

STATEMENT OF THE HONORABLE MICHAEL SIMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. Anyway, Chairman Bishop and Ranking Member 
Grijalva, Chairman Hastings and Ranking Member Markey, thank 
you for holding this hearing today and giving me the 
opportunity to testify about H.R. 2050, the Idaho Wilderness 
Water Resources Protection Act. This nonpartisan, 
noncontroversial legislation is a technical fix intended to 
enable the Forest Service to authorize and permit existing 
historical water diversions within Idaho wilderness.
    Last Congress, one of my constituents came to me for help 
with the problem. The Middle Fork Lodge has a water diversion 
within the Frank Church-River Of No Return Wilderness Area that 
existed before the wilderness area was established and is 
protected under statute. The diversion was beginning to leak 
and was in desperate need of repairs to ensure that it did not 
threaten the environment and watershed, but it turned out the 
Forest Service did not have the authority to issue the lodge a 
permit to make the necessary repairs.
    As we looked into this issue, we discovered that the Forest 
Service lacks this authority throughout both the Frank Church-
River Of No Return Wilderness where there are 22 known water 
developments and the Selway-Bitterroot Wilderness where there 
are three. These diversions are primarily used to support 
irrigation, minor hydroelectric generation for use on non-
Federal lands.
    While the critical situation at the Middle Fork Lodge 
brought the issue to my attention, it is obvious to me that 
this problem is larger than just one diversion. At some point 
in the future, all 25 of these existing diversions will need 
maintenance or repair work done to ensure their integrity.
    H.R. 2050 authorizes the Forest Service to issue special 
use permits for all qualifying historic water systems in these 
wilderness areas. I believe it is important that we get ahead 
of this problem and ensure that the Forest Service has the 
tools necessary to manage these lands.
    For these reasons, I introduced H.R. 2050. The legislation, 
which was passed by the House last Congress, allows the Forest 
Service to issue the required special use permits to owners of 
historic water systems and sets out specific criteria for doing 
so. Providing this authority will ensure that existing water 
diversions can be properly maintained and repaired when 
necessary and preserve beneficial use for private property 
owners who hold water rights under state law.
    I have deeply appreciated the cooperation of the Forest 
Service in addressing this problem. Not only have they 
communicated with me the need to find a system-wide solution to 
the issues, but at my request they drafted this legislation to 
ensure that it only impacts specific targeted historical 
diversions, those with valid water rights that cannot feasibly 
be relocated outside of the wilderness area.
    H.R. 2050 is nonpartisan and noncontroversial. It is 
intended as a simple, reasonable solution to a problem that I 
think we can all agree should be solved as quickly as possible. 
I am encouraged that the Committee has decided to hold a 
hearing on this bill and hopeful that we can move it through 
the legislative process without delay so that the necessary 
maintenance to these diversions may be completed before the 
damage is beyond repair.
    I thank the Chairman for holding this hearing and inviting 
me to testify this morning.
    [The prepared statement of Mr. Simpson follows:]

    Statement of The Honorable Michael Simpson, a Representative in 
 Congress from the State of Idaho, on H.R. 2050, the Idaho Wilderness 
                     Water Resources Protection Act

    Chairman Bishop and Ranking Member Grijalva, I want to thank you 
for holding this hearing today and giving me an opportunity to testify 
about H.R. 2050, the Idaho Wilderness Water Resources Protection Act.
    This bipartisan, non-controversial legislation is a technical fix 
intended to enable the Forest Service to authorize and permit existing 
historical water diversions within Idaho wilderness.
    Last Congress, one of my constituents came to me for help with a 
problem. The Middle Fork Lodge has a water diversion within the Frank 
Church-River of No Return Wilderness Area that existed before the 
wilderness area was established and is protected under statute.
    The diversion was beginning to leak and was in desperate need of 
repairs to ensure that it did not threaten the environment and 
watershed, but it turned out that the Forest Service did not have 
authority to issue the Lodge a permit to make the necessary repairs.
    As we looked into this issue, we discovered that the Forest Service 
lacks this authority throughout both the Frank Church-River of No 
Return Wilderness, where there are 22 known water developments, and the 
Selway-Bitterroot Wilderness, where there are three. These diversions 
are primarily used to support irrigation and minor hydropower 
generation for use on non-Federal lands.
    While the critical situation at the Middle Fork Lodge brought this 
issue to my attention, it is obvious to me that this problem is larger 
than just one diversion. At some point in the future, all 25 of these 
existing diversions will need maintenance or repair work done to ensure 
their integrity.
    H.R. 2050 authorizes the Forest Service to issue special use 
permits for all qualifying historic water systems in these wilderness 
areas. I believe it is important to get ahead of this problem and 
ensure that the Forest Service has the tools necessary to manage these 
lands.
    For these reasons I have introduced H.R. 2050. This legislation, 
which was passed by the House last Congress, allows the Forest Service 
to issue the required special use permits to owners of historic water 
systems and sets out specific criteria for doing so.
    Providing this authority will ensure that existing water diversions 
can be properly maintained and repaired when necessary and preserves 
beneficial use for private property owners who hold water rights under 
state law.
    I have deeply appreciated the cooperation of the Forest Service in 
addressing this problem. Not only have they communicated with me the 
need to find a system-wide solution to this issue, but at my request 
they drafted this legislation to ensure that it only impacts specific 
targeted historical diversions--those with valid water rights that 
cannot feasibly be relocated outside of the wilderness area.
    H.R. 2050 is bipartisan and non-controversial. It is intended as a 
simple, reasonable solution to a problem that I think we can all agree 
should be solved as quickly as possible. I am encouraged that the 
Committee has decided to hold a hearing on this bill and am hopeful 
that we can move it through the legislative process without delay so 
that the necessary maintenance to these diversions may be completed 
before the damage is beyond repair.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Bishop. I thank Congressman Simpson for joining us. 
Once again, if you would like to stay, please feel free. If you 
have other obligations, everyone else has bailed on us as well. 
You can as well.
    Mr. Simpson. I would have stayed had I been the first to 
testify because I would have done that, but now I have other 
obligations.
    Mr. Bishop. What is that about first liars never something?
    Mr. Chaffetz does not have a wilderness bill, per se, but 
we have been talking about creating land designation, as well 
as modifications within land designation, and your bill before 
us today is one that deals with modifications of land 
designation. Mr. Chaffetz, you are recognized.

STATEMENT OF THE HONORABLE JASON CHAFFETZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Chaffetz. Thank you. Thank you, Chairman Bishop. Thank 
you, Chairman Hastings, Ranking Member Grijalva and Members of 
the Subcommittee. I thank you for allowing me to testify before 
you today on H.R. 1126, the Disposal of Excess Federal Lands 
Act. I look forward to the discussion and hearing from the 
witnesses.
    Federal land ownership is a heated, but critical, topic in 
my home state of Utah, and I appreciate the Committee for 
holding a hearing and advancing this dialogue. One of the 
witnesses is from my and the Chairman's home state. Mark Ward, 
who will deliver testimony in support of 1126, is a Senior 
Policy Analyst, Public Lands and Natural Resource Counsel, for 
the Utah Association of Counties.
    Among other things, the Utah Association of Counties is 
designated to ``securing state and Federal legislation and 
administrative action that is beneficial to the counties of 
Utah and the county residents.'' Needless to say, I value their 
mission, their expertise and their support. I am grateful for 
Mark Ward's participation here before the Committee today.
    H.R. 1126 directs the Secretary of the Interior to sell 
Federal lands that were initially identified in a 1997 report 
conducted by the Clinton Administration. The report directed 
the Secretary of the Interior to identify Federal lands 
suitable for disposal. The Secretary identified roughly 3.3 
million acres of BLM land in 10 western states in its final 
report. These lands remain in Federal ownership today. Under 
the bill, all proceeds from the sales would be directed to the 
U.S. Treasury to help reduce the $14.9 trillion debt.
    At the time, Assistant Secretary of Policy, Management & 
Budget in the Department of the Interior for President Clinton, 
Bonnie Cohen, expressed optimism for the report when she said, 
``The Department of the Interior is working closely with the 
General Services Administration to further identify, evaluate 
and dispose of excess Federal property for this important 
initiative.''
    Unfortunately, the Department and the GSA never quite got 
around to finishing the job. The 3.3 million acres identified 
remain in Federal control today. These lands amount to just 
over 1 percent of BLM land and less than half of 1 percent of 
all Federal lands, and given the fact that over 90 million 
acres have been acquired since 1997 I believe it is important 
to ask the question when is enough Federal land enough.
    Throughout the course of U.S. history, the Federal 
government has acquired roughly 1.8 billion acres of land. 
These acquisitions have come via accession by the colonies, 
treaties and purchases. For example, the most well known 
acquisition was the Louisiana Purchase in 1801.
    Up until passage of the Federal Land Policy and Management 
Act of 1976, it was generally the policy and intent of the 
Federal government to transfer ownership of most lands to 
private and state ownership. This policy resulted in the 
transfer of approximately 1.2 billion acres of land to private 
and state ownership since our country's beginning. Current 
estimates place Federal land ownership at approximately 660 
million acres.
    Current Federal land policies favor acquisition, not 
disposal. Between 1997 and 2004, the General Service 
Administration estimated that Federal land ownership increased 
16 percent, from 563.3 million acres to roughly 653.3 million 
acres. By comparison, between 2000 to 2010 net land disposal 
under the Federal Land Transaction Facilitation Act totaled 
just 7,832 acres.
    Many states in the West have more than 50 percent of the 
lands that are controlled by the Federal government. In Utah, 
this means that just 31 percent of the land is subject to state 
and local taxation, a realty that places great burdens on 
public education, firefighters and police officers who depend 
on state and local taxes for financial support.
    Returning certain Federal lands back to state control would 
help alleviate these restraints. Removing certain public lands 
from Federal control would allow Federal land management 
agencies to focus on lands more deserving of active management 
techniques. It is neither logical nor responsible for the 
Federal government to own and manage surplus lands. Management 
of surplus land is more expensive and pulls resources from 
lands that are truly deserving of Federal management.
    H.R. 1126 is needed to streamline Federal land management. 
In closing, I want to reiterate my thanks to the Subcommittee. 
Federal land ownership issues are extremely important to my 
state and the West at large. The Federal government owns nearly 
one-third of the land mass and continues to spend millions of 
dollars each year to acquire more and more.
    Despite escalating budget deficits and a record high 
national debt, the Federal estate continues to grow, not 
shrink. This growing portfolio limits local governments' 
ability to deliver vital public services such as public 
education. There are lands that should continue to fall under 
the purview of the Federal government, but we must also work 
together to identify and dispose unneeded, excess or surplus 
Federal lands.
    The current land disposal and exchange system is broken. 
Consideration of H.R. 1126 is a good start toward fixing that 
problem. I thank you, Mr. Chairman.
    [The prepared statement of Mr. Chaffetz follows:]

      Statement of The Honorable Jason Chaffetz, a Representative 
            in Congress from the State of Utah, on H.R. 1126

    Chairman Bishop, Ranking Member Grijalva, and members of the 
Subcommittee, thank you for allowing me to testify before you today on 
H.R. 1126, the Disposal of Excess Federal Lands Act. I look forward to 
the discussion and hearing from the witnesses. Federal land ownership 
is a volatile topic and I appreciate the Committee for holding this 
hearing and advancing the dialogue.
    One of the witnesses is from my--and the Chairman's--home state. 
Mark Ward, who will deliver testimony in support of H.R. 1126, is the 
Senior Policy Analyst/Public Lands and Natural Resources Counsel for 
the Utah Association of Counties. Among other things, the Utah 
Association of Counties is dedicated to ``Securing state and federal 
legislation and administrative action that is beneficial to the 
counties of Utah and to county residents.'' Needless to say, I value 
their support and am grateful for Mark's participation.
    H.R. 1126 directs the Secretary of the Interior to sell lands that 
were initially identified in a 1997 Report conducted by the Clinton 
Administration. The Report directed the Secretary of Interior to 
identify lands which were suitable for disposal. The Secretary 
identified roughly 3.3 million acres of Bureau of Land Management land 
in ten western states in its final report--these lands remain in 
federal ownership today. Under the bill, all proceeds from the sales 
would be directed to the U.S. Treasury to help reduce the $14.9 
trillion debt. At the time, Assistant Secretary of Policy, Management, 
and Budget Bonnie Cohen, expressed optimism for the Report when she 
said, ``The Department of Interior is working closely with the General 
Services Administration to further identify, evaluate, and dispose of 
excess federal property for this important initiative.''
    Unfortunately, the Department and GSA never quite got around to 
finishing the job. The 3.3 million acres identified remain in federal 
control today, which is troubling, as these lands amount to just over 
1% of BLM land and less than one half of 1% of all federal lands. And 
given the fact that over 90 million acres have been acquired since 
1997, I believe it's important to ask the question, when is enough 
federal land enough?
    Throughout the course of U.S. history, the federal government has 
acquired roughly 1.8 billion acres of land. These acquisitions have 
come via cession by the colonies, treaties, and purchases. For example, 
the most well known acquisition was the Louisiana Purchase in 1801. Up 
until 1976, it was generally the policy and intent of the federal 
government to transfer ownership of most lands to private and state 
ownership. This policy resulted in the transfer of approximately 1.2 
billion acres of land to private and state ownership since our 
country's beginning. Current estimates place federal land ownership as 
approximately 660 million acres.
    Current federal land policies favor acquisition, not disposal. 
Between 1997 and 2004, the General Services Administration estimated 
that federal land ownership increased 16 percent--from 563.3 million 
acres to 653.3 million. By comparison, land disposed under the primary 
federal land disposal program totaled just 7,832 acres. Between 2000-
2010 just 25,967 acres were sold under the Federal Land Transaction 
Facilitation Act while 18,135 acres were acquired--a net reduction of 
7,832 acres, or just a fraction of a fraction of all federal lands.
    In the West, more than 50% of the lands are controlled by the 
federal government. In Utah, just 31% of the land is subject to state 
and local taxation--a reality that places great burdens on public 
education, firefighters, and police officers who depend on state and 
local taxes for financial support. Returning certain federal lands back 
to state and local control would help to alleviate these restraints.
    Removing certain public lands from federal control would allow 
federal land management agencies to focus on lands more deserving of 
active management techniques. It is not logical nor responsible for the 
federal government to own and manage surplus lands. Management of 
surplus land is more expensive and pulls resources from lands that are 
truly deserving of federal management. H.R. 1126 is needed to 
streamline federal land management.
    In closing, I want to reiterate my thanks to this Subcommittee. 
Federal land ownership issues are extremely important to my state and 
the West at large. The federal government owns a disproportionate 
amount of land and is seemingly doing little to reverse the trend. 
There are lands that should continue to fall under the purview of the 
federal government, but we must also work together to identify and 
dispose excess lands. The current land disposal and exchange system is 
broken. Consideration of H.R. 1126 is a good start towards fixing it.
                                 ______
                                 
    Mr. Bishop. Thank you, Congressman. Once again, if you 
would like to stay with us we would welcome you to do so.
    I have two other witnesses that need to be heard. We have 
two other bills before us today, first of all from Congressman 
DeFazio and then Congressman Heinrich.
    Congressman DeFazio is recognized to introduce your bill if 
you would.

 STATEMENT OF THE HONORABLE PETER DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. Thanks for this 
opportunity. I have a statement, which I will insert in the 
record, and I will summarize to save time for the Committee.
    H.R. 1413, Devil's Staircase Wilderness Act. This 
legislation passed out of this Committee in the last Congress, 
and I am hopeful it will again in this Congress. This is a 
truly wild area. It is an area where logging was ceased in the 
early 1970s because it is the area of steepest and most 
unstable slopes in the coast range of Oregon, and it was found 
unsuitable for harvest.
    There are two other overlays on the land, so it never will 
be actively managed. However, it does merit special designation 
as a wilderness. It is trail-less. It is incredibly steep and 
varied, multiple canopies of old growth. It has an incredible 
population of species, frequently rare species and endangered 
species.
    I personally made the trek to the Devil's Staircase. Maybe 
a couple hundred people have ever gotten there. For a while it 
was even rumored whether it existed or didn't exist until about 
30 years ago. So it is a truly wild area that does deserve a 
special designation and recognition, and I would recommend it 
to this Committee.
    With that, Mr. Chairman, I would just put my statement in 
the record.
    [The prepared statement of Mr. DeFazio follows:]

Statement of The Honorable Peter DeFazio, a Representative in Congress 
from the State of Oregon, on H.R. 1413, Devils Staircase Wilderness Act

    Thank you Chairman Bishop for holding this hearing and for 
including H.R. 1413, the Devil's Staircase Wilderness Act.
    My bill would designate approximately 30,000 acres of the Siuslaw 
National Forest and the Bureau of Land Management's Coos Bay District 
as the Devil's Staircase Wilderness Area. The bill would also designate 
a 4.5 mile segment of Franklin Creek and a 10-mile segment of Wasson 
Creek as ``wild.'' These feeder streams support federally listed Coho 
and Chinook salmon.
    Having undertaken the day-long trek to the series of cascading 
pools that give the area its name, I can personally attest to the 
rugged nature and extraordinary beauty of Devil's Staircase. If there 
is a place in Oregon that meets the ``untrammeled by man'' definition 
in the Wilderness Act, Devil's Staircase is that place.
    H.R. 1413 should not be a controversial bill. The area represents 
one of the largest remaining old growth forests and the largest 
roadless area in Oregon Coast Range--where less than 10% of the land 
remains unlogged.
    With 1,800 foot canyons, the area is unsuitable for logging and 
road-building. In fact, the forest soils in the area are mostly 
classified as the most landside-prone soil type in Oregon and among the 
most unstable in the world.
    Unstable soils so plagued early efforts to log in the vicinity of 
Devil's Staircase that, in the 1970s, the U.S. Forest Service withdrew 
from timber management all land between the Smith and Umpqua Rivers--
the location of the proposed wilderness area.
    Today, Devil's Staircase is designated as a Late Successional 
Reserve, which is managed to protect and enhance the habitat for old 
growth-related species under the Northwest Forest Plan. The area is 
also designated as critical habitat for the northern spotted owl--a 
federally listed species. Even under the controversial 2008 Western 
Oregon Plan Revisions, the area was off-limits to logging.
    I am currently working with the Oregon Congressional Delegation, 
Governor Kitzhaber, and key stakeholders on a long-term management plan 
for the O&C Lands--a unique set of lands in western Oregon. Our goals 
include providing a more predictable supply of timber to rural 
communities, greater financial certainty to forested counties, and 
lasting protection for the most sensitive places on the landscape.
    In every scenario discussed for the O&C Lands, there is broad and 
bipartisan agreement that Devil's Staircase should be protected as 
wilderness. Even the Association of O&C Counties has agreed in its 
proposal for the O&C Lands that Devil's Staircase should be off the 
table.
    I have gone to great lengths to accommodate concerns from 
neighboring landowners and key stakeholders. In my bill, I explicitly 
protect all valid and existing rights between federal land management 
agencies and private parties. This includes reciprocal right-of-way, 
tail-hold, and access agreements.
    I included a section in the bill to protect fishing and hunting 
privileges.
    I accommodated the Chairman's concerns about ``Buffer Zones'' by 
adding language from the previous Congress clarifying that my bill does 
not include protective perimeters or buffer zones around the wilderness 
area.
    And, while not explicitly stated, Devil's Staircase would fully 
comply with the Wilderness Act by allowing the respective secretaries 
to take necessary measures to control fire, insects, and disease.
    I appreciate the Obama Administration's support for H.R. 1413. And, 
I look forward to working with you Chairman Bishop and my colleagues on 
the committee to move this legislation forward.
    I am happy to answer any questions.
                                 ______
                                 
    Mr. Bishop. Thank you. Appreciate that.
    Representative Heinrich?

STATEMENT OF THE HONORABLE MARTIN HEINRICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Heinrich. Thank you, Mr. Chairman. I want to thank our 
witnesses who are here today.
    The Cibola National Forest provides a stunning background 
to the City of Albuquerque and much of central New Mexico. 
Stretching north to south through the Sandia-Manzano Mountains, 
this national forest demonstrates the value of preserving back 
country opportunities near urban areas.
    H.R. 490 would transfer the 896 acre Manzano Wilderness 
Study Area from the BLM to the Forest Service and add it to the 
existing Manzano Mountain Wilderness Area. Because this is an 
isolated BLM parcel bordered on two sides by Forest Service 
wilderness, this transfer would streamline management of the 
land and permanently protect habitat for local wildlife.
    The bill has strong support from residents in my district 
and is part of our western values in New Mexico to support our 
public lands, wildlife and wilderness that are vital to our 
state's natural heritage and to our tourism sector, which is 
the second largest private industry in our local economy.
    In fact, according to the Outdoor Industry Association, 
outdoor recreation spaces like this in New Mexico yield 43,000 
jobs and $3.8 billion to the state's economy. On the national 
level, the outdoor industry creates seven million jobs and 
contributes $730 billion to our economy annually.
    We consider it a real blessing to have such a space so 
close to our metropolitan area. Thousands of families, 
including my own, appreciate the chance to drive a few minutes 
to be able to spend a half day or a full day in some of 
America's most spectacular public lands. This move is also a 
priority for local sportsmen who rely on the Manzano Mountain 
wilderness to provide habitat for game species such as turkey, 
bear and mule deer, and it is supported by the New Mexico 
Wildlife Federation.
    This is about keeping our landmark promise to future 
generations, and I can't say enough about the importance of 
partnerships between sportsmen and other public land 
conservationists.
    Last Congress an identical bill received bipartisan support 
in the full Committee, and I look forward to working with 
Chairman Bishop, Ranking Member Grijalva and the other Members 
of this Subcommittee to see this area protected in my district. 
I yield back my time.
    Mr. Bishop. I appreciate the witnesses, the Members of 
Congress that have introduced their bills.
    We are going to now turn to the next panel, and I would 
invite them all to come up. We will just have one panel. I 
invite Mike Pool, who is the Deputy Director of BLM at the 
Department of the Interior; Mark Ward, who is the Senior Policy 
Analyst for the Utah Association of Counties; Dr. Brian Steed 
from Utah State University of the Huntsman School of Business; 
Dr. Ronald Liesemer, who is the Vice President of Citizens for 
Access to the Lakeshore; and Ms. Erica Rosenberg, who is the 
Board President of Western Lands Project.
    If you could all come and take your place at the dais, I 
would appreciate it.
    [Pause.]
    Mr. Bishop. One again, we thank you all for being with us 
here today. As has been stated before, for those of you who are 
new and those of you who aren't, your written statements will 
already appear in the record. We would ask you to summarize 
your statements orally in the five minutes that is allowed to 
each of you.
    The clock in front of you should tell you the time that is 
there. When the light is green, we are running well. When the 
light turns yellow, there is one minute hopefully to summarize. 
When the light turns red, we would like you to conclude your 
statements hopefully without a compound sentence.
    Someday I am going to get my way on this Committee and we 
are going to do bills one at a time. However, because we are 
under some time constraints we would like to hear from each of 
the witnesses here, and then we will turn to the Committee for 
questions.
    So, Mr. Pool, especially as you are starting from the 
Administration, from the Department of the Interior, we would 
ask you to comment on all or any of the bills in which you wish 
to, and then we will simply go from left to right down the 
line. You are recognized for five minutes.

    STATEMENT OF MIKE POOL, DEPUTY DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Pool. Thank you, Mr. Chairman and Members of the 
Committee, for inviting the Department of the Interior to 
testify on a number of public land bills. I will briefly 
summarize my testimonies and ask that they be included in the 
record.
    The Department of the Interior supports the expansion of 
the Beauty Mountain Wilderness Area by 14,000 acres in San 
Diego County. The BLM welcomes the opportunity presented by 
H.R. 41 to enhance protection for this important area. We defer 
to the Department of Agriculture regarding the expansion of the 
Agua Tibia Wilderness Area.
    H.R. 490 transfers administrative jurisdiction of the 896 
acre Manzano Wilderness Study Area from the Secretary of the 
Interior to the Secretary of Agriculture to be managed by the 
Forest Service as part of the Manzano Wilderness Area. This 
area is adjacent to the Forest Service managed Cibola National 
Forest, but isolated from other BLM managed lands. The BLM 
supports this transfer.
    The Department supports H.R. 1413, Devil's Staircase 
Wilderness Act, as it applies to lands managed by BLM. H.R. 
1413 proposes to designate over 30,000 acres as wilderness, as 
well as portions above Franklin Creek and Wasson Creek as 
components of the Wild and Scenic River System. Approximately 
6,830 acres of the proposed Devil's Staircase Wilderness and 
4.2 miles of the Wasson Creek proposed designation are within 
lands managed by the BLM. The Department of the Interior defers 
to the U.S. Department of Agriculture on those designations on 
National Forest System lands.
    I am submitting testimony for the record on behalf of the 
National Park Service in support of H.R. 977, Sleeping Bear 
Dunes National Lakeshore Conservation and Recreation Act. The 
bill will designate 32,557 acres or 46 percent of Sleeping Bear 
Dunes National Lakeshore in Michigan's Lower Peninsula as 
wilderness. The overwhelming majority of local officials, the 
conservation community and the Michigan delegation are united 
in their support for this bill as a winning resolution to an 
issue that has been debated since the park's establishment in 
1970.
    I am also accompanied today by Garry Oye, Chief of the 
National Park Service's Wilderness Stewardship Division, who 
would be happy to answer any additional questions the Committee 
may have on H.R. 977.
    The Administration strongly opposes H.R. 1126, the disposal 
of excess Federal lands. H.R. 1126 would be costly, harmful to 
local economies and communities and undermine important 
resource values. It would also be unlikely to generate 
significant revenues to the U.S. Treasury. The Administration 
instead encourages Congress to reauthorize the Federal Land 
Transaction Facilitation Act.
    FLTFA addresses many of the impediments to disposal by 
providing a careful, thoughtful process for land disposal, 
together with the mechanism for funding that disposal. 
Furthermore, the proceeds of the sale of BLM managed lands 
under FLTFA are used to acquire inholdings from willing sellers 
in the most environmentally sensitive areas. Thus, the long-
term interest of the American public in future generations is 
protected.
    The Administration continues to urge Congress to 
reauthorize FLTFA and allow the BLM to continue with the 
rational process of land disposal that is anchored in the 
public participation and sound land use planning while 
providing for land acquisition to strengthen the nation's 
conservation heritage.
    Thank you for the invitation to testify today. I would be 
happy to answer any questions.
    [The prepared statements of Mr. Pool follow:]

  Statement of Mike Pool, Deputy Director, Bureau of Land Management, 
 U.S. Department of the Interior, on H.R. 41, Beauty Mountain and Agua 
                      Tibia Wilderness Act of 2011

    Thank you for inviting the Department of the Interior to testify on 
H.R. 41, the Beauty Mountain and Agua Tibia Wilderness Act of 2011. 
H.R. 41 significantly expands the Beauty Mountain Wilderness 
established by the Omnibus Public Land Management Act (P.L. 111-11). 
The Department welcomes the opportunity to enhance protection for this 
important area and supports this wilderness expansion. We would also 
like the opportunity to work with the sponsor and the Committee on 
minor and technical amendments to the bill, and note that the BLM can 
administratively accomplish the placement of recreational facilities 
described in the bill. The Department defers to the Department of 
Agriculture regarding the expansion of the Agua Tibia Wilderness 
involving National Forest System Lands.
Background
    The Omnibus Public Land Management Act (P.L. 111-11) designated the 
Beauty Mountain Wilderness on 15,600 acres of public lands managed by 
the Bureau of Land Management (BLM) in Riverside County, California. 
This designation constituted the northern half of the Beauty Mountain 
Wilderness Study Area (WSA) within Riverside County; the law did not 
address the southern half of Beauty Mountain within San Diego County.
    The Beauty Mountain area supports a rich complement of wildlife 
species because of its location within the transition zone from the oak 
woodlands and mountain chaparral of the eastern edge of the Peninsular 
Range to the creosote bush scrub at the western edge of the Colorado 
Desert. Home to several threatened or endangered desert species, these 
public lands enhance important wildlife corridors and landscape 
connections to the expansive Anza Borrego Desert State Park. Within an 
hour's drive of the major population centers of San Diego and 
Riverside, this area is a popular destination for a variety of 
dispersed outdoor recreational activities including camping, hiking, 
horseback riding and hunting.
H.R. 41
    H.R. 41 enlarges the existing Beauty Mountain Wilderness by 
approximately 14,000 acres. The expansion of the wilderness area is 
critical to maintain open space and to protect this significant area of 
chaparral, canyons and forest in northern San Diego County. In 2007 and 
2008, the BLM testified in support of the wilderness designation of 
Beauty Mountain, but noted that the southern boundary of the area was 
arbitrarily cut off at the county line. We welcome the completion of 
this wilderness area provided for in this legislation.
    H.R. 41 represents several years of collaborative effort by 
Representative Issa that involved close coordination with elected 
officials, environmental organizations, community groups, adjacent 
landowners, and concerned individuals in San Diego County. 
Representative Issa worked diligently to seek consensus on the 
wilderness expansion from all segments of the public as well as private 
landowners adjacent to the wilderness.
    There are several minor amendments to H.R. 41 that we would like to 
address. First, the BLM prepared a new map for Congressman Issa last 
year, dated March 2, 2010. This map more accurately reflects current 
land status showing the recent acquisition of private lands (largely 
through donation to the Federal government) within the proposed 
wilderness area. We recommend that the bill be updated to reference the 
new map from 2010, which reflects a wilderness addition of just over 
14,000 acres.
    Additionally, the BLM would like the opportunity to work on 
technical language modifications for consistency with other wilderness 
legislation. Finally, while we do not object to the intent of section 
201 regarding the placement of recreational facilities such as a 
campground, parking areas and related facilities on adjacent lands, we 
prefer that these proposals be analyzed through the land management 
planning process, which includes public input and review. We request 
that it not be included in legislative language as it may reduce the 
agency's flexibility in the future. The BLM recommends that these 
issues instead be addressed in Committee report language.
Conclusion
    Thank you again for the opportunity to testify in support of the 
provisions of H.R. 41 regarding the expansion of the Beauty Mountain 
Wilderness. I will be happy to answer any questions.
                                 ______
                                 

  Statement of Mike Pool, Deputy Director, Bureau of Land Management, 
 U.S. Department of the Interior, on H.R. 490, Cibola National Forest 
                           Boundary Expansion

    Thank you for the opportunity to testify on H.R. 490, a bill that 
would expand the boundaries of the Cibola National Forest in New Mexico 
by transferring to the U.S. Forest Service (Forest Service) 
administrative jurisdiction of the Manzano Wilderness Study Area (WSA) 
and designating it as wilderness. The Manzano WSA is currently managed 
by the Bureau of Land Management (BLM). The Department of the Interior 
supports H.R. 490.
Background
    The 896-acre Manzano WSA is adjacent to the existing Manzano 
Mountain Wilderness on the southern end of the Cibola National Forest. 
The landscape, located on the west face of the Manzano Mountains, 
includes pinon-juniper with extensive wildlife populations, such as 
mule deer, bear, coyotes, numerous raptors, and mountain lions.
    The New Mexico offices of the BLM and the Forest Service 
periodically discuss opportunities to adjust boundaries to improve the 
management of Federal land in order to manage parcels more effectively 
and efficiently on the ground. Through these discussions, the Manzano 
WSA was identified as a parcel that could be managed more efficiently 
by the Forest Service than by the BLM. We look forward to continuing 
our work with the Forest Service to explore opportunities to provide 
for more efficient and effective management of BLM and Forest Service 
lands.
    During the 111th Congress, the House Natural Resources Committee 
favorably reported legislation (H.R. 5388) after adopting an amendment 
in the nature of a substitute that addressed concerns raised by the 
Department of the Interior on the introduced bill. H.R. 490 is 
identical to H.R. 5388 as reported by the Committee.
H.R. 490
    The bill (Section 1(c)) transfers administrative jurisdiction of 
the Manzano Wilderness Study Area from the Secretary of the Interior to 
the Secretary of Agriculture to be managed by the Forest Service as 
part of the Manzano Wilderness Area. This area is adjacent to Forest 
Service-managed National Forest System lands (the Cibola National 
Forest), but isolated from other BLM-managed lands. The BLM supports 
this transfer. The remaining provisions of H.R. 490 pertain exclusively 
to the U.S. Forest Service's management of these lands after the 
transfer of administrative jurisdiction. We defer to the U.S. 
Department of Agriculture on issues affecting management of National 
Forest System lands.
Conclusion
    Thank you for the opportunity to testify on H.R. 490. I am happy to 
answer any questions.
                                 ______
                                 

   Statement submitted for the record by the U.S. Department of the 
   Interior on H.R. 977, To Designate as Wilderness Certain Land and 
 Inland Water Within the Sleeping Bear Dunes National Lakeshore in the 
               State of Michigan, and for other purposes.

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 977, a bill to designate the Sleeping Bear 
Dunes Wilderness at Sleeping Bear Dunes National Lakeshore in the State 
of Michigan.
    The Department strongly supports enactment of H.R. 977. This 
legislation would designate 32,557 acres, or 46 percent, of Sleeping 
Bear Dunes National Lakeshore in Michigan's Lower Peninsula as 
federally protected wilderness. Management of the wilderness area would 
be in accordance with the 1964 Wilderness Act (16 U.S.C. 1131 et seq.).
    P.L. 91-479 established Sleeping Bear Dunes National Lakeshore on 
October 21, 1970, in order ``. . .that certain outstanding natural 
features including forests, beaches, dune formations, and ancient 
(glacial) phenomena. . .be preserved in their natural setting and 
protected from developments and uses which would destroy the scenic 
beauty and natural character of the area. . .for the benefit, 
inspiration, education, recreation, and enjoyment of the public.'' This 
bill clearly supports the intent of that law.
    The park extends nearly 30 miles along the eastern shore of Lake 
Michigan. It also includes two large Lake Michigan islands with an 
additional 35 miles of shoreline. The park protects and preserves 
superlative scenic and recreational resources including towering 
perched sand dunes that rise as high as 450 feet above Lake Michigan. 
The park contains several federally threatened and endangered species, 
including the Piping Plover, Pitcher's Thistle and Michigan 
Monkeyflower. The park also includes many historic features, 
includingAmerican Indians a lighthouse and three U.S. life-saving 
service stations, coastal villages, and picturesque farmsteads. 
Permanent wilderness designation will ensure protection of these 
significant natural, cultural and historical resources.
    The park receives nearly 1.2 million visitors each year who enjoy 
the beaches, over 100 miles of backcountry trails and eight 
campgrounds. The region surrounding the park is a popular vacation and 
summer home destination as visitors and residents take advantage of a 
variety of recreational opportunities, including hiking, camping, 
backpacking, hunting, fishing, bird watching, boating, cross-country 
skiing and snowshoeing. The National Park Service estimates that the 
presence of the National Lakeshore brings nearly $78 million of 
economic benefit to the local community each year. <SUP>*</SUP> 
Designation of the wilderness area will not limit public access or 
change the way the area is currently being managed for public use and 
enjoyment.
---------------------------------------------------------------------------
    \*\ Stynes, Daniel J. ``National Park Visitor Spending and Payroll 
Impacts: 2009.'' National Park Service, 2011.
---------------------------------------------------------------------------
    Native American use of the area extends some 3,000 years into the 
past and is represented today primarily by the Grand Traverse Band of 
Ottawa and Chippewa Indians. Nothing in H.R. 977 would modify, alter, 
or affect any treaty rights.
    The park encompasses a total of 71,291 acres; about 58,571 acres of 
land and 12,720 acres of water. Over 30,000 acres of the proposed 
32,557-acre wilderness area have been managed as wilderness since 1981, 
when a wilderness proposal produced under the park's first 
comprehensive General Management Plan (GMP) was published. Since that 
time, the five areas of the park proposed as wilderness have provided 
outstanding recreational opportunities for hikers, backpackers, 
anglers, paddlers, and hunters with hunting being allowed in accordance 
with State regulations. A network of hiking trails and numerous camping 
opportunities will continue to be maintained in this portion of the 
park, even with the wilderness designation. The additional acres in the 
current proposal arise from the inclusion of the Sleeping Bear Plateau, 
an area only suitable for foot travel that continues to offer 
outstanding opportunities for solitude. Since formal wilderness 
designation would not change the way in which visitor use is currently 
managed in the area proposed as wilderness, there is no reason to 
believe it would have any detrimental impact on visitation or the local 
economy, and formal designation may actually have a beneficial impact.
    The proposed wilderness area does not include any existing county 
roads or areas managed primarily for historic resources. This is to 
ensure the continued availability of the county roads for visitors 
accessing remote trailheads, beaches, backcountry areas and historic 
areas. Although the park's boundary extends one-quarter mile out into 
Lake Michigan, none of the waters of Lake Michigan are proposed as 
wilderness. H.R. 977 would authorize the use of boat motors on the 
surface water of Lake Michigan adjacent to the wilderness and beaching 
of those boats, subject to applicable laws. This is to ensure continued 
access by boaters to the shoreline beach adjacent to the wilderness 
area. These have been areas of significant public concern.
    Between 2006 and 2009, the NPS developed an updated GMP for the 
park. Because of public concern over the 1981 wilderness proposal, and 
its inclusion of county roads and historic sites, a formal Wilderness 
Study was conducted as part of this comprehensive planning effort. 
After extensive public involvement, review, and comment, including 
overwhelming public support for wilderness designation, the preferred 
alternative in the final GMP/Wilderness Study was approved by the 
Midwest Regional Director on January 6, 2009. The area of proposed 
wilderness was mapped at 32,557 acres, with a portion in all five 
eligible areas, and is the same as the proposed wilderness designation 
in H.R. 977. The final GMP/Wilderness Study does not propose wilderness 
in several eligible areas, including those areas fragmented by the road 
corridors near the Otter Creek area of the Lakeshore; the land within 
the Port Oneida Rural Historic District; the lands in the historic 
``Cottage Row'' on North Manitou Island; the area in the South Manitou 
Island historic farm loop; an area near the historic Bufka Farm 
identified for a bicycle trail; and the congested area at the top of 
the Dune Climb.
    Passage of H.R. 977 would support the vision in the new GMP. The 
bill has very strong, broad-based public support. The overwhelming 
majority of local officials, the conservation community, and the 
Michigan delegation are united in their support for this bill as a 
winning resolution to an issue that has been debated since the park's 
establishment in 1970. Parties that had been bitterly polarized over 
earlier proposals have reached consensus that this bill strikes an 
appropriate balance between preserving access and guaranteeing 
outstanding primitive recreational opportunities.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                                 ______
                                 

  Statement of Mike Pool, Deputy Director, Bureau of Land Management, 
   U.S. Department of the Interior, on H.R. 1126, Disposal of Excess 
                       Federal Lands Act of 2011

    Thank you for inviting the Department of the Interior to testify on 
H.R. 1126, the Disposal of Excess Federal Lands Act. The Administration 
strongly opposes H.R. 1126 and instead encourages the Congress to 
reauthorize the Federal Land Transaction Facilitation Act (FLTFA) which 
has a proven track record of providing for the thoughtful, efficient, 
and economical disposal of appropriate public lands.
Background
    Congress has long recognized the national interest in preserving 
and conserving the public lands for present and future generations of 
Americans. In 1976, Congress declared it the policy of the United 
States that ``. . .the public lands be retained in federal ownership, 
unless as a result of land use planning. . .it is determined that 
disposal of a particular parcel will serve the national interest'' 
(Federal Land Policy and Management Act of 1976 (FLPMA); Public Law 94-
579). Section 203 of FLPMA allows the BLM to identify lands as 
potentially available for sale through the land use planning process, 
provided they meet one or more of the following criteria:
        <bullet>  Lands consisting of scattered, isolated tracts that 
        are difficult or uneconomic to manage;
        <bullet>  Lands that were acquired for a specific purpose and 
        are no longer needed for that purpose; and
        <bullet>  Lands that could serve important public objectives, 
        such as community expansion and economic development, which 
        outweigh other public objectives and values that could be 
        served by retaining the land in Federal ownership.
    The BLM oversees the public lands through 157 Resource Management 
Plans (RMPs). Since 2000, the BLM has completed 70 RMP revisions and 
major plan amendments. Additionally, the BLM is currently working on 
planning efforts for 46 new RMPs. Each land use planning document is 
unique and typically identifies lands as potentially available for 
disposal through sale, exchange (typically to further particular 
resource goals), or for conveyance under the Recreation and Public 
Purposes Act (R&PP) for public purposes such as schools, fire stations, 
and community parks. Lands identified for potential disposal may be 
available for any or all of these purposes. The BLM may only dispose of 
lands that are identified for disposal in the appropriate land use plan 
unless otherwise directed by Congress.
    Lands that are identified for disposal in RMPs do not represent a 
Federal ``multiple listing service'' and there may be substantial 
impediments to disposal. The process of identifying these lands as 
potentially available for disposal in an RMP typically does not include 
site-specific identification of impediments to disposal, such as the 
presence of threatened or endangered species, cultural or historic 
resources, mining claims, mineral leases, rights-of-way, and grazing 
permits. Also not included in this identification process is an 
appraisal to establish market value or a specific survey of the lands. 
Furthermore, because land use plans typically extend over many years, 
lands identified as potentially available for disposal at one point in 
time may be found later to be unsuitable because of new circumstances 
such as oil and gas leasing, the listing of threatened and endangered 
species, the establishment of rights-of-way, or other encumbrances.
Disposal of BLM-Managed Lands
    A number of authorities and mechanisms currently exist that provide 
for the disposal of BLM-managed public lands. The BLM has the authority 
under FLPMA (Section 203) to sell lands identified for disposal. The 
proceeds from sales are deposited into the General Fund of the 
Treasury. Typically these sales have been for low value lands, for 
example isolated parcels surrounded by private land.
    FLPMA (Section 206) also provides the agency with administrative 
land exchange authority. To be eligible for exchange, BLM-managed lands 
must be identified for disposal through the land use planning process. 
Exchanges allow the BLM to acquire environmentally-sensitive lands 
while transferring public lands into private ownership for local needs 
and to consolidate scattered tracts.
    Congress also has provided specific direction to the BLM through 
legislated land exchanges. For example, the Utah Recreational Land 
Exchange Act of 2009 (Public Law 111-53) mandated the exchange of 
specific public lands in Grand and Uintah Counties in Utah for state 
lands in those same counties. Another example is the Southern Nevada 
Public Land Management Act (Public Law 105-263, as amended), whereby 
Congress provided for competitive auction of public lands in the Las 
Vegas Valley with the proceeds from those sales used to acquire 
environmentally-sensitive lands and other purposes.
    The R&PP Act is an extremely important authority utilized by the 
BLM to help states, local communities, and nonprofit organizations 
obtain at no or low cost lands for important public purposes. Examples 
include parks, schools, hospitals and other health facilities, fire and 
law enforcement facilities, courthouses, social services facilities, 
and public works projects. Since 2000, the BLM has disposed of over 
31,000 acres of public land through the R&PP process and currently 
leases an nearly 80,000 acres of public land under the Act.
    Finally, enactment of the FLTFA in 2000 (Public Law 106-248), which 
expired on July 25, 2011, allowed the BLM to sell public lands 
identified for disposal through the land use planning process prior to 
July 2000, and retain the proceeds from those sales in a special 
account in the Treasury. The BLM could then use those funds to acquire, 
from willing sellers, inholdings within and adjacent to certain 
federally designated areas that contain exceptional resources, 
including areas managed by the National Park Service (NPS), the U.S. 
Fish and Wildlife Service (FWS), the U.S. Forest Service (FS), and the 
BLM. Approximately 26,000 acres were sold under this authority and over 
18,000 acres of high resource value lands were acquired.
1997 Lands Report to Congress
    In 1996, the Congress (Public Law 104-127, Section 390) directed 
the Secretary of the Interior to report to Congress on lands that may 
be suitable for disposal or exchange to benefit the Everglades 
Restoration effort in Florida. The Department of the Interior's May 27, 
1997 report to Congress included a list of BLM-managed lands that had 
been identified for disposal through the BLM's land use planning 
process, while excluding lands that had been withdrawn, segregated, or 
identified for other specific purposes detailed in the report. The 
report was a general county-by-county summary and did not provide 
individual parcel information, though it did include a list of 
potential impediments to disposal, including lack of legal access; the 
presence of mineral leases and mining claims; threatened and endangered 
species habitat; historical and cultural values; hazardous material 
contamination; and title conflicts. No appraisals or surveys were 
conducted of the lands included in the 1997 report. Lands were not 
identified in California or Alaska because public lands in those states 
that were identified for disposal were committed to needs identified 
under other Acts of Congress.
H.R. 1126
    H.R. 1126 directs the Secretary of the Interior to sell at 
competitive sale, for no less than fair market value, all lands 
included in the Department of the Interior's 1997 Report to Congress. 
The bill excludes from consideration lands that are no longer 
identified for disposal, under an R&PP application, identified for 
state selection, identified for tribal allotments, or identified for 
local government use. Under the bill, proceeds from the sale of these 
lands are to be deposited in the U.S. Treasury. While a time frame for 
sales is not established, a report to Congress is required four years 
after enactment that includes a list of unsold lands and the a reason 
lands have not been sold. The bill provides no exceptions to the 
requirement to dispose of identified Federal land for resource or value 
reasons.
    Before any parcels could be sold at auction, the BLM may need to 
undertake a comprehensive NEPA review of every parcel (including 
cultural resource and threatened and endangered species inventories), 
and a survey and appraisal of every parcel. These actions would be both 
time-consuming and costly, requiring the BLM to redirect limited 
resources from other more critical priorities. With limited resources 
and competing priorities such as oil and gas leasing, and renewable 
energy rights-of-way, a mandate to sell large blocks of land would 
severely affect the BLM's ability to respond to the Nation's energy 
needs and the needs of local communities. In many cases, the end result 
would be costs in excess of any value realized, and further deflated 
land values in struggling western communities.
    Furthermore, the bill could negatively affect public land ranchers. 
Many of the lands identified for disposal are within existing grazing 
allotments. In the past, grazing permittees have frequently declined to 
acquire these lands when they are offered for sale, for financial or 
other reasons. Moving these lands into other private hands could have a 
deleterious effect on ranching communities.
    Many of the lands that BLM has identified for potential disposal 
through the land use planning process are isolated, rural parcels with 
minimal market value. Others are in or adjacent to communities that 
have seen a dramatic erosion of land values. Flooding those markets 
with additional land could further undermine the economic health of 
those communities. Still others may have important historic or cultural 
sites that deserve to be protected for future generations. Important 
energy resources may yet be tapped on other lands which could provide a 
revenue stream to the Treasury and state governments.
    The Administration strongly opposes H.R. 1126. H.R. 1126 would be 
costly, harmful to local economies and communities, and undermine 
important resource values. It also would be unlikely to generate 
significant revenues to the U.S. Treasury.
    The Federal Land Transaction Facilitation Act addressed many of 
these impediments to disposal by providing a careful, thoughtful 
process for land disposal together with a mechanism for funding that 
disposal. Furthermore, the proceeds of the sale of BLM-managed lands 
under the FLTFA are used to acquire inholdings from willing sellers in 
the most environmentally-sensitive areas. Thus, the long-term interest 
of the American public and future generations is protected. The 
Administration continues to urge the Congress to reauthorize the FLTFA 
and allow the BLM to continue with a rational process of land disposal 
that is anchored in public participation and sound land use planning, 
while providing for land acquisition to strengthen this Nation's 
conservation heritage.
Conclusion
    Thank you for the opportunity to testify. We would like to work 
with Congress so that the thoughtful, efficient and economical disposal 
of public lands appropriate for disposal can go forward.
                                 ______
                                 

  Statement of Mike Pool, Deputy Director, Bureau of Land Management, 
   U.S. Department of the Interior, on H.R. 1413, Devil's Staircase 
                             Wilderness Act

    Thank you for inviting the Department of the Interior to testify on 
H.R. 1413, the Devil's Staircase Wilderness Act of 2011. The Bureau of 
Land Management (BLM) supports H.R. 1413 as it applies to lands we 
manage.
Background
    The proposed Devil's Staircase Wilderness, near the coast of 
southwestern Oregon, is not for the faint of heart. Mostly wild land 
and difficult to access, the Devil's Staircase reminds us of what much 
of this land looked like hundreds of years ago. A multi-storied forest 
of Douglas fir and western hemlock towers over underbrush of giant 
ferns, providing critical habitat for the threatened Northern Spotted 
Owl and Marbled Murrelet. The remote and rugged nature of this area 
provides a truly wild experience for any hiker.
H.R. 1413
    H.R. 1413 proposes to designate over 30,000 acres as wilderness, as 
well as portions of both Franklin Creek and Wasson Creek as components 
of the Wild and Scenic Rivers System. The majority of these 
designations are on lands managed by the U.S. Forest Service. The 
Department of the Interior defers to the U.S. Department of Agriculture 
on those designations.
    Approximately 6,830 acres of the proposed Devil's Staircase 
Wilderness and 4.2 miles of the Wasson Creek proposed designation are 
within lands managed by the BLM. The Department of the Interior 
supports these designations.
    We note that while the vast majority of the acres proposed for 
designation are Oregon & California (O&C) lands, identified under the 
1937 O&C Lands Act for timber production, the BLM currently restricts 
timber production on these lands. These lands are administratively 
withdrawn from timber production by the BLM through various 
administrative classifications. Additionally, the BLM estimates that 
nearly 90 percent of the area proposed for designation is comprised of 
forest stands that are over 100 years old, and provides critical 
habitat for the threatened Marbled Murrelet and Northern Spotted Owl.
    The 4.2 miles of Wasson Creek would be designated as a wild river 
to be managed by the BLM under H.R. 1413. The majority of the acres 
protected through this designation would be within the proposed Devil's 
Staircase wilderness designation, though 376 acres would be outside the 
proposed wilderness on adjacent BLM lands.
    The designations identified on BLM-managed lands under H.R. 1413 
would result in only minor modification of current management of the 
area and would preserve these wild lands for future generations.
Conclusion
    Thank you for the opportunity to testify in support of these 
important Oregon designations. The Department of the Interior looks 
forward to welcoming these units into the BLM's National Landscape 
Conservation System.
                                 ______
                                 
    Mr. Johnson [presiding]. Thank you, Mr. Pool.
    Mr. Ward?

  STATEMENT OF J. MARK WARD, SENIOR POLICY ANALYST AND PUBLIC 
   LANDS AND NATURAL RESOURCES COUNSEL, UTAH ASSOCIATION OF 
                            COUNTIES

    Mr. Ward. Thank you. Honorable Subcommittee Members, good 
morning. I am Mark Ward with the Utah Association of Counties. 
Sometimes we call ourselves UAC. To explain why UAC supports 
H.R. 1126 sponsored by Representative Chaffetz, I want to touch 
on a national travesty--some call it a tragedy--that has 
unfolded and is unfolding on three fronts in the West.
    First, the discriminatory impact of Federal land ownership 
in the West. Second, the looming and growing unsustainability 
of Federal land management budgets. And, third, the emerging 
ecological problems on western Federal lands.
    First of all, the problems of discriminatory impact of 
western Federal land ownership. Western state and local 
governments under the burden of excessive Federal land 
ownership have taken it on the chin economically in four ways.
    First, through property taxes. Western states are losing 
hundreds of millions of dollars in property taxes annually due 
to large-scale Federal land ownership. The map shown here on 
the screen tells the whole story. The red in the states in the 
West show the percentage of Federal land ownership. As you can 
see, there is a great disparity between the percentage of 
Federal land ownership in the West and in the East.
    In Utah, for example, only 31 percent of the land is 
subject to state and local taxation, yet the state and its 
counties have to provide basic governmental services throughout 
the entire state. For school children in the western United 
States, the cherished constitutional ideal of equal protection 
under the law has no meaning when it comes to the funding of 
public schools due to the fact that in the West we depend upon 
scant percentages of private taxable land to fund education.
    Second, in enabling acts. Congress in state enabling acts 
at statehood promised western states that 5 percent of the 
proceeds of the sale of Federal land would benefit public 
education and other beneficiaries. At that time, it was assumed 
that the Federal government would continue to dispose of the 
lands. But that promise has not come to pass as the Federal 
government reversed its land disposal policies in the late 20th 
century. That is a great breach of trust that cries out for 
justice and a remedy more than a century later.
    Third, natural resource royalty revenues. States receive 
less than half the royalty revenues from the private industry's 
use of public lands. Such royalties would go to state and local 
governments if the lands were under local control such as is 
the case in oil fields in Texas and North Dakota.
    Fourth, school trust lands. When Utah and other western 
states joined the Union, the Federal government transferred 
land to the states in trust for a public education and other 
beneficiaries, but the land was conveyed in scattered, 
standalone sections across each township of land, making much 
of this land difficult to use for the purpose for which it was 
conveyed. To make matters worse, Federal policies in the late 
20th century have locked up the resource uses in the Federal 
lands surrounding these school trust sections, thus making it 
hard to realize the economic promise for which those school 
sections were conveyed.
    It is in this context, the context of the gross failure of 
the funding mechanisms' promise to western states at statehood, 
that I ask the respected Members of this Subcommittee to 
consider the modest Federal land disposal aims of H.R. 1126. A 
reasonable and well thought out program to dispose of excess 
Federal lands in the West is desperately needed to 
counterbalance the grossly unfair and stacked deck against 
western states, in light of what I have just stated, as starkly 
illustrated in the map on the screen.
    The second problem, the looming fiscal collapse of Federal 
land management budgets. The Federal budget for maintenance of 
some 650 million acres of Federal lands is soaring and is 
simply unsustainable in this area of massive budget deficits. 
In the face of this maintenance backlog and the soaring 
deficits, what is the Federal government's response? Buy up 
more and more land.
    It is time to call a time out to this pattern. Congress, 
beginning with this Subcommittee, should calmly and rationally 
convene a reasonable program of land disposal and sale, which 
H.R. 1126 represents, if for no other reason than to stave off 
national bankruptcy, if not the collapse of Federal land 
management budgets.
    Finally, the emerging ecological time bomb of western 
Federal land management. It is time to realize the truth that 
many western counties realize; that is, Federal land 
management. The verdict is in. After two decades of leave-it-
alone de facto management policies has rendered many Federal 
lands in poor condition. This kind of poor condition would not 
have occurred had state and local policies and zoning over 
private lands been the rule, not the exception.
    For these reasons, we urge passage of H.R. 1126. Thank you.
    [The prepared statement of Mr. Ward follows:]

   Statement of J. Mark Ward, Senior Policy Analyst/Public Lands and 
 Natural Resources Counsel, Utah Association of Counties, on H.R. 1126

    My name is J. Mark Ward and I reside in South Jordan, Utah, a 
suburb of Salt Lake City. I am a natural resources and public lands 
lawyer of nine plus years experience, and I am in my 28th year of legal 
practice overall. I am employed with the Utah Association of Counties 
(referred to as UAC) and my position is Senior Policy Analyst and 
Public Lands/Natural Resources Counsel.. UAC is a non-profit Utah 
corporation whose membership is comprised of the counties of Utah. One 
of the purposes of UAC is to represent the interests of counties 
impacted by federal public land policies, including land disposal 
policies. UAC also works closely with county associations in other 
Western States, specifically the National Association of Counties 
Western Interstate Region, on public land issues that transcend the 
West and the Nation. UAC member counties are cooperating agencies with 
federal land management agencies such as the U.S. Bureau of Land 
Management (BLM) and the Forest Service in developing resource 
management plans and land use plans.
    With this background, I am here to testify that public interest in 
obtaining and privatizing a reasonable amount of federal public land 
through sale and disposal remains very high among the counties of Utah, 
and very high among most counties throughout the 11 western public 
lands states where some of the country's fastest growing regions are 
located. A program of routine and measured federal land disposal is 
critically needed for the reasons which I will outline below. 
Accordingly, UAC strongly supports passage of H.R. 1126, ``Disposal of 
Excess Federal Lands Act of 2011.''
The Grossly Uneven Impact of Western Federal Lands Ownership Without A 
        Reasonable Federal Land Disposal Program
    Over the course of our nation's history, approximately 1.1 billion 
acres of public land have passed out of federal ownership under various 
land laws. Despite this, approximately one-third of the land area of 
the 50 states still belongs to the federal government and over 90 
percent of all Federal land lies from the Rocky Mountains west. Average 
federal land ownership in the 11 Western States is 50 percent, 
exceeding 50 percent in 5 western states, including Utah, and 20 
percent in 12 states.
    Exhibit A is a map which some of you may have seen before. This map 
dramatically demonstrates the disparity of federal land ownership as a 
percentage of total land, between the western states and the eastern 
states. The public lands in Utah alone are about equal to the total 
area of the state of Florida. The entire area of Pennsylvania is 
smaller than the Federal public lands in either Wyoming or Oregon. I 
ask many of the respected members of this Subcommittee from eastern 
states to pause and imagine trying to finance your state's public 
educational programs if the tables were turned and less than half of 
your state's land area were subject to property taxation to support 
public schools. This gross disparity in federal land ownership between 
the western and eastern states remains one of the great yet-unsolved 
injustices of this nation. The 11 western states truly are not on an 
equal footing with eastern states, and the Constitution's cherished 
ideal of equal protection under the law has no meaning for western 
public school children who depend on county property taxes off the 
meager scant percentages of private land in each western state to 
support their educational programs.
    Moreover, the nature of federal land ownership has dramatically 
changed to adversely impact western counties. A U.S. GAO report 
entitled Land Ownership, Information on the Acreage, Management and Use 
of Federal and Other Lands, GAO/RCED-96-40: (U.S. General Accounting 
Office, Washington, D.C. 1996) indicates that the amount of land 
managed for conservation purposes--that is national parks, national 
wildlife refuges, wilderness and wilderness study areas, wild and 
scenic rivers, and areas of critical environmental concern--has 
increased 66 million acres from 1964 to 1994, making more than 272 
million acres out of 622 million acres of public lands, or 44 percent, 
off limits to resource use. The result is dramatically adverse for 
rural counties in the West, whose economies depend directly on use of 
public lands resources. But the federal government has not stopped with 
merely restricting use of its own lands; federal land management 
agencies have expanded their rights to use 3 million acres of 
nonfederal land, including rights to cross private lands owned by 
private parties, nonprofit organizations, or nonfederal government 
entities. In addition, from 1964 to 1994 environmental organizations 
transferred 3.2 million acres of land to the federal government, all to 
be locked up and no longer subject to state and local taxation for 
critical services such as public education.
    Am I here to advocate a wholesale divestiture of public lands in 
the West? No; the Utah Association of Counties asks only that you 
consider the very modest aim of H.R. 1126 in the context of the grossly 
unfair and outright discriminatory stacked deck against the Western 
States according to the facts I have just stated, and as starkly 
illustrated in Exhibit A.
    Does the modest disposal of federal land called for by H.R. 1126 
find support in current public lands law? The answer is an emphatic 
yes. The policy and the legal framework of federal land disposal are 
very much alive and well, and any claim that the days of federal land 
disposal are in the past, is simply incorrect. The Federal Land Policy 
Management Act of 1976, 43 U.S.C. Sec. Sec. 1701-1784. (FLPMA) governs 
how the U.S. Bureau of Land Management (BLM) administers hundreds of 
millions of acres of public land in the United States. While FLPMA 
repealed most major prior laws providing for disposal of public lands, 
Section 203 of FLPMA, 43 U.S.C. Sec. 1713(a) still gives the Secretary 
of Interior authority, with certain limited exceptions, to dispose of 
public lands at fair market value, generally through competitive 
bidding, under any or all of three disposal criteria:
    1)  The land tract is difficult or uneconomic to manage;
    2)  The purpose for which the land tract was acquired, and any 
other federal purpose, no longer apply; or
    3)  Disposal of the land tract serves important public objectives 
including but not limited to community expansion and economic 
development which cannot be achieved if the land remains public, and 
these objectives outweigh other public objectives and values.
    (Exceptions to the foregoing criteria include Wilderness and Wild 
and Scenic River, and National System of Trails lands, and lands 
classified, withdrawn reserved or otherwise designated not for sale.)
    The Secretary of Interior and BLM Director routinely act on this 
authority and analyze and identify public lands for disposal either as 
part of each BLM Resource Management Plan, or as part of a report done 
pursuant to many Congressional mandates, such as the Secretary of 
Interior's report of May 27, 1997 to Congress as done pursuant to the 
Federal Agriculture Improvement and Reform Act of 1996, as referenced 
on pages 2-3 of H.R. 1126. All H.R. 1126 seeks to accomplish is to act 
on the lands identified as suitable for disposal in that 1997 
Secretarial report. Proposed tracts for sale greater than 2,500 acres 
must first be submitted to Congress.
    A program of consistent disposal of federal lands is necessary to 
prevent ever-mounting pressures on rural businesses and agricultural 
operations resulting from increased Federal control of traditional 
multiple use activities on public lands. Federal control on public and 
even private lands in the West continues to expand, adversely affecting 
property, recreation, and small business involved in resource 
industries--putting many of them out of business.
    Returning again to the subject of public education, the eastern 
states-western states disparity in ability to fund education cannot be 
emphasized enough. One of the biggest challenges facing western states 
and western counties is funding for public education. It is imperative 
that counties find solutions not only for today, but well into the 
future. Returning to Exhibit A, again, western counties are 
disillusioned to see that in the eastern states, state and local 
governments can tax all but roughly 4 percent of the land, because that 
is the average extent of federal land ownership--4%. But in the West, 
the federal government owns more than 50 percent, and in Utah's case 
even higher.
    Federal land ownership in the West impairs public education funding 
in at least four ways:
    1)  Enabling Acts. When Utah and many other western states were 
first admitted into the Union, it was agreed in the State Enabling Acts 
that 5 percent of the proceeds from the sale of federal land would 
benefit public education and other beneficiaries. At the time, it was 
assumed that the federal government would continue to dispose of public 
lands creating an endowment of hundreds of millions if not billions of 
dollars per state for public schools. That promise was shattered when 
the federal government reversed its land disposal policies in the 20th 
century.
    2)  Property Taxes. Local school districts cannot assess property 
taxes on federal lands. Western states are losing hundreds of millions 
in property taxes annually due to unreasonable levels of retained 
federal land ownership. The Federal Payment In Lieu of Taxes (PILT) 
program and Secure Rural School (SRS) programs only make up a minute 
percentage of this annual loss. Taking a closer look at Utah as a 
typical example of the 11 western states, only 31% of the land in Utah 
is subject to state and local taxation; yet the state and its counties 
have to provide basic governmental services throughout the entire 
state:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    3)  Natural Resources Royalty Revenues. States receive less 
than half of the royalty revenue from private industry's use of public 
lands; whereas all of these royalties would go to state and local 
governments if the lands were under local rather than federal control, 
such as the case for many oil wells in Texas and North Dakota. These 
energy royalties in Utah go to fund public education and other critical 
state and local governmental services. Even the sub 50% royalty 
revenues have declined in the face of an ever-increasing onslaught of 
so-called environmental policies which discourage continued mineral and 
energy development on public lands. More and more under the current 
Administration, the BLM has usurped the Congressional multiple use 
mandate of FLPMA, effectively withdrawing energy rich lands that have 
traditionally use for energy development, from continued development in 
Utah and many other western states.
    4)  School Trust Lands. When Utah and other western states joined 
the Union, the federal government transferred land to the States for a 
trust for public education and other beneficiaries. But the land was 
conveyed in scattered, stand-alone sections across each township of 
land, making much of this land difficult to use for the purpose for 
which it was conveyed. Moreover, federal policies of the late 20th 
Century have locked up resource uses of many surrounding federal lands, 
making it even harder for western states to develop their trust land 
sections for economic use. A federal land disposal policy coupled with 
a reasonable land exchange policy would free up these trust sections 
for reasonable development, thereby making good on the federal 
government's promise to the western states when these trust lands were 
conveyed in the first place.
    It is in the context of this gross failure of the funding 
mechanisms promised to western states at statehood, that I ask the 
respected members of this Subcommittee to consider the modest federal 
land disposal aims of H.R. 1126. Again, if you are from an eastern 
state, I respectfully ask you again to try to imagine for a moment 
funding the public education programs in your state, under the perfect 
storm of an already cut-in-half tax base, an ignored and forgotten 
State Enabling Act promise of 5% revenue from the sales of all lands in 
your state, and an energy royalty program that is already arbitrarily 
cut in half and shrinking more each year due to the never-ending 
onslaught of so-called environmental lawsuits and D.C. environmental 
lobby influence that effectively shuts down resource use of the 
surrounding federal lands and thus renders the isolated state school 
trust tracts unusable.
The Advantages That Accrue From a Reasonable Federal Land Disposal 
        Program
Economic Considerations
    The federal government owns so much land that experts can only 
provide rough estimates of the total acreage under federal control. The 
Congressional Research Service can only estimate that the total is 
roughly 650 million acres, or roughly one of every three acres 
nationwide, and nearly one of every two acres in the western United 
States.
    It is little wonder the federal budget for maintenance of these 
lands is soaring and simply unsustainable in this area of massive 
budget deficits and mounting federal debt. According to a March 1, 2011 
GAO report entitled ``Department of the Interior: Major Management 
Challenges,'' http://www.gao/new.items/d11424t.pdf, the Department of 
Interior faces a maintenance backlog estimated at $13.5 billion to 
$19.9 billion. Despite record budget deficits and soaring maintenance 
costs, the federal government has spent more than $430 million to 
purchase additional land since the most recent recession, and has spent 
$2.3 billion to acquire land over the past ten years. Congressional 
Research Service, ``Land and Water Conservation Fund: Overview, Funding 
History and Issues,'' August 13, 2010, http://www.crs.gov/Products/RL/
PDF/RL33531.pdf, and Congressional Research Service, ``Interior, 
Environmental and Related Agencies: FY 2011 Appropriations,'' May 12, 
2011, http://www,.crs.gov/Products/R/PDF/R41258.pdf. Between 1997 and 
2004, federal land ownership is estimated to have increased from 563.3 
million acres to 653.3 million, an increase of 90 million acres, or a 
16 percent increase in just seven years. General Service 
Administration: ``Federal Real Property Report,'' See 1997 and 2004 
Reports, http://www.gsa.gov/portal/content/1028880.
    In the face of this out-of-control expenditure of funds to hoard up 
precious previously private lands, it would seem that the Department of 
Interior and the federal government as a whole, might benefit from 
bills like H.R. 1126 to bring in much needed revenue and reduce the 
cost and burden of maintaining the already swollen and bloated 
inventory of federally owned lands. That is a reasonable proposition 
given the current era of budget crises and ever mounting federal debt.
    It is amazing indeed, to contemplate the opposition to the modest 
aims of H.R. 1126 in the face of this voracious onslaught of 
irresponsible and out of control acquisition of additional federal land 
with mostly borrowed dollars which only swell the federal deficit that 
much more, and add to the already grossly swollen backlog of 
maintenance needs on the federal lands. Far from criticizing the modest 
land disposal goals of H.R. 1126, the public, the Congress and the 
honorable members of this Subcommittee, need to turn full scrutiny on 
the brazen, out-of-control federal land acquisition program documented 
above. Brazen is not a light word, but we do not live in easy times. 
The capacity of our federal government to operate on a sound fiscal 
state is in grave peril. So is that of many state and local 
governments, many of whom depend on property taxation. Thus this 
voracious land acquisition program which only saddles the federal 
public lands operating budget beyond its breaking point, while taking 
lands off of state and local government tax rolls, is bad policy to say 
the least.
    In this era of unprecedented budget deficits and economy crippling 
federal debt, one should apologize for expensive federal land 
acquisition programs, not federal land disposal programs. One should 
apologize for not employing more federal land disposal programs to 
stave off looming national bankruptcy.
Ecological Considerations
    The federal government's inherent propensity to mismanage public 
lands and allow ecological degradation thereon, and inherently superior 
care and attention given to land management by state and local agencies 
and private landowners and stakeholders, are well known, almost 
universally accepted facts of life throughout rural Western counties. 
In the West, we know intrinsically that federal public land management 
seldom deliver what the citizens expect, either on the revenue side or 
on the environmental side. Many federal land managers at the state and 
local level are moral, hard working, honest and well meaning in their 
intentions. But they are woefully underfunded and often hamstrung by 
non-sensical environmental policies that emanate out of Washington 
headquarters. Thus the argument that federal land management agencies 
are inherently better land managers than are private owners and state 
and local government managers, is suspect in theory and to Western 
rural counties, simply unfounded in fact.
    On behalf of rural counties throughout Utah and throughout the 
West, I will state unequivocally before this Honorable Subcommittee, 
that local governments and local land owners are and always will be 
better stewards of the land than federal land management agencies. Why? 
The answer is simple: Because local citizens, governments, private 
landowners, and private stakeholders depend on the land; they know the 
land much better; they are literally children of the land, many of whom 
are tied to it multi-generationally. Their ancestors and forbears 
learned out of life-or-death necessity to keep up a sustainable yield 
off the land; which means they learned how to preserve it and beautify 
it, not destroy it and degrade through reason-defying, leave-it-alone 
policies pushed on the West from the environmental lobby. When the 
story of the American West is completed, historians will chronicle the 
1990's hatched so-called wilderness/environmental movement imposed on 
the American West by the federal government as an aberrational blip on 
the screen of an otherwise decades long steady stream of true 
environmental stewardship applied to the land by those who settled it 
and their descendants. The hundreds of millions of acres of infested 
cheat grass and other invasive weeds, and the bark beetle kill and 
catastrophic wildfire index on federally owned lands throughout the 
west, are monuments to the failure of remote federal mismanagement of 
the public lands hatched in the 1990's. Nature is the biggest, most 
indicting witness of this mishap. The public lands in the West were 
once vibrant when managed according to state and local government and 
landowner policy and direction. No more. Many of our the West's public 
lands today are massive evidentiary exhibits of failed practices under 
the guise of failed ``leave-it-alone'' philosophies that grew out of 
the 1990's era wilderness movement. That kind of destruction to many 
parts of the West would not have occurred had those lands been subject 
to local government and private citizen input. The local authorities of 
the American West would not have let matters deteriorate so, plain and 
simple. They love the land too much.
    Again, does that mean I am here to argue for wholesale conversion 
of the public lands to private ownership? I simply raise these points 
to refute the false argument that the federal land acres subject to 
disposal under H.R. 1126 will somehow suffer environmental harm if 
transferred out of federal ownership.
Conclusion
    Seriously unsustainable federal land management operating deficits 
are the rule any more, not the exception. Federal land managers have 
few incentives to cut administrative and road costs that are routinely 
higher than revenues. Selling some of these lands out from federal 
management would reduce this budgetary strain. But the pain of such 
great economic losses would be lessened if the federal government 
managed the public lands to be ecologically healthy. They do not. The 
West groans the strain of a pseudo wilderness ethic that puts a 
relentless assault on virtually all attempts at actively managing the 
land. The result; Ecological waste in the name of ecological 
conservation, one of the great staggering ironies of the late 20th and 
early 21st centuries that American historians will long remember and 
chronicle. Ranges are over-populated by deer, elk and wild horses 
competing for inadequate forage. Lush native grasslands have succumbed 
to pinion and juniper over-growth and wildfire-prone cheat grass which 
reduce water yield to farms and communities. Vibrant forests with 
diverse stands of aspen and pine, supporting timber activity that kept 
the understory clean of debris buildup and enhanced wildlife habitat, 
have succumbed to thick over-choked old-growth aspen-less stands full 
of dangerous fire-prone understory, that drive off many species of 
birds and small mammals. All in the name of what? In the name of 
failed, leave-it-alone policies that would not have endured under local 
governmental and private influence. Poignant exceptions to this sad 
general rule are those state and privately managed tracts of lands 
where proper active management is allowed, and certain limited federal 
tracts of land where federal land is managed according to the policies 
and preferences of state and local governments and nearby private 
landowners.
    In sum, given the economic and environmental costs of operating the 
federal lands under federal ownership and managerial control, the time 
has come to consider H.R. 1126 and similar proposals for privatization 
of select public lands as recommended by the Secretary pursuant FLPMA 
mandate and periodic Congressional mandate. Privately owned, and even 
state owned, lands can raise revenue sufficient to maintain such lands 
and product a profit. And it is well known to western counties that 
private and state ownership can produce environmental advantages. 
Allowing the market to provide incentives for allocation and re-
allocation of land uses to those functions that are perceived to have 
the highest value, should be of interest to all Americans, both from an 
economic and ecological standpoint. Almost two decades worth of 
evidence is in: The BLM is a ship in distress, economically and 
ecologically. Reasonable federal land disposal is a good program, that 
will help right that ship.
    For these and other reasons, UAC respectfully urges this 
Subcommittee to pass out H.R. 1126 with a favorable recommendation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 

    Mr. Johnson. Thank you, Mr. Ward.
    Mr. Steed, you are now recognized for five minutes.

  STATEMENT OF BRIAN C. STEED, J.D., PH.D., JOHN M. HUNTSMAN 
           SCHOOL OF BUSINESS, UTAH STATE UNIVERSITY

    Dr. Steed. Thank you. To Members of the Committee, I really 
appreciate the invitation to testify today. My name is Brian 
Steed. I work at the Huntsman School of Business at Utah State 
University.
    Myself and colleagues at the Center for Public Lands and 
Rural Economics have been engaged in a series of studies 
looking at the economic impacts on local communities over the 
past few years. I became involved in 2008, and I would like to 
talk about some of the research that we have been doing over 
the past few years there in the Center for Public Lands and 
Rural Economics.
    Specifically I guess I am going to start where I thought I 
would end. I would like to point out, first of all, that I am 
not antiwilderness. Rather, the impetus of the work that I have 
done and that I would prefer to testify on today is about the 
tradeoffs inherent whenever we designate public lands. We 
designate in restrictive land use categories that are in fact 
things that are taken off the table.
    My studies talk to those in some detail. Specifically, I 
will speak on three studies that we have undertaken over the 
past few years, first of all looking at the economic impacts of 
wilderness; second, looking at the economic impacts of the 
Grand Staircase-Escalante National Monument; and, third, I will 
finish with an examination of the treasured landscapes memo 
specifically looking at the tradeoffs inherent in designating 
national monuments within these proposed areas.
    First on wilderness, recently colleagues and myself 
finished a study where we examined all 3,000 counties in the 
United States to examine the difference between wilderness and 
nonwilderness counties. We were funded by the U.S. Department 
of Agriculture in conducting this study, and really the impetus 
behind this study was the major disconnect between those who 
advocate on behalf of wilderness and those who reside in local 
communities.
    Wilderness areas often are praised by environmental groups 
as providing great economic benefits and bemoaned by local 
communities as providing huge economic costs. Myself and my 
colleagues in the Center for Public Lands and Rural Economics 
were interested in this disconnect. We examined all 3,000 
counties. We specifically were interested in three economic 
indicators. First of all, average household income; second, 
total payroll; and, third, total tax receipts.
    In examining each of these variables of interest, we 
constructed a regression model looking at these variables from 
1995, 2000 and 2005 and controlled for other variables, 
including the percent of public lands and other traditional 
demographic variables. In conducting the study, we found that 
in fact wilderness counties were associated with diminished 
economic conditions.
    Specifically, we found that wilderness counties had an 
estimated household income of $1,446 less than nonwilderness 
counties. Total payroll in wilderness counties was $37,500 less 
than in wilderness [sic] counties, and total tax receipts were 
estimated to be $92,910 less in wilderness counties than in 
nonwilderness counties.
    What is interesting about these studies is that ideally we 
would have been able to collect data prior to the designation 
of all these wilderness areas and compare the counties over 
time with matched counties that did not have wilderness 
therein. Unfortunately, the data for that type of research is 
unavailable and would be extraordinarily costly to compile. 
Therefore, we conducted a much smaller scale study on the Grand 
Staircase-Escalante National Monument, and I will be talking 
about that next.
    What is nice about the Grand Staircase is that it provides 
an insular study to where we can control for a variety of 
economic conditions, as well as examine conditions in Garfield 
and Kane Counties prior to the designation of the monuments, as 
well as after the designation of the monument, and compare 
those counties with other counties in the United States.
    We conducted a similar study to the one I just described 
with wilderness and found that in fact Garfield and Kane 
Counties, when compared to other similarly matched counties, 
did not show massive economic improvements. Rather, we found a 
null result to where we can't say with any certainty that 
economic conditions were improved by the designation of the 
Grand Staircase National Monument. This study did not look at 
the opportunity costs where we look at what was given up over 
time.
    In the Grand Staircase it is well known that local 
conditions were ripe for mining, as well as other attractive 
industries. Those were not pursued because of the designation, 
and locals frequently complain that there are opportunity costs 
when those are taken off the table. We conducted a similar 
study looking at the Treasured Landscapes National Monuments 
and found similarly that they would involve opportunity costs 
for energy resources.
    And with that, I am happy to take questions. Thank you.
    [The prepared statement of Dr. Steed follows:]

  Statement of Brian C. Steed, JD, PhD, Economics Instructor, Jon M. 
           Huntsman School of Business, Utah State University

    It is a pleasure to be in attendance at today's hearing to talk 
about research activities that have been going on over the past few 
years at the Center for Public Lands and Rural Economics at Utah State 
University and Southern Utah University. In 2008, Dr. Randy Simmons and 
I at Utah State University and Dr. Ryan Yonk, who is now at Southern 
Utah University, began a serious investigation of the relationship 
between the designation of Wilderness pursuant to the Wilderness Act of 
1964 and local economic conditions. The impetus of the study stemmed 
from the vastly different claims made by environmentalists and local 
governmental officials in the Western United States surrounding the 
economic impacts of designated Wilderness. Environmentalists claim that 
Wilderness has quite positive results on local communities, by inviting 
tourism revenue and through increasing amenity values that draw 
business to the area. Contrary to these claims, local officials 
frequently bemoan the designation of Wilderness for permanently 
limiting land use options.
    My interest in this area of research stemmed from my own personal 
life experiences as a Westerner and from my professional experience 
working in the mid-2000s as a Deputy Iron County Attorney in Southern 
Utah. In each of these settings, I have personally witnessed the 
genuine concern of local citizens that Wilderness designations cut off 
access to public lands for economic and recreational activities that 
would otherwise be potentially available.
    Additionally, I am personally interested in natural resource and 
environmental management. I hold a Certificate in Natural Resource and 
Environmental Law from the University of Utah. I also hold a PhD in 
Public Policy from Indiana University with a focus on environmental 
policy. While at Indiana, I studied under Dr. Elinor Ostrom, a world 
renowned expert in environmental management and Nobel Prize winning 
economist. Dr. Ostrom's work principally focuses on creating the 
appropriate rules that allow human populations to sustainably manage 
natural resources over long time horizons. Her work has shown that 
local populations are often able to sustainably manage natural 
resources in the absence of external governmental intervention.
     Given my background and training, I have taken a particular 
interest in Wilderness issues. My colleagues and I in the Center for 
Public Lands and Rural Economic initially became intrigued by 
Wilderness because of the disconnect between what environmentalists and 
local officials assert about local economies and Wilderness. A series 
of environmental group reports has found overwhelmingly positive local 
economic benefits from Wilderness. The Wilderness Society, for 
instance, notes ``[d]esignated wilderness areas on public lands 
generate a range of economic benefits for individuals, communities, and 
the nation--among them, the attraction and retention of residents and 
businesses.'' <SUP>i</SUP> The Sonoran Institute similarly finds, 
``protected natural places are vital economic assets for those local 
economies in the West that are prospering the most.'' The Sonoran 
Institute further notes, ``Wilderness, National Parks, National 
Monuments, and other protected public lands, set aside for their wild 
land characteristics, can and do play an important role in stimulating 
economic growth--and the more protected, the better.'' <SUP>ii</SUP>
---------------------------------------------------------------------------
    \i\ The Wilderness Society, ``The Economic Benefits of Wilderness: 
Focus on Property Value Enhancement,'' Wilderness Society Science and 
Policy Brief No. 2, March, 2004.
    \ii\ R. Rasker, B. Alexander, J. van den Noort, and R. Carter, 
Prosperity in the 21st Century West: The Role of Protected Lands, The 
Sonoran Institute, 2004, p. ii.
---------------------------------------------------------------------------
    In direct contrast to these views, local officials frequently claim 
that Wilderness harms local economies. A supermajority of Utah State 
Legislature in 2008, for instance, passed House Joint Resolution 10 
encouraging the United States Congress to not designate any additional 
federal Wilderness Areas in Utah. The Resolution asserted that Utah 
relies on public lands for crucial economic activities including ``oil 
and natural gas development, mining, outdoor recreation and other 
multiple uses, rights of way for transportation, waterlines, electric 
transmission, and telecommunication lines'' (HJ 2008, 2). The Utah 
State Legislature claimed that limiting these multiple uses of public 
lands would result in substantial economic hardship for the state. By 
passing the Resolution, the Utah State Legislature echoed the belief of 
many local elected officials and residents that Wilderness is not good 
for local economies.
    To evaluate the claims on both sides, we sought funding from the 
U.S. Department of Agriculture to specifically investigate the economic 
impact of Wilderness in 2008. I will detail the findings of our 
research today.
1. Wilderness Generally
    Before delving into the details of our research, it may be helpful 
to have a brief reprise of Wilderness policy. The Wilderness Act of 
1964 defines Wilderness as:
        A wilderness, in contrast with those areas where man and his 
        own works dominate the landscape, is hereby recognized as an 
        area where the earth and its community of life are untrammeled 
        by man, where man himself is a visitor who does not remain. An 
        area of wilderness is further defined to mean in this Act an 
        area of undeveloped Federal land retaining its primeval 
        character and influence, without permanent improvements or 
        human habitation, which is protected and managed so as to 
        preserve its natural conditions and which (1) generally appears 
        to have been affected primarily by the forces of nature, with 
        the imprint of man's work substantially unnoticeable; (2) has 
        outstanding opportunities for solitude or a primitive and 
        unconfined type of recreation; (3) has at least five thousand 
        acres of land or is of sufficient size as to make practicable 
        its preservation and use in an unimpaired condition; and (4) 
        may also contain ecological, geological, or other features of 
        scientific, educational, scenic, or historical value.
    As so defined, Wilderness is the most restrictive land use 
designation of public lands in the United States. To preserve the land 
as being ``untrammeled by man,'' a variety of uses are restricted in 
designated Wilderness areas. Restricted uses listed by Congress 
include:
        ``no commercial enterprise and no permanent road within any 
        wilderness area designated by this Act and, except as necessary 
        to meet minimum requirements for the administration of the area 
        for the purpose of this Act (including measures required in 
        emergencies involving the health and safety of persons within 
        the area), there shall be no temporary road, no use of motor 
        vehicles, motorized equipment or motorboats, no landing of 
        aircraft, no other form of mechanical transport, and no 
        structure or installation within any such area.'' (Section 
        4(c)).
    Other uses that are expressly allowed by the Wilderness Act are 
more difficult based on the other rules associated with Wilderness. 
Although mining claims were statutorily allowed for the first 20 years 
after the Wilderness Act passed, mining and mineral exploration are now 
generally prohibited within Wilderness. Valid existing mining rights 
may remain in effect after new designations, but mining activities must 
strive maintain Wilderness characteristics, including limiting 
mechanized travel and equipment. Although logging is not expressly 
proscribed by statutory language of the Act, the restrictions on 
mechanized travel, mechanized equipment, and road construction 
generally preclude large-scale logging activity. Grazing is expressly 
allowed in Wilderness Areas, but administrators may make ``reasonable 
regulations'' including the reduction of grazing to improve range 
conditions.
    In addition to the prohibitory language found in the Wilderness 
Act, courts have aggressively blocked a variety of activities in 
Wilderness and areas adjacent to Wilderness. Uses of land surrounding 
Wilderness often receive more stringent review. The 10th Circuit Court 
of Appeals, for instance, in 1972 upheld an injunction of logging in an 
area that approached a Wilderness Area (Parker v. United States 448 
F.2d 793 cert. denied 405 U.S. 989). Wilderness Areas also often raise 
review standards under the National Environmental Policy Act (NEPA). 
Under NEPA, land uses near Wilderness Areas may be found to have a more 
``significant'' impact than actions near lands not under federal 
protection.
    Wilderness is managed by four federal agencies: the National Forest 
Service, the National Park Service, the Fish and Wildlife Service, and 
the Bureau of Land Management (BLM). Wilderness Areas dramatically vary 
in size from the Pelican Island Wilderness in Florida, which occupies a 
mere six acres, to the 9,078,675-acre Wrangle Island Wilderness in 
Alaska. Due to the stringent requirements laying out Wilderness 
characteristics, the majority of Wilderness Areas are found within 
largely rural and lightly populated counties within Alaska, California, 
Colorado, Montana, New Mexico, Nevada, Oregon, Utah, and Washington. 
Only six states contain no Wilderness: Connecticut, Delaware, Iowa, 
Kansas, Maryland, and Rhode Island.
2. Research Results
    Today I will be presenting the results of three separate studies we 
have recently conducted at the Center for Public Lands and Rural 
Economics. The first directly involves the economic impact of 
Wilderness. The second examines the impact of the Grand Staircase 
Escalante National Monument in Southern Utah. The third examines the 
potential designation as National Monuments the properties identified 
in the Treasured Landscapes memorandum.
A. Wilderness Study
    We focused our first study on economic impacts of Wilderness at the 
county level. We conducted research on all counties in the United 
States to compare economic conditions on Wilderness and Non-Wilderness 
Counties. Wilderness Counties are defined as those counties containing 
any portion of federally designated Wilderness. The study does not 
address BLM Wilderness Study Areas or areas managed by the Forest 
Service as Roadless Areas.
    In comparing Wilderness and Non-Wilderness Counties, we sought to 
identify metrics of County economic conditions that would be applicable 
across different counties. We settled on three separate metrics: 
average household income, total payroll, and total tax receipts. The 
U.S. Census Bureau gathers average household income and total tax 
receipts. The Bureau of Labor Statistics gathers total payroll figures.
    Average household income is calculated by dividing the sum of all 
income of the residents over the age of eighteen in each household by 
number of households. Average household income has the advantage of 
specifically addressing how individual households are on average 
affected by Wilderness designation in these counties. It has the 
disadvantage of being self-reported to the U.S. Census Bureau and, 
accordingly, may not be as valid as a more direct measure.
    Total payroll is a broader metric that captures those under the age 
of eighteen and commuters who may live outside but work within a 
county. Further, it is a measure of the economic situation of 
individuals rather than households. Another approach would have been to 
use total receipts. We selected total payroll rather than total 
receipts on the assumption that payroll dollars are more likely to be 
spent in the geographic area than are total receipts, which may include 
corporate profits that leave the area. Total payroll is not a perfect 
proxy because it does not capture the capital investment, county 
residents who work outside the county, or most importantly, retirees 
who do not receive payroll.
    Total tax receipts is a measure that has at least two advantages 
over the others measures. First, the data are largely complete; local 
governments are required by state and federal statute to correctly 
report tax receipts. These requirements provide some confidence in the 
data that self-reporting does not provide. Second, tax receipts 
represent all taxable transactions in the county. This provides a 
useful metric of economic activity. Tax receipts, however, are not a 
perfect proxy as there are significant institutional differences across 
states, regions, and often counties themselves about how, when, and why 
taxes may be collected.
    None of these variables is a perfect proxy for economic conditions, 
but, when taken together, they help paint a relatively complete picture 
of the economic conditions found at the county level.
    We next constructed a model testing economic conditions in each 
county in the United States for the years 1995, 2000, and 2005. We also 
included a variety of other variables to account for other factors 
influencing economic conditions. We included information on the percent 
of different types of public lands within the county. Finally, we 
included traditional demographic variables that have been shown in the 
academic literature to contribute to economic growth. These variables 
include population, land area, number of households, birth rate and 
school enrollment, infant death rate, high school graduates, median 
household income, poverty rate, crime rate, government employment, 
unemployment rate, and social security recipients.
    We then ran each of the three models. In each case, we found that 
Wilderness had a statistically significant negative relationship with 
county economic conditions. In the case of Average Household Income, we 
found that household incomes in Wilderness Counties were estimated to 
be $1,446.06 less than Non-Wilderness Counties. Total payroll in 
Wilderness Counties is estimated to be $37,500 less than in Non-
Wilderness Counties. Total Tax Receipts in Wilderness Counties is 
estimated to be $92,910 dollars less than in Non-Wilderness Counties.
    It is important to note that these findings are specific to 
Wilderness and not to public land generally. Indeed, our models 
indicate that BLM Lands, Forest Service Lands, Bureau of Reclamation 
Lands, Fish and Wildlife Lands, and National Park Lands did not have as 
significant or negative an impact on county economic conditions as 
Wilderness.
    Ideally, we would have run this study dating back prior to 1964 so 
we could track Wilderness county economic conditions pre-designations 
and post designation. To minimize the likelihood that other economic 
factors drove the economic conditions, it would have also been helpful 
to compare Wilderness Counties with other counties that match the 
Wilderness Counties on a variety of conditions, but that do not contain 
Wilderness. Such a ``pre-post, matched-pair'' design could provide very 
useful information on to what extent Wilderness impacts economic 
conditions. Unfortunately, the data necessary to conduct such a study 
does not exist and compiling it would be overwhelmingly costly. 
However, we have conducted a similar study on a much smaller scale that 
I will discuss next.
B. Grand-Staircase Escalante National Monument
    The Grand Staircase Escalante National Monument was created by 
President Clinton in 1996. The Monument spans nearly 1.9 million acres 
in south-central Utah along the Arizona border. The monument lies 
completely within Utah, and occupies the majority of Kane County and 
much of Garfield County. The designation of the Monument provides the 
opportunity to conduct the type of pre-post, matched pair design 
discussed above. Specifically, we can evaluate the county conditions of 
Garfield and Kane counties prior to the designation of the Monument and 
the county economic conditions after the designation of the monument. 
We can also compare county economic conditions within the two Monument 
counties with other similar counties across the United States.
    To conduct this research, we used essentially the same methodology 
we used on the Wilderness study. We used total tax receipts and total 
payroll for our dependent variables. We again looked at county economic 
conditions in 1995, 2000, and 2005 and included the same demographic 
variables as the Wilderness Study to control for other factors that 
could be driving economic conditions. For the Grand-Staircase study, we 
included an additional step in matching Garfield and Kane Counties with 
other counties throughout the United States. The counties were matched 
with the 100 most similar counties in the United States based on land 
area, population, income, and education levels. This approach allows us 
to draw better conclusions regarding the impact of the Monument 
designation compared to what would have happened in the absence of the 
designation.
    In running these models, we find little evidence that the Grand-
Staircase Escalante National Monument has had a significant positive 
economic impact on county economic conditions. Rather, we mostly find a 
null result--that the impact has had no impact on the local county 
economies. In only one instance, tax receipts in Kane County, can we 
reject the null hypothesis of no effect of the designation. In that 
case, it appears that the designation of the Monument was associated 
with a statistically significant rise in additional tax revenues in 
Kane County, compared with the matched non-monument counties. However, 
the evidence for the other dependent variable, total payroll, shows no 
such effect. This is interesting in that total payroll may be a better 
indicator of gross economic activity in Kane County. It appears from 
this result that while the total tax revenues increased in Kane County, 
the payroll did not, leaving serious questions about the effects of the 
designation on the overall economic situation in Kane County. Further, 
Garfield County shows no such effect with relation to the comparison 
counties and exhibits no evidence that the designation of the monument 
is either helping or hurting the economy of Garfield County. We 
conclude that designating the Grand Staircase Escalante National 
Monument has had little or no effect on the economic situation of the 
host counties.
    Moreover, our study of the Grand Staircase Escalante National 
Monument does not include the opportunity costs (those opportunities 
given up) of the Monument designation. At the time leading up to the 
Monument designation, various groups were preparing plans for energy 
development. Located in a geologically diverse region, the Grand 
Staircase contains a treasure trove of mineral deposits. The area 
contains an estimated 62 billion tons of coal. The area also contains 
an estimated 270 million barrels of oil. In the early 1990s, Andalex 
Resources Company, a Dutch based coal mining company, had acquired 
permits to mine coal from the area. Conoco Oil, PacifiCorp, and various 
other companies had also acquired permission to develop other 
extraction activities in the area.
    Locals in Garfield and Kane Counties frequently note that when the 
Monument was designated, these economic activities were forever taken 
off of the table. While we do not actually know what development 
activities would have occurred had the Monument not be designated, or 
what impact those activities would have had on the local communities, 
we do know that the choice to designate protected areas involve 
tradeoffs.
C. Treasured Landscapes
    Finally, I would like to touch on a recent study that more fully 
explores the opportunity costs of designating protected areas. In 2011 
we conducted a review of the fifteen areas identified by the 
``Treasured Landscapes'' memorandum leaked by the BLM discussing the 
necessity of additional designations of National Monuments. Rather than 
comment on whether the proposed monuments should or should not be 
designated, we focused on what would be given up if the Monuments were 
designated. To explore this question we use data from the U.S. 
Department of the Interior, U.S. Department of Agriculture, local 
environmental groups, energy development companies, and state agencies 
to identify what resources exist in the proposed areas. In the end, we 
narrowed our study to focus principally on energy resources as an 
example of the types of opportunity costs that might be incurred.
    In conducting the inventory of energy potential for each site we 
focused on both traditional fossil fuel energies and the renewable 
potential of each site. We found that only a few the sites contained 
significant fossil fuel reserves, although many of the sites had the 
potential for shale extraction. The costs to alternative energy 
generation potential, however, were more significant. The majority of 
the potential monuments were found to have significant renewable energy 
possibilities that would likely be foreclosed by increased protections. 
In fact, 80% of the proposed monuments were found to have potential for 
multiple types of renewable energy development. By seeking increased 
environmental protection through the designation of the proposed 
monuments, we may incur additional difficulties for large-scale roll 
out of clean energy generation.
3. Conclusions
    The stream of research I have detailed today contains a primary 
theme: the designation of any protected area involves tradeoffs. The 
creation of protected areas clearly forecloses other land use 
opportunities. In designating Wilderness, local populations are forever 
proscribed from a great number economic and recreational activities 
ranging from mining to mountain biking. Such designations may 
significantly change how local populations interact with the 
environment in which they live, including limiting economic gains 
potentially available from public lands. While there may be some local 
gains from increased tourism or other area attraction, we do not find 
uniformly positive economic gains from the protected areas we have 
studied. But, ensuring local economic growth was not the primary focus 
of the Wilderness Act or other enabling language for protected areas. 
Rather, Wilderness and other protected areas are established for 
emotional, ecological, and cultural purposes. Our results indicate that 
those ends are not accomplished without some costs to local 
populations.
    The policy implications from our research are twofold. First, 
policy makers must carefully consider the tradeoffs inherent in public 
lands decisions. We cannot assume that all additional protected areas 
will sizably benefit local populations. Second, if policy makers seek 
to minimize the costs to local populations, they should seek input from 
local land users when making land use decisions. Local populations are 
often the most familiar with the potential economic opportunities 
present on public lands. By seeking local input in public lands 
decisions, policy makers can better assure that policy decisions are 
not disproportionately borne by local communities.
                                 ______
                                 
    Mr. Johnson. Thank you, Mr. Steed.
    Ms. Rosenberg, you are recognized for five minutes.

 STATEMENT OF ERICA ROSENBERG, BOARD PRESIDENT, WESTERN LANDS 
                            PROJECT

    Ms. Rosenberg. Thank you. Mr. Chairman and Members of the 
Committee, thank you for inviting me to testify today on H.R. 
1126. I submit this testimony on behalf of the Western Lands 
Project.
    Ours is the only organization in the country that focuses 
solely on monitoring Federal land exchanges, sales and 
conveyances and seeks to prevent the privatization of our 
public lands. We track all BLM and Forest Service 
administrative land sales in the 11 western states and Alaska.
    H.R. 1126 mandates the sale of up to 3.3 million acres of 
Federal lands. The lands directed to be sold are the same lands 
identified in a 1997 report to Congress, the intent of which 
was to fund through land sales in other states ecosystem 
restoration in the Florida Everglades once Florida lands were 
exhausted. The intent of H.R. 1126, by contrast, is to put the 
proceeds of land sales in the Treasury for deficit reduction.
    We oppose H.R. 1126 both on principle and in practice. We 
are against mandates that treat our public lands as liquid 
assets and their disposal as a quick fix for deficit reduction 
and economic development. Proposals like this are a common, 
reflexive response to tough economic times, and they fail for 
two main reasons. One is that when the public learns of plans 
to sell off our national heritage people of every political 
strife vociferously oppose them. The other is that under closer 
scrutiny these plans are impractical and ineffective.
    Federal land retention, but for land whose disposal serves 
the national interest, is longstanding Federal policy. BLM 
already has the authority to dispose of land. This bill removes 
the agency discretion, discretion that allows the agency to 
respond to the needs of, among others, local communities who 
benefit from the land.
    Since 1976, BLM has had the authority to sell land under 
FLPMA. Lands are identified as suitable for disposal through 
RMPs formulated every 10 years or so by BLM offices with public 
input. These lands must meet certain criteria, including that 
their disposal would serve important public objectives.
    However, simply being identified at the planning level as 
suitable for disposal does not mean that a parcel will or 
should be sold. Although identified as excess or of no use to 
the agency, a parcel may ultimately be found unsuitable for 
sale or may be undesirable for private purchase. Once BLM staff 
determines that market or development conditions are ripe to 
put a piece of land up for sale, they do so under a public 
process, which includes the possibility that an adjacent 
landowner will protest the sale.
    An appraisal designed to protect the taxpayers who own the 
land must be conducted. Analysis must be done to determine and 
disclose whether there are obstacles to the sale, such as the 
presence of cultural resources, wetlands, endangered species 
habitat or, as important, its use by the community.
    For example, we have monitored land sales conducted by 
BLM's Redding, California, field office for many years, and in 
one area where they had identified excess lands in the most 
recent RMP local jurisdictions have gradually built a trail 
network surrounding the land that is heavily used by the local 
populous.
    To sell these BLM lands now would be patently counter to 
the interests of local citizens, for most parcels or areas 
described in the 1997 report identify serious impediments to 
sale, including high disposal costs, hazardous materials, 
wetlands, critical natural or cultural resources, existing mine 
claims and title issues.
    These parcels were not ready to go even then. According to 
BLM, many lands identified appear to have conflicts, which may 
preclude them from being considered for disposal. Furthermore, 
the circumstances around much of the land listed in the report 
may have changed dramatically in the 14 years since it was 
compiled.
    In reality, those most likely to be adversely affected by a 
broad brush expedited disposal of Federal land are not 
environmentalists and public interest groups such as ours, but 
members of the community who have a day-to-day relationship 
with their public land.
    Overall, Federal lands are not a liability but a boon to 
local economies. In this economy, selling off public land would 
contribute at best trivial amounts to deficit reduction at the 
expense of the well-being of local communities. Ironically, 
proposals to use our public lands as a bank account increase 
during economic downturns when demand is low and their sale 
would have the least effect on the deficit. Regardless, we 
believe the value of these lands and public ownership far 
outweighs their monetary value.
    H.R. 1126 is less a substantive piece of legislation than 
expression of an orientation that sees public land as 
expendable for quick cash and development. We fundamentally 
disagree with this stance.
    Based on our experience with and knowledge of Federal land 
use planning and sale transactions, the bill cannot achieve the 
deficit reduction through land sell off that it aspires to and, 
even if it could, would harm rather than benefit taxpayers in 
the communities that use and value these public lands.
    [The prepared statement of Ms. Rosenberg follows:]

            Statement of Erica Rosenberg, Board President, 
                  Western Lands Project, on H.R. 1126

    Mr. Chairman and Members of the Committee, thank you for inviting 
me to testify today on H.R. 1126. I submit this testimony on behalf of 
the board, staff, and members of the Western Lands Project. Founded in 
1997, ours is the only organization in the country that focuses solely 
on monitoring federal land exchanges, sales, and conveyances and seeks 
to prevent the privatization of our public lands. We track all BLM and 
Forest Service administrative land sales in the 11 western states and 
Alaska.
    H.R. 1126 mandates the sale of up to 3.3 million acres of federal 
lands. The lands directed to be sold are the same lands identified in a 
1997 report to Congress, pursuant to Section 390(g) of Public Law 104-
127, the intent of which was to fund, through land sales in other 
states, ecosystem restoration in the Florida Everglades. The intent of 
H.R. 1126, by contrast, is to put the proceeds of land sales in the 
General Treasury for deficit reduction.
    We oppose H.R. 1126 both on principle and in practice. We are 
against mandates that treat our public lands as liquid assets and their 
disposal as a quick fix for deficit reduction and economic development. 
Proposals like this are a common, reflexive response to tough economic 
times. And they fail, for two main reasons. One is that when the public 
learns of plans to sell off our national heritage, people of every 
political stripe vociferously oppose them; the other is that under 
closer scrutiny, these plans are impractical and ineffective.
    Federal land retention but for land whose disposal serves the 
national interest is long-standing federal policy. A common complaint 
of Western counties is that because of the extent of public land within 
their boundaries, growth and development are severely restricted. Thus, 
Congress has responded again and again to this perceived imbalance, as 
well as to the need for agencies to improve land management, by giving 
agencies a myriad of authorities for land disposal and acquisition 
against a showing of need.
    The Bureau of Land Management (BLM) already has the authority to 
dispose of land. This bill removes agency discretion--discretion that 
allows the agency to respond to the needs of, among others, local 
communities who benefit from the land. Since 1976, the BLM has had 
authority to sell land under the Federal Land Management & Policy Act 
(FLPMA). Lands are identified as suitable for disposal through Resource 
Management Plans (RMPs) formulated every ten years or so by BLM 
offices, with public input. These lands must meet certain criteria:
        <bullet>  Their location or other characteristics make them 
        difficult and uneconomical to manage;
        <bullet>  They were acquired for a specific purpose for which 
        they are no longer needed; or
        <bullet>  Their disposal would serve important public 
        objectives, such as expansion of communities and economic 
        development, that cannot be achieved on other than public land 
        and which outweigh other public objectives and values such as 
        recreation and scenic values served by keeping them in public 
        ownership.
    However, simply being identified at the planning level as 
``suitable for disposal'' does not mean that a parcel will or should be 
sold. Although identified as ``excess'' or of no use to the agency, a 
parcel may ultimately be found unsuitable for sale or may nevertheless 
be undesirable for private purchase. Once BLM staff determines that 
market or development conditions are ripe to put a piece of land up for 
sale, they do so under a public process--which includes the possibility 
that an adjacent landowner will protest the sale. An appraisal, 
designed to protect the taxpayers who own the land, must be conducted. 
Analysis must be done to determine and disclose whether there are 
obstacles to the sale, such as the presence of cultural resources, 
wetlands, endangered species habitat, or contamination--or as 
important, its use by the community.
    For example, we have monitored land sales conducted by the Redding, 
CA Field Office of the BLM for many years, and in one area where they 
had identified excess lands in the most recent RMP, local jurisdictions 
have gradually built a trail network surrounding the land that is 
heavily used by the local populace. To sell these BLM lands now would 
be patently counter to the interest of local citizens.
    For most parcels or areas the 1997 report describes, it identifies 
serious impediments to sale, including high disposal costs, hazardous 
materials, wetlands, critical natural or cultural resources, existing 
mining claims, and title issues. These parcels were not ``ready to go'' 
even then.: according to BLM ``. . .many lands identified appear to 
have conflicts which may preclude them from being considered for 
disposal. . .'' Furthermore, the circumstances around much of the land 
listed in the report may have changed dramatically in the 14 years 
since it was compiled. Some parcels may already have been sold, while 
others may now be considered unsuitable for disposal--and all of them 
would have to undergo up-to-date appraisals and analyses, which cannot 
be done overnight.
    In reality, those most likely to be adversely affected by a broad-
brush, expedited disposal of federal land are not environmentalists and 
public-interest groups such as ours, but members of the community who 
have a day-to-day relationship with their public land. Overall, federal 
lands are not a liability but a boon to local economies. In this 
economy, selling off public land would contribute at best trivial 
amounts to deficit reduction at the expense of the well-being of local 
communities.
    H.R. 1126 reflects an oversimplified concept of how BLM land sales 
should and can occur. It cannot achieve what it purports to achieve--
deficit reduction thru land sell-off--in part, because while Congress 
can order the Secretary of the Interior to sell these lands, it cannot 
force people to buy them, and our experience in the last several years 
has shown that, with a few rare exceptions, there is not a crying 
demand to buy public lands. Ironically, proposals to use our public 
lands as a bank account increase during economic downturns when demand 
is low and their sale would have the least effect on the deficit. 
Regardless, we believe the value of these lands in public ownership far 
outweighs their monetary value.
    H.R. 1126 is less a substantive piece of legislation than an 
expression of an orientation that sees public land as expendable for 
quick cash and development. We fundamentally disagree with this stance. 
In addition, based on our experience with and knowledge of federal land 
use planning and sale transactions, the bill cannot achieve what it 
aspires to do. Even if it could, it would harm rather than benefit 
taxpayers and the communities that use and value these public lands.
                                 ______
                                 
    Mr. Johnson. Thank you, Mrs. Rosenberg.
    Mr. Liesemer, you are now recognized for five minutes.

 STATEMENT OF RONALD LIESEMER, PH.D., VICE PRESIDENT, CITIZENS 
                  FOR ACCESS TO THE LAKESHORE

    Dr. Liesemer. Thank you, Mr. Chairman, Ranking Member 
Grijalva and Members of the Subcommittee. Thank you for this 
opportunity. My name is Ron Liesemer. I am Vice President of 
Citizens for Access to the Lakeshore, an all volunteer group of 
citizens formed in 2002 in response to threatened diminishment 
of public access at Sleeping Bear Dunes National Lakeshore.
    My remarks will describe the nine year effort that led to 
this legislation. I will explain why it is needed and ask you 
to support it. We are grateful to the bill's sponsors, 
Representative Bill Huizenga and Representative Dave Camp, who 
represent the two counties wherein the park is located, the 
bill's seven co-sponsors in the House and our two Senators who 
have sponsored an identical bill in the Senate. The effort has 
been bicameral and bipartisan since inception.
    The park is young. After a decade of opposition in the 
1960s, incorporation in the National Park System began with 
enabling legislation in 1970. Around the year 2000, local 
communities learned that the Park Service intended to close 
county roads which provided the only vehicular access to the 
beaches. Only those strong enough to hike and backpack would be 
able to cover the miles involved to get to the starting point 
for their activity.
    The Park Service answered that changes were mandated by 
Congress. A wilderness study done in 1981 recommended over half 
the park be designated wilderness despite county roads and 
buildings. In 1982, the park's enabling legislation was opened 
to address problems and to instruct the Park Service to 
maintain lands within the 1981 wilderness study. The outcome 
created de facto wilderness without public input procedures 
required by the Wilderness Act.
    Our organization brought these problems to our elected 
officials. The Park Service appointed a new superintendent and 
assistant superintendent, who immediately began talking and 
listening to people's concerns at every rotary club and 
township meeting possible. In 2006, they began developing a new 
general management plan and wilderness study, soliciting public 
input extensively.
    In 2009, a new general management plan and wilderness study 
were adopted. Both are enthusiastically supported by a vast 
majority of the park's stakeholders. The newly proposed 
wilderness assures public access and resource protection. 
However, because of the 1982 statute, a new plan cannot be 
fully implemented until Congress corrects the 1981 wilderness 
study by formally designating the access friendly wilderness 
boundaries recommended in the new study. H.R. 977 does just 
that.
    Let me close by summarizing three points. This is a win/win 
for proponents of wilderness and conservation, as well as for 
those who want public access and varied recreational usage. 
Two, the process that enabled consensus is a good model not 
only for the Park Service, but anywhere government and citizens 
interface on tough issues. And, third, and most important, we 
respectfully ask the Subcommittee to report it to the Committee 
and then on to the House.
    I thank you for the opportunity to speak to this 
Subcommittee.
    [The prepared statement of Dr. Liesemer follows:]

    Statement of Jeannette A. Feeheley and Ronald Liesemer, Ph. D., 
  President and Vice-President, Citizens for Access to the Lakeshore 
   (CAL), Benzie County, Michigan, on H.R. 977, Sleeping Bear Dunes 
           National Lakeshore Conservation and Recreation Act

    Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee,
    Thank you for allowing me to submit this testimony to express our 
organization's support of H.R. 977. Its introduction represents the 
result of over nine years of work by the National Park Service (NPS) 
and input by us and hundreds of other organizations and individuals 
into NPS proceedings to establish a new General Management Plan and 
Wilderness Study for Sleeping Bear Dunes National Lakeshore (SLBE), 
which runs for seventy gorgeous miles along prime Lake Michigan 
shoreline in Northwest Michigan. The NPS in 2009 finalized and adopted 
its new General Management Plan for this Lakeshore, but significant 
parts of it cannot be implemented unless and until its accompanying 
Wilderness proposal is adopted by Congress and signed into law. The 
Wilderness Boundary Map attached to the legislation is Map Number 634/
80, 083B dated November 2010.
    We are extremely grateful to the nine House co-sponsors of this 
bill, especially the Honorable Bill Huizenga, who represents Benzie 
County, and the Honorable Dave Camp, who represents Leelanau County, 
the two Counties in which the Lakeshore is located. We are likewise 
grateful to our two U.S. Senators who represent Michigan, the Honorable 
Carl Levin and the Honorable Debbie Stabenow, who have co-sponsored an 
identical bill, S. 140, in the U.S. Senate. The legislation has been a 
bi-chamber, bipartisan effort from inception.
    In 2002, a public outcry erupted in Benzie and Leelanau Counties 
where the Lakeshore is located over the then current General Management 
Plan (GMP) proposals that were nearing their final stage and well on 
their way to adoption by the NPS. Until the 2002 NPS Newsletter had 
been released that gave details of Four Alternatives the NPS was 
considering at that time, along with their Preferred Alternative, most 
of the general public in the area were unaware of its implications. A 
few members of the public began publicizing those implications, and 
many in the area became incensed. After studying the matter and 
attending NPS hearings on such, some of my neighbors and I realized 
that there was no public nor local governmental body nor volunteer 
organization sufficiently manned to mount the sustained effort it would 
take to get the NPS to listen and respond to our concerns, so we formed 
Citizens for Access to the Lakeshore (CAL) as a nonprofit, citizen 
advocacy group to do so. We recruited membership, elected a Board of 
Directors and collected dues and donations sufficient to support our 
newsletters, public presentations, educational outreach and the 
development and maintenance of a CAL Web Site.
    At our founding, CAL never expected it would take nine years for 
the issues to get addressed, nor had we any idea that it would require 
new legislation to be passed by Congress, but the tedious and 
painstaking efforts by all concerned will be worth it if the 
legislation before you is passed. The bill is needed in order to allow 
the Park Service to implement the 2009 outcome of NPS proceedings and 
negotiations with the public which became, over eight years time, a 
true collaboration, in our view, among the Park Service and all its 
stakeholders.
    We are very grateful to SLBE Superintendent Dusty Shultz for the 
new GMP and Wilderness Study subsequently developed and approved at the 
agency level in 2009. Superintendent Shultz had not been a part of the 
development of the former GMP proposals in the early 2000's, having 
arrived at the Park as its new Superintendent after they had already 
reached their final stage. When the Secretary of Interior, in response 
to public outrage, requested withdrawal in October 2002 of that 
previous GMP, Superintendent Shultz responded by thenceforth devoting 
much staff time and resources to learning why the community was so 
alarmed and why the NPS had been so taken by surprise by the outrage.
    Those early years also saw the appointment of a new Director of the 
NPS Midwest Region, Mr. Ernie Quintana, who came to SLBE to view the 
Lakeshore, which had become one of his new responsibilities. During 
that visit, he was kind enough to meet with CAL Board members in the 
presence of Superintendent Shultz. After listening to us, he expressed 
his view that we seemed to have legitimate concerns, that the NPS could 
address them, and that he would be supportive in that effort. He has, 
indeed, been supportive at all crucial, NPS/internal review and 
approval stages over the many years on these efforts, and we are very 
grateful to Director Quintana and his Midwest Region Staff in Omaha.
    One of the first steps taken by the NPS during that contentious 
time was to send new personnel to SLBE who had expertise in public 
relations. CAL and others wondered at the time if Mr. Tom Ulrich had 
been sent simply to tell the local population that we didn't know or 
understand anything and to admonish us for having dared to question the 
federal bureaucracy. However, we soon learned that Mr. Ulrich was not 
sent for window dressing or simply to smooth ruffled feathers. Instead, 
we found him to be a dedicated public servant who was committed to 
listening to the concerns of the agency's stakeholders and who adeptly 
helped establish a working relationship among what had become, by that 
time, two distinct adversaries: the National Park Service vs. the 
SLBE's surrounding local communities.
    CAL strongly believes that, from 2002-2009, these two sides learned 
to listen and talk with each other as never before, and that the NPS 
adopted a new view that it is better to aggressively publicize its 
processes and actively and genuinely solicit input up front rather than 
assume all is well only to learn late in the game that its stakeholders 
had not understood the implications of what it planned to do. The 
materials developed by the NPS in this particular effort are a vast 
improvement over what was available to the public before. For instance, 
after the GMP process was resumed in 2006, inter-active communication 
tools were newly available to the public on an improved NPS Web Site 
that made it much easier for the general public to access, read and 
submit formal comment on each NPS proposal. It also appeared that the 
NPS liberalized, or, at least, publicized better, that any citizen who 
so desired could be put onto their mailing list to receive NPS 
proposals each step along the way where there was opportunity for 
public input.
    In addition, ever since 2002, CAL had been speaking at local and 
county government meetings, road commission hearings, Chamber of 
Commerce meetings, Rotary Clubs, etc., in an attempt to inform as many 
people as possible about our discoveries of the implications of the NPS 
proposals. So the NPS spent the time and resources necessary to do the 
same and more: Superintendent Shultz and Deputy Superintendent Ulrich 
and other NPS staff began to attend meetings of their stakeholders/
customers' organizations to make themselves available for questioning 
at their stakeholders' convenience and on their stakeholders' own 
territory. And, once the new GMP process was restarted in 2006, the NPS 
developed a Power Point Presentation they took ``on the road'' rather 
than relying on the few standard NPS Open Hearing dates which the 
public may or may not be able to attend.
    As for the substance of the problem, it was, in a nutshell, that in 
1981 the NPS had concluded a Wilderness Study and made a wilderness 
recommendation at a very young Park still deep in a contentious 
acquisition phase, its enabling legislation having only been passed in 
1970. The full impact of that Study would not become apparent to the 
public until much later, after most of the land had come under Park 
Service ownership. Two and a half decades passed with issues simmering 
in seemingly piecemeal NPS actions that the public only saw as 
separate, isolated irritants. However, the full implications of the 
1981 Wilderness Study and its inherent incompatibility with reality 
surfaced explosively in the 2002 GMP.
    Complicating matters was that this Park had not originated with 
vast amounts of never-used or never-privately-owned land, but of land 
that had been mostly held and used by small, private landowners for two 
centuries, along with two small areas of state park land. In order for 
the Park to become a reality, most of those private owners had to be 
removed from their land after the 1970 enabling legislation was passed. 
Many of the land parcels had been in the owners' families' possession 
for generations. Some were very willing to sell, some were not, and 
some were taken by eminent domain or its perceived threat. Another 
acquisition method was a sale in which the owners were allowed to 
reside for a specified time, usually through a twenty-five year lease.
    Although generally beloved by the most of the local populace now, 
the Park's very creation had been wrenching and painful. Indeed, it had 
taken the whole decade of the nineteen sixties for proponents of a new 
federalized Park to win sufficient support inside the State of Michigan 
for the 1970 enabling legislation to pass. The promise held out to all 
at the time was that, by taking the land and making it a federal 
Lakeshore, its woods and dunes and beautiful beaches would forever more 
be saved for the recreational uses of the general public rather than 
swallowed up and transformed by large-scale private developers.
    So, in 1981, the general public had little idea that 
``wilderness'', if applied where roads already existed, would require 
the removal of those roads. The Wilderness acreage recommended in 1981 
did, indeed, include many county roads in both Benzie and Leelanau 
Counties, roads which have provided the historical access to the 
beaches. The general public also had little idea that the 1981 
``wilderness'' would be interpreted by the NPS as a call for the 
destruction of many historical features throughout the Park. Indeed, it 
took two other citizens' groups, with the help of Senator Levin, to get 
the NPS to recognize that there were historical resources and cultural 
viewscapes worth saving within a Park where acquisition and a return-
to-nature agenda were on full throttle. Never-the-less, enough was 
understood about the 1981 Wilderness Recommendation that it was 
politically highly contentious from its inception: the Secretary of 
Interior would not approve it nor move it along for further approval. 
The Congress at that time reacted to the Secretary's inaction by 
inserting a few sentences about the 1981 Wilderness Study in a 1982 
amendment to the Park's 1970 enabling legislation. The purposes of the 
1982 amendment had mostly to do with making the acquisition process 
fairer to all property owners and with removing certain areas of land 
around Glen Lake from the Park boundaries. Even though the 1982 
legislation's intent and purposes had nothing to do with wilderness, 
Congress inserted language into that bill that instructed the NPS to 
manage all the land within the 1981 Wilderness Study as if it was 
``wilderness'' unless and until Congress said otherwise. The effect, as 
noted in the Congressional Record at the time, was a wilderness 
designation imposed by the back door, a de facto wilderness where none 
had been formally designated by Congress according to the procedures of 
the Wilderness Act.
    Over the years, the NPS attempted, from time to time, to acquire 
the county roads within those de facto wilderness areas, per the 1982 
Congressional action. However, for thirty years, the Counties have 
adamantly resisted federal acquisition of their roads, having no wish 
for their residents and tourists to lose public access to the beaches. 
The Park Service was never successful in eliminating the historical 
vehicular access on the mainland, but was successful on the Park's two 
islands, North and South Manitou, by disallowing use of the landing 
piers by cars and by a 1987 letter to South Manitou residents.
    The building tension over the NPS's repeated attempts to acquire 
the counties' roads came to a head in the 2002 GMP proposals. Having 
little familiarity with the long forgotten 1981 Wilderness Study and 
having little acquaintance with the fact that the Study's effects had 
become federal law in 1982, most local people were completely 
dumbfounded in 2002 on a number of levels:
        <bullet>  Why did the 2002 GMP call for the acquisition and 
        demolishment of the county roads, which provide the only 
        vehicular access of the general public to the beaches?
        <bullet>  Why did the 2002 GMP propose ``mouldering'' many of 
        the area's historical resources?
        <bullet>  Why did the 2002 GMP proposals portray half the 
        Lakeshore as a place where the human foot had left no mark and 
        where only ``wilderness'' had existed? In this aspect, the 
        GMP's tone, as well as the content, was highly offensive to 
        local people who themselves or their parents had been uprooted 
        from the very land now called a ``wilderness'' where, 
        allegedly, no one had ever settled. In reality, the local 
        populace had first hand knowledge that said lands had been 
        farmed, settled and lumbered for generations, and that Native 
        Americans and lumbering companies had worn trails that still 
        exist and are used to this day. South Manitou Island, with its 
        great natural harbor and nautical refuge in Lake Michigan, had 
        been settled, farmed and lumbered even before the City of 
        Detroit was developed. The 2002 GMP proposals were not only 
        offensive for proposing that the general public lose its access 
        to the beaches, the very purpose of the enabling legislation, 
        but added insult to injury by attempting to wipe out the 
        magnificent human history of the area's forebears.
        <bullet>  And why did Park Service staff, in attempting to 
        explain these matters to an outraged citizenry, keep saying 
        that it had all been ``mandated'' by Congress?
    It took CAL much study of past legislation and NPS documents to 
track down all the historical events leading to the disastrous 2002 
collision between the Park Service and SLBE's local communities.
    Once CAL identified the 1981 Wilderness Study and the 1982 law as 
the cause of much of the problem, CAL sought to have the offending 
lines in the 1982 legislation removed, which would have freed the Park 
Service from any wilderness ``mandate'' and would have allowed them to 
begin afresh a new GMP unencumbered with de facto wilderness. However, 
we ascertained, to our initial disappointment, that there was no 
Congressional, political or agency will for such. It appeared that 
doing so might be interpreted and maybe contested by wilderness 
proponents as a removal of ``wilderness'' from the Lakeshore, even 
though such had never been officially designated.
    However, our Senators and Congressmen actively supported the 
public's desire to be heard, and, at the same time, they actively 
supported the Park Service's desire to allow for a cooling off period 
and to give the NPS time to look anew at the problems and situation. 
Our Senators and Congressmen supported the NPS' entering into a long, 
multi-year, continuing dialogue with the local communities. Our elected 
officials also supported CAL whenever it appeared to us that the NPS 
was not listening nor understanding us. Thanks to our Senators and 
Congressmen, we learned to read and speak Park Service-ese, and the NPS 
learned to understand us, even though we weren't always conversant or 
familiar with the multitudinous NPS procedures, policies and technical 
terms.
    It worked! The 2009 GMP/Wilderness Study addresses and corrects all 
the unresolved issues of the previous Wilderness Study. Now the areas 
proposed for wilderness make sense, and will provide that the 
primitive, natural areas can remain as much of the local population 
wishes--in their natural state--without cutting off public access where 
it is needed.
    The bill before you, if adopted, will finally, finally throw out 
the flawed 1981 Wilderness Study that has had our Lakeshore tied up for 
so long in administratively applied wilderness sanctions where they 
were inappropriate and unenforceable, and will replace it with the new 
2009 Wilderness recommendation that puts the Lakeshore's counties' 
roads, beaches, fundamental historical resources and all remaining 
private inholdings outside wilderness jurisdiction. At the same time, 
the bill would give a true, Congressionally approved wilderness 
designation to those areas of the Park, a good half of its acreage, 
where a wilderness designation is appropriate and can be easily 
enforced by the Park Service and supported by its stakeholders.
    The bill is a win/win for proponents of wilderness and conservation 
as well as proponents of public access and varied recreation usage. It 
is not a bill where the proponents give grudging, reluctant support, 
feeling compromised and unhappy about something. Rather, this is a bill 
wherein almost everyone involved has emerged quite satisfied.
    CAL highly supports this bill and respectfully asks your 
consideration for its passage.
                                 ______
                                 
    Mr. Johnson. Thank you, Mr. Liesemer, and thank you all for 
your testimony.
    At this point we will begin questions of the witnesses, and 
to allow all of our Members to participate and to ensure we can 
hear from all of our witnesses today Members will be limited to 
five minutes for their questions. However, if Members have 
additional questions we can have more than one round of 
questioning.
    I now recognize myself for five minutes, and I will turn to 
Mr. Pool first. In relationship to H.R. 41 and Section 201 or 
with respect to Section 201, is the BLM currently planning to 
construct a facility under the donation agreement from the 
Conservation Fund?
    Mr. Pool. Congressman, I don't have an answer to that 
question today. I would be glad to get back to the Committee on 
that.
    Mr. Johnson When do you think you----
    Mr. Pool. I don't have that information. I would be glad to 
provide that.
    Mr. Johnson When do you think you can get back to us?
    Mr. Pool. I should be able to get back with you within a 
week's time.
    Mr. Johnson OK. All right. Thank you very much. Mr. Pool, 
also in relationship to H.R. 41 can you elaborate on the 
language modifications you would like to see ``for consistency 
with other wilderness legislation''?
    Mr. Pool. Well, I think that in terms of the wilderness 
designation, as one of the Members made reference to earlier, 
clearly that authority rests with Congress. What I was 
advocating in response to the bill that was introduced that the 
Federal Land Transaction Facilitation Act has been an 
invaluable tool for BLM.
    Many of the designated wildernesses, National Park Systems, 
National Forest Systems and units of BLM's National Landscape 
Conservation System do have substantial inholdings, and many of 
these inholders are willing sellers. Our goal is to try to 
facilitate the acquisition of those inholdings, and the FLTFA 
has been an invaluable mechanism for us because what it does, 
we make lands available for competitive sale.
    We utilize those same receipts to put an administrative 
account, which gives us added capacity to survey, appraise, 
conduct the wildlife and cultural inventories and make those 
properties available for disposal. In turn, we use those same 
receipts that have been generated through BLM's sales program 
working with Park Service, Forest Service and Fish and Wildlife 
Service to acquire those same inholdings that are in designated 
areas.
    Mr. Johnson OK. Thank you. Mr. Pool, also in relationship 
to H.R. 490 has the Manzano Wilderness Study Area been 
identified as being suitable for wilderness?
    Mr. Pool. I believe it has. I would have to double check 
that fact. I am a little embarrassed about that because I am a 
New Mexico native, but I will confirm that.
    The reason being because of its small size there may be a 
size issue there, but because of it being adjacent--it abuts 
actually the Cibola National Forest. In terms of future 
legislation considerations, it may have been deemed suitable.
    Mr. Johnson OK.
    Mr. Pool. We support that addition to the Forest Service.
    Mr. Johnson OK. In regard to H.R. 1413, Mr. Pool, were the 
BLM lands proposed for wilderness designation ever managed for 
timber production pursuant to the ONC Act before being 
administratively withdrawn?
    Mr. Pool. I don't believe so. I think we have had pretty 
strong protective measures in that area for a number of years 
because of the resource values involved.
    Mr. Johnson Can you confirm that?
    Mr. Pool. I can. I can get back and confirm that.
    Mr. Johnson OK. Mr. Liesemer, in regards to H.R. 977 your 
testimony recounts the creation of the park and acquisition of 
private lands. You say that the park used eminent domain or its 
perceived threat to take these lands. Can you explain how the 
threat of eminent domain was used by the Park Service?
    Dr. Liesemer. That goes back to the early days. When the 
park was formed there was a much larger area that they intended 
to take. There was the usual discussion that took place that 
narrowed it to the current boundaries.
    There was also an additional--I don't know the number of 
cases that were eminent domain. In a number of cases there was 
a 25-year lease that was offered to people as a way of making 
it more palatable or facilitating the acquisition. Those were 
beginning to expire about the year 2000 when the Park Service 
looked like they were going to be closing roads.
    Mr. Johnson OK. Would you support language in the bill to 
protect motorboat access and to prevent the establishment of 
buffer zones?
    Dr. Liesemer. The language that is there was worked out 
through extensive discussions between the Park Service and 
different communities. The primary interest of many of the 
communities was to ensure that there was access to Lake 
Michigan from the roads, mainly M-22, so the odds are yes.
    Mr. Johnson The bill that was introduced last year 
protected motorboat access and prevented buffer zones. So you 
say you would support that in this current version?
    Dr. Liesemer. Yes. Yes. If my memory is correct on that it 
was removed for technical reasons. I think as the Park Service 
was writing the bill they said this really doesn't apply.
    Mr. Johnson OK. But back to the question. Would you support 
language in the bill to protect motorboat access and prevention 
of the establishment of buffer zones?
    Dr. Liesemer. I would have to look at the details of that, 
but based on the spirit of it I think the answer is yes.
    Mr. Johnson OK. All right. Thank you. I would like to 
recognize the Ranking Member now for any questions that he may 
have.
    Mr. Grijalva. Thank you, Mr. Chairman. I am going to focus 
the initial question I have. Hopefully in the second round I 
will have some others. I am going to focus in H.R. 1126. Since 
we heard from one of the witnesses the very fate of the Nation 
rests with the passage of this legislation, so I would like to 
get at some facts before we put that fate to test.
    Mr. Pool, just to be clear, BLM and other Federal land 
management agencies have the authority to sell Federal land 
under certain circumstances. Are we pursuing those land sales 
routinely? Is that an accurate assessment?
    Mr. Pool. That authority does reside with the Bureau of 
Land Management, Congressman. Since the 1997 report was 
submitted to Congress, all 3.3 million acres that we identified 
at that time through our land use plans, we have disposed of 
1.7 million acres since 1997.
    I might clarify. The percentages of lands that we disposed 
of and how many of those lands are in that 1997 report, I would 
have to confirm that information, which would be very labor 
intensive, but the dynamics of our land use planning system as 
it continues to evolve over time and we continue to identify 
lands to be retained and lands to be disposed of.
    Mr. Grijalva. OK. For time's sake, do you currently have in 
place the personnel that is required to accomplish all the 
current land sales?
    Mr. Pool. The mechanism under the Federal Land Transaction 
Facilitation Act allowed the BLM to keep 20 percent of those 
receipts for administrative purposes. Since that legislation 
was not authorized, it is really taxing our capacity, our Real 
Estate Divisions.
    Mr. Grijalva. So, the point being that additional budgetary 
resources would be required in order to meet----
    Mr. Pool. That is correct.
    Mr. Grijalva. OK.
    Mr. Pool. Yes.
    Mr. Grijalva. And the legislation we are talking about does 
not address that issue at all. Would diverting BLM resources to 
that task of land sales divert let us say from oil and gas 
permitting, renewable energy permitting and the like and those 
kinds of----
    Mr. Pool. All our decision making at the grant level is 
based on an interdisciplinary approach and so by not having 
that 20 percent revenue coming in under FLTFA does greatly 
impair our capability to----
    Mr. Grijalva. You have grazing leases on some of this land, 
I presume. What would happen to those leases if the land was 
sold under the four year mandate that is in the legislation?
    Mr. Pool. Well, for all the parcels we have identified for 
disposal we did look at expressions of interest. Typically 
those that are identified for disposal are in the high urban 
interface zones because of their appreciative value and it 
generates more revenue.
    As it relates to our grazing permittees, sometimes we have 
isolated public land tracts, very small tracts, and typically 
we will afford them the opportunity to purchase those tracks, 
but before we allow those lands to be disposed of we have to go 
through and conduct a survey, the appraised values and a series 
of other inventories to make sure that there is no significant 
natural resource values being lost with that transaction.
    Mr. Grijalva. The 12.5 royalty collected on oil and gas 
development on public lands. If these lands were sold as we are 
talking about does that mean less revenue to the Treasury? Do 
we know?
    Mr. Pool. Well, typically the lands that we identify for 
disposal don't have a high economic value associated with it 
other than the surface value, but we do evaluate these tracts 
for their mineral potential. If they have high mineral 
potential that would generate public revenue then typically we 
retain those lands.
    Mr. Grijalva. OK. Let me in the time, Ms. Rosenberg. Is 
there a demand to buy public land right now? Has there been any 
analysis since the lands were listed in the 1997 inventory to 
determine what the actual demand for these lands are? We are 
working on a presumption now, and I would just like to know if 
there is any real fact attached to this.
    Ms. Rosenberg. Well, I believe there is not a crying demand 
for public lands right now. The exception, the recent 
exception, was in Las Vegas where land sold quickly and for 
huge amounts, and there was a great demand to sell them and BLM 
had a variety of authorities----
    Mr. Grijalva. OK.
    Ms. Rosenberg.--under which to sell the land, but that was 
an aberration.
    It is no longer the case, particularly in these economic 
times. It would benefit communities to keep as much public land 
in public ownership for their scenic and recreational value 
during these times.
    Mr. Grijalva. And for their own land values. Mr. Chairman, 
thank you. I don't think I will have any follow-ups.
    I would like to just indicate that in the first round of 
questions you pointed out that seven of the eight Members of 
Congress here today testified on wilderness proposals that are 
under their jurisdiction or shared jurisdiction with another 
Member, but Mr. Chaffetz's bill, the disposal bill, wants to 
sell land that is in other districts. I kind of find that an 
irony, and I yield back.
    Mr. Johnson Thank you to the distinguished colleague for 
yielding back.
    I would like to yield now to my good friend, Mr. Kildee. We 
will go a little bit out of order here. I want to make sure he 
has an opportunity to get his questions in.
    Mr. Kildee. Thank you very much, Mr. Chairman. I 
appreciate, first of all, your work on this Committee. You 
indicate that this Committee can do bipartisan work. You 
usually sit right in front of me, and I have your back all the 
time. I appreciate that.
    Mr. Johnson Thank you very much.
    Mr. Kildee. I want to commend, Mr. Liesemer. This is hard 
work negotiating these things. I have been involved with 
Sleeping Bear Dunes since 1970 when I was in the state 
legislature and Phil Hart introduced the organic bill at that 
time.
    I will tell you, I was kind of standing on the curb being 
back in Lansing watching this. I got nicked by a truck once in 
a while standing there on the curb. But it takes a lot of hard 
work, and I commend you for bringing so many people together 
who have shades of differences and sometimes more than shades 
of differences.
    I can recall when we created the wilderness study area, and 
I can recall there was one small area that had we discovered a 
fern that apparently grew only there. It wasn't many acres. How 
many acres did we do? About 32,000 for wilderness. We added 
about another 40 acres where that fern was growing. I don't 
know whether we ever found a fern any place else, but I know 
all the difficulties. I remember the speedboat struggle that 
went on. That has been resolved and the boats can come up to 
the shore now.
    I think you have done an excellent job and those you have 
been collaborating with and leading, and I think this is a very 
good bill. Phil Hart was a personal friend of mine outside of 
the political arena even. We used to go to mass together and 
pray for good laws too hopefully. I think you have helped us do 
some good lawmaking here.
    Several controversial issues have been hotly debated. Is it 
the case that H.R. 977 is part of a plan to resolve all those 
various issues in this one bill?
    Dr. Liesemer. Yes, that is the case. Our group and I thank 
you for your comments. The Park Service also deserves credit on 
this. The attitude changed from this is what the Congress has 
mandated to let us find a solution together.
    It takes a lot of time--as I mentioned, nine years--to 
accomplish this, and sometimes well, we always hear the devil 
is in the details. Sometimes the solutions are in the details, 
and they dug into some of the details to find ways to make it 
work. Thank you.
    Mr. Kildee. Well, you used patience, knowledge and 
determination because, as I say, I have been following this 
since 1970.
    It is not always easy, but with that knowledge and that 
determination and that patience we can resolve these things. I 
just wanted to commend you for your role in this. That is all I 
have to say. I think you have done a great job.
    Dr. Liesemer. Thank you.
    Mr. Kildee. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Johnson Thank you very much.
    [inaudible] Ms. Rosenberg mentions in her testimony that 
selling public land would come at the expense of the well-being 
of local communities. In your research on rural economics, have 
you come across any negative impacts on private land ownership?
    Dr. Steed. No, sir, I have not come across that. The nature 
of our research has been to look at the economic impacts of 
different designation types, and what we know about different 
designation types is any time we do designate there are in fact 
tradeoffs. Those tradeoffs may include access to different 
economic activities, different recreational activities.
    When you designate wilderness you take everything from 
mining to mountain biking off the table and in fact change how 
locals interact with the property in which they live or the 
area in which they live. And so I don't find that there are 
negative impacts for private property. However, there may be 
some benefits from public land ownership as well. Mostly this 
depends on context, what is there.
    Mr. Johnson OK. Thank you. Are you familiar with Headwaters 
Economics and their analysis of the impact of national 
monuments on the surrounding counties?
    Dr. Steed. I am, yes.
    Mr. Johnson Why do their conclusions differ from those of 
yours and your colleagues, and what have you found to be the 
impact on the counties where national monuments and/or borders 
are affected?
    Dr. Steed. I think it is a fair question. Headwaters 
recently concluded a study of the Grand Staircase-Escalante 
National Monument. We were doing a study at the same time that 
they were, and let me walk through the differences between our 
study and theirs.
    Their study looks at a standard growth model to where you 
look at Time 1 as the economic conditions in Time 1, whole cost 
in dollars, and compare economic conditions of Time N, whenever 
the time ends. In looking at that study, what you don't have is 
any comparison of economic conditions in those counties of 
interest and other similarly situated counties.
    I think our study addresses that in a better way, and the 
way we do that is looking at the economic conditions in 
Garfield and Kane Counties before the designation of the 
monument, track those, compare economic conditions after the 
designation of the monument and compare those changes with 
other similarly situated counties.
    In our study we have identified 100 closely matching 
counties, and we find when we do that study we don't find the 
same degree of economic benefit as identified in the Headwaters 
study.
    Mr. Johnson OK. And maybe you just answered this, but let 
me make sure. Did any of their analysis include the lost 
economic opportunity of land designations?
    Dr. Steed. That is a second issue, in fact, that we don't 
include in our study as well. This is the issue of opportunity 
costs.
    Whenever you make a designation you in fact change what can 
happen with that property going forward. In the case of 
wilderness or a national monument, by and large we consider 
those to be in perpetuity. And so we didn't include those 
opportunity costs, although we know they exist.
    In the Grand Staircase-Escalante, there were large coal 
reserves, as well as petroleum reserves, which were taken off 
the table. We don't include those in the study because in fact 
we don't know what would have happened had the monument not 
been designated. We don't know if they would have proceeded or 
not. However, local communities, especially in Garfield and 
Kane Counties, made the claim that it would have been by far 
better off to have those go forward.
    In addition to that, and look at just the opportunity cost 
question, referring to the Treasured Landscapes documents. BLM 
recently released or I guess leaked a document saying that 
there should be at least 15 more national monuments. We took a 
look at what opportunity costs might be given up had those 
monuments been designated. We looked specifically at energy 
resources. We find that in fact if those monuments are 
dedicated there will be a cost in terms of energy resources 
that could be developed.
    Interestingly, the bulk of the cost will be in renewable 
energies that could be developed on those properties. Again, 
this is not to say that this should or should not happen. 
However, we just have to go forward knowing that there are 
tradeoffs in whatever land use designations we make.
    Mr. Johnson Did your study find any initial financial 
benefits from monument designations? In other words, did 
tourists flock to a new designation following the 
proclamations?
    Dr. Steed. In the Grand Staircase we did not find a marked 
change in economic conditions compared to nondesignation 
counties. In fact, mostly we find a null result, meaning that 
we can't say yes or no that this was good for the economy.
    We do find in Kane County a statistically significant 
increase in tax revenues that is not matched in total payroll 
and no impact in Garfield County that we can identify.
    Mr. Johnson OK. Thank you. We will turn back now to the 
Ranking Member for his second round of questioning.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Let me just follow up, Mr. Steed. At a hearing two weeks 
ago, your colleague, Dr. Yonk, testified as well. Is the 
research that you are commenting and testifying on today, that 
you are describing today, the same work that Professor Yonk has 
testified on?
    Dr. Steed. Yes. Dr. Yonk and I both work in the Center for 
Public Lands and Rural Economics.
    Mr. Grijalva. OK.
    Dr. Steed. I work at Utah State. He works at Southern Utah 
University.
    Mr. Grijalva. So just to follow up, since it appears that 
your work is going to become a linchpin to much of this 
discussion, have you sought to have the work published, or has 
it been published?
    Dr. Steed. At this point we are currently seeking to 
publish it.
    Mr. Grijalva. OK.
    Dr. Steed. As to the one we have----
    Mr. Grijalva. Let me follow up. Has it been peer reviewed? 
You have had this research that much credibility has been given 
to.
    Dr. Steed. Yes.
    Mr. Grijalva. Has that been peer reviewed?
    Dr. Steed. The piece that is published as part of my 
testimony today, the economic cost, was peer reviewed through 
the environmentaltrends.org group.
    Mr. Grijalva. So it is self-published?
    Dr. Steed. It went through a peer review process.
    Mr. Grijalva. If you would at least provide the Committee 
additional information on that process----
    Dr. Steed. Certainly.
    Mr. Grijalva.--and the participants? I think it is very 
valid as we go through. Your work and your research of you and 
your colleagues is becoming central to this discussion. I think 
your academic and scholarly credibility should also be part of 
the discussion.
    Professor Yonk testified that the establishment of the 
Grand Staircase-Escalante National Monument has had no impact 
on the local county economics. Do you agree with that 
assessment?
    Dr. Steed. As I have testified today, I think the only 
economic impact that we have identified in that study is a 
statistically significant rise in total tax revenues.
    Mr. Grijalva. OK. Dr. Yonk also testified, just to get both 
sets of testimony in the right balance, that if the monument 
had not been designated there was no guarantee that coal would 
have been mined in the region. Do you agree with that----
    Dr. Steed. Absolutely I agree.
    Mr. Grijalva.--opportunity/lack of opportunity analysis?
    Dr. Steed. Honestly I don't know what would have happened 
in the Grand Staircase. I mean, there is reason to believe, 
based on current regulations facing the development of coal 
energy, that that may not be--that the Andalex Mine may not 
have gone forward. I just don't know what would have happened.
    Mr. Grijalva. OK. Ms. Rosenberg, let me turn to you. 
Briefly, not to get you into the opportunity cost discussion, 
but about the economic value of public lands. If you could just 
briefly outline that part of the discussion as you see it?
    Ms. Rosenberg. What I can say is that Ray Rasker was here 
testifying from Headwaters Economics testifying about the 
economic values of public lands. There have been studies that 
support the view that having a national park or national 
monument or public lands in your vicinity raises income, 
improves the economies of local communities. Apparently there 
are studies on the other side.
    I would say beyond economic value there are intangible 
values that public lands may offer such as scenic and wildlife 
and recreation and watershed that cannot be quantified in an 
economic study, but there are certainly economic studies that 
support the benefits of public land ownership.
    Mr. Grijalva. Yes. There are values opportunity, but I 
don't know how you quantify that. I appreciate it, and I yield 
back.
    Mr. Bishop [presiding]. Thank you. If I have a chance to 
give a couple of questions here?
    Mr. Pool, if I can hit you up first? Is there a single 
database, a web page, something, that maintains a consolidated 
running total of BLM lands available for disposal?
    Mr. Pool. Congressman, there is not one single database. 
Those lands that have been identified are all associated with 
our resource management plans. We produce on average we have 
about 150 resource management plans, and those lands are all 
contained in those plans.
    Mr. Bishop. Such a database would be helpful. I know many 
times when we are talking about land exchanges often times the 
agency doesn't really know that they actually own the land in 
the first place until we did an exhaustive land review of some 
kind.
    Dr. Steed, if I could ask you? Or actually Mr. Ward. Let me 
just go down the list if I could here. To what extent do county 
payments reimburse counties that are blessed with designated 
wilderness and monuments?
    Mr. Ward. Blessed with wilderness and to what extent are 
they reimbursed?
    Mr. Bishop. Yes, through county payments.
    Mr. Ward. Well, if they are Department of the Interior 
lands, BLM lands like Grand Staircase, then it depends upon the 
nebulous, insecure and unstable PILT program, which always 
struggles for recognition.
    Mr. Bishop. Would you just compare, because we do have PILT 
payments, and some people have criticized PILT payments on the 
Floor of Congress saying it is welfare to the West.
    Do the PILT payments--sorry about the P with the 
microphone. Do the PILT payments actually in some way meet what 
could be done if the land was in some way taxable, even on the 
lowest rate of taxation?
    Mr. Ward. Only in the most minute way, Chairman. Let us put 
it this way. Kane and Garfield Counties, where the monument is 
located, spend untold percentages of their budgets providing 
governmental services throughout all of those millions of acres 
of land, but they can't tax it, and the PILT payments are only 
a fraction of what they could get otherwise.
    Mr. Bishop. Dr. Steed, if I could ask you a couple of 
questions? You responded, and I think you responded accurately, 
to the Ranking Member's question about whether you could 
predict that coal would have been developed in the Grand 
Staircase-Escalante Monument. Under monument status will it 
ever be developed?
    Dr. Steed. To my knowledge, no. I think that is taken off 
the table.
    Mr. Bishop. That is one of the problems that we have down 
there. Obviously for academic reasons you are very careful on 
what you say. Obviously the people who live there locally are 
much more verbose and direct in how they would answer those 
questions.
    Let me ask you one more question. States like Utah have a 
productive state land policy Act. Do you evaluate the economic 
benefits from state-owned lands, as opposed to similar 
Federally owned lands?
    Dr. Steed. Our studies to date haven't looked at that 
question, but I can say that from my experience working in 
Southern Utah as an attorney, those lands that are state owned 
often have much more productive economic uses than similarly 
held public land held by the Federal government.
    Mr. Bishop. Your study that you did along with Dr. Yonk 
down at Southern Utah University were highly different from 
what the Headwaters Economics group, for example, did as far as 
growth formula.
    I think you touched on that briefly. Is there anything more 
you want to say as to the difference between your approach 
versus theirs?
    Dr. Steed. Simply to point out I think there is a value in 
comparing wilderness or even national monument properties or 
national monument counties to counties that don't contain 
those.
    The Headwaters study simply have a growth study over time 
and looking at this where you can compare empirics it is a 
better claim if you are able to compare this with counties that 
don't have similar designated properties, and I think that our 
studies do that in a way that their studies don't.
    Specifically, the Grand Staircase-Escalante study has 
comparison to similarly situated counties where we don't find 
the same dramatic economic growth as shown in the Headwaters 
study.
    Mr. Bishop. Thank you. I appreciate that. I have one minute 
let.
    Mr. Ward, let me finish off with you, if I could. Do you 
consider FLTFA to be an effective method of disposal of Federal 
lands?
    Mr. Ward. FLPMA by itself and Section 203 of FLPMA has a 
criteria for disposal of lands, but, as Mr. Pool alluded to and 
others, it is a very complex, conditional type of process. 
Congress needs to supplement that process, Chairman Bishop.
    Mr. Bishop. Let me ask you. I have 30 seconds here. I am 
chewing gum and speaking at the same time. I can do it. It was 
not FLPMA though I tried to say. It is Federal Land Transfer, 
FLTFA.
    Mr. Ward. Oh, I am sorry. I mis-heard you. I am going to 
confess, I am not intimately familiar with that Act so I can't 
help you there, Chairman.
    Mr. Bishop. That is fair enough. I appreciate that. My time 
has expired.
    Are there other questions? Representative Kildee?
    Mr. Kildee. Just a personal one to Mr. Liesemer. Where did 
you get your Ph.D.?
    Dr. Liesemer. I am a Detroit guy. I grew up there. I got my 
Master's and Ph.D. at Wayne State University in Organic 
Chemistry.
    Mr. Kildee. Very good. I noticed also that you have been 
very active in the recycling of plastics, which is a very good 
thing for our environment.
    Dr. Liesemer. Thank you. You have done some homework. Yes. 
I can say I think I am the guy that made plastic recycling a 
reality in the United States.
    Mr. Kildee. Well, for that we really thank you. That is 
very, very important----
    Dr. Liesemer. Thank you.
    Mr. Kildee.--because that could be an enormous problem were 
not someone willing to address that in a very massive and broad 
way and one that has been very effective. We can always make 
things better, but I think you deserve a great thanks for that 
role too.
    So we thank you for really being a public spirited person 
who just makes our environment a lot better so we can enjoy it 
and recognize what should be done to certain areas and what 
should not be done to certain areas and know the difference. I 
just admire someone who has the diligence that you have. Again, 
thank you.
    Dr. Liesemer. Well, thank you. And that effort was a joint 
effort, a lot of joint work between government, primarily 
counties and cities and private industries through the trade 
association that I represented. I thought it worked very well. 
The plastic industry put millions of dollars into it, and I 
have to give them credit for backing me with that.
    I certainly didn't have structural authority to tell these 
government organizations what to do, but when we showed them 
how to do it, they did it. Thank you.
    Mr. Kildee. That was very effective, and we again thank you 
for your work on that. I yield back, Mr. Chairman.
    Mr. Bishop. Thank you, Representative Kildee. Congressman 
Kildee is a gentleman to everybody here in this House, but when 
he meets somebody from Michigan he is especially kind to you, 
so you got treated royally by one of the nice guys.
    If there are no other questions, I want thank this panel 
for your willingness to come here and testify before us today. 
It was very kind of you. I will personally apologize for having 
to leave and come back, but I have had a chance of reading your 
testimony and I thank you for your time and effort to be here 
with us and make this panel and this hearing a success.
    If there are no other questions and no further business, 
without objection this Subcommittee will stand in adjournment.
    [Whereupon, at 11:55 a.m. the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

        Statement of The Honorable Dave Camp, a Representative 
          in Congress from the State of Michigan, on H.R. 977

    Mr. Chairman, I am pleased you are holding this hearing today and 
appreciate the opportunity to submit my comments for the record.
    My statement today is in support of legislation Rep. Bill Huizenga 
(R-MI) and I introduced that will implement a new General Management 
Plan for Sleeping Bear Dunes National Lakeshore. Since 2003, I have 
been proud to represent the District that includes the Sleeping Bear 
Dunes, a true national treasure. In fact, earlier this year the 
television show Good Morning America conducted a national poll in which 
Americans voted Sleeping Bear Dunes ``The Most Beautiful Place in 
America.''
    H.R. 977 is the culmination of years of work to craft and implement 
a new General Management Plan. In 2002, the National Park Service began 
an attempt to revise the park's management plan, pursuing the most 
restrictive set of policies available including cutting off public 
access to the beach. The public resoundingly rejected the proposed 
plan, which did not address their input and concerns. As a result, the 
Park Service eventually withdrew it.
    In 2006, the effort to update the management plan for Sleeping Bear 
Dunes resumed, but this time it was done the right way. The public, 
local stakeholders and the National Park Service came together and 
produced a compromise General Management Plan that adequately balances 
preservation with public use. This management plan ensures that this 
national treasure will be enjoyed by generations of Americans to come 
by preserving access to its beaches on land and watercraft, maintaining 
hunting and fishing rights, and protecting the most vulnerable aspects 
of the ecosystem.
    While stakeholder and public agreement has been reached, the plan 
must still be passed into law. Last Congress, I was pleased to work 
with Mr. Huizenga's predecessor, Rep. Pete Hoekstra, and with Senators 
Levin and Stabenow to craft legislation to codify the General 
Management Plan into law. Mr. Huizenga has taken great leadership on 
this issue and, if the Committee sees fit to approve our bill, I am 
confident he will be able to finally see this new management plan 
across the finish line.
    To conclude, I once again thank the subcommittee for the 
opportunity to submit my comments, and urge the swift passage of the 
bill.
                                 ______
                                 

Statement of Jim Pena, Acting Deputy Chief for National Forest System, 
  Forest Service, U.S. Department of Agriculture, on H.R. 41--Beauty 
             Mountain and Agua Tibia Wilderness Act of 2011

    Thank you for inviting the Department of Agriculture to testify on 
H.R. 41, the Beauty Mountain and Agua Tibia Wilderness Act of 2011. We 
will confine our remarks to the provisions of the bill that are related 
to lands managed by the United States Forest Service, specifically the 
Agua Tibia Wilderness Area. We defer to the Department of the Interior 
on provisions relating to the Bureau of Land Management regarding the 
Beauty Mountain Wilderness Area.
    The Department supports the additions to the Agua Tibia Wildernss 
and the additional protections that will be provided to the current 
Cutca Valley Inventoried Roadless area.
    Agua Tibia, which means ``warm water'' in Spanish, is a scenic area 
of deep canyons with chaparral-covered slopes that give way to stands 
of fir, pine and oak. H.R. 41 would designate as wilderness 7,796 acres 
known as the Cutca Valley inventoried Roadless area adjacent to the 
existing Agua Tibia Wilderness Area within the Cleveland National 
Forest in the State of California. The acres included in this proposed 
addition are consistent with recommended wilderness designation in the 
current Land Management Plan of the Cleveland National Forest.
                                 ______
                                 

Statement of Jim Pena, Acting Deputy Chief for National Forest System, 
 Forest Service, U.S. Department of Agriculture, on H.R. 113, Angeles 
           and San Bernardino National Forests Protection Act

    H.R. 113 would designate approximately 18,983 acres (Cucamonga 
Wilderness area) and 53,889 acres (Sheep Mountain Wilderness area) in 
the San Bernardino National Forest in the State of California as 
components of the National Wilderness System. In addition, this bill 
contains provisions regarding private property and water rights 
protections and permissible activities in the wilderness additions; 
authorizes the Secretary of Agriculture to take measures in the 
Cucamonga, Sheep Mountain, and San Gabriel Wilderness Areas that are 
necessary for the control of fire, insects, and diseases; directs the 
Secretary to assess a specified maintenance backlog in the Angeles and 
San Bernardino National Forests; and requires completion of the studies 
regarding the potential addition of portions of the San Gabriel River, 
San Antonio Creek, and Middle Fork Lytle Creek in California to the 
national wild and scenic rivers system.
    We support the additions of the Cucamonga and Sheep Mountain areas 
to the National Wildernesses Preservation System. In fact, we would 
like to request the Committee also consider inclusion of an additional 
5,167 acre area to the Sheep Mountain Wilderness as recommended in the 
San Bernardino Forest Land Management Plan. This unit has solitude, 
outstanding scenic vistas, and superb all-season primitive backcountry 
recreation opportunities. It is identical in nature to the existing 
Sheep Mountain and Cucamonga Wildernesses and has a manageable boundary
    The Department was notified of this hearing on October 17, 2011. 
Due to the lack of sufficient time to prepare for the hearing, we are 
unable to offer detailed thoughts on H.R. 113. However, among other 
things related to this bill, we are concerned about the impacts of 
eliminating the backlog of deferred maintenance on other capital 
improvement activities. To address the numerous issues related to this 
bill, a more detailed analysis will be provided to the Subcommittee at 
a later date.
                                 ______
                                 

Statement of Jim Pena, Acting Deputy Chief for National Forest System, 
  Forest Service, U.S. Department of Agriculture, on HR. 490--Cibola 
                   National Forest Boundary Expansion

    The Department supports the transfer of the ``Manzano Strip'' 
parcel to the Forest Service and it being added to and designated as 
part of the Manzano Mountain Wilderness.
    H.R. 490 directs the Secretary of the Interior to transfer a parcel 
of land currently under the administrative jurisdiction of the Bureau 
of Land Management (BLM) to be incorporated into and managed as part of 
the Cibola National Forest. This parcel abuts the northwest corner of 
the Manzano Mountain Wilderness on the Mountainair Ranger District. 
This 896-acre parcel is known as the Manzano Wilderness Study Area. Per 
the Federal Land Policy and Management Act, BLM currently manages this 
area so as to not to impair its wilderness characteristics until 
further direction is provided by Congress.
                                 ______
                                 

Statement of Jim Pena, Acting Deputy Chief for National Forest System, 
Forest Service, U.S. Department of Agriculture, on H.R. 608, To Expand 
 the Alpine Lakes Wilderness in the State of Washington, to Designate 
  the Middle Fork Snoqualmie River and Pratt River as Wild and Scenic 
                     Rivers, and for Other Purposes

    Thank you for the opportunity to provide the views of the 
Department of Agriculture on H.R. 608, the Alpine Lakes Wilderness 
Additions and Pratt and Middle Fork Snoqualmie Rivers Protection Act.
    This legislation would designate approximately 22,173 acres as a 
component of the National Wilderness System and approximately 37 miles 
of river as components the National Wild and Scenic Rivers System on 
the Mt. Baker-Snoqualmie National Forest in the State of Washington. 
The Department supports, in concept, this legislation and we would like 
to work with the Committee to address some technical issues as outlined 
below.
    We would also like the Committee to be aware that although we have 
completed suitability studies for the wild and scenic rivers, we have 
not completed a wilderness evaluation of the area to be designated 
under this bill. The area that would be designated wilderness is 
currently managed in an undeveloped manner as Late Successional Reserve 
under the Northwest Forest Plan. A wilderness designation would be 
compatible in this area. We thank the delegation for its collaborative 
approach and local involvement that have contributed to this bill.
    The proposed additions to the Alpine Lakes Wilderness lie in the 
valleys of the Pratt River, the Middle and South Forks of the 
Snoqualmie River. The existing 394,000 acre Alpine Lakes Wilderness is 
one of the jewels of our wilderness system, encompassing rugged ice 
carved peaks, over 700 lakes, and tumbling rivers. The lower valleys 
include stands of old growth forest next to winding rivers with native 
fish populations. The area is located within minutes of the Seattle 
metro area. Trails accessing the area are among the most heavily used 
in the Northwest as they lead to some exceptionally accessible and 
beautiful destinations. The proposed additions to the Alpine Lakes 
Wilderness would expand this area to include the entire heavily 
forested Pratt River valley and trail approaches to lakes in the 
wilderness area in the Interstate 90 corridor. These lands have not 
been analyzed as part of the forest plan to determine their suitability 
to be designated wilderness. However, the Forest Service would support 
their designation with a few technical adjustments.
    We would like to work with the Subcommittee to address some 
technical aspects of the bill. These include:
    <bullet>  The entire Pratt River Trail #1035 is included within the 
boundary of the proposed wilderness. The first mile of this trail 
currently is used by large numbers of people and groups. The trail, 
which would be a primary access corridor for the newly designated 
wilderness, is currently undergoing reconstruction by contract and 
volunteer crews. The Department suggests that the wilderness boundary 
be drawn to exclude approximately three miles of this trail so that 
wilderness use limitations relating to solitude do not factor into 
future management concerns that may limit public access to this area. 
This change would not alter the wilderness proposal significantly, but 
would allow the current recreation opportunities for high-use and large 
groups along this stretch of the Middle Fork Snoqualmie to continue. 
This adjustment also would reduce operation and maintenance costs along 
this segment of the Pratt River Trail as it would ease any future 
reconstruction efforts and allow for motorized equipment to be used in 
its maintenance.
    <bullet>  The northwestern boundary of the wilderness proposal 
includes two segments of Washington State Department of Natural 
Resources lands totaling about 300 acres. We recommend that the 
boundary of the proposed wilderness be adjusted so that only National 
Forest System lands are included, as the legislation does not include 
authority for these lands to be acquired from the State of Washington.
    <bullet>  In T.23 N, R.9 E, Section 24, there are two Forest 
Development Roads proposed for decommissioning. These roads are within 
the proposed wilderness. It is likely that the decommissioning project 
will require the use of motorized equipment to help restore the 
wilderness setting. We anticipate analyzing the use of motorized 
equipment under the Forest Service's minimum requirements analysis 
process.
    H.R. 608 also would designate two rivers as additions to the 
National Wild and Scenic Rivers System: approximately 9.5 miles of the 
Pratt River from its headwaters to its confluence with the Middle Fork 
Snoqualmie River; and approximately 27.4 miles of the Middle Fork 
Snoqualmie River from its headwaters to within \1/2\ mile of the Mt. 
Baker-Snoqualmie National Forest boundary. Each river was studied in 
the Mt. Baker-Snoqualmie National Forest Plan and determined to be a 
suitable addition to the National Wild and Scenic Rivers System.
    The Pratt River has outstandingly remarkable recreation, fisheries, 
wildlife and ecological values. The corridor provides important hiking 
and fishing opportunities in an undeveloped setting. The river supports 
resident cutthroat trout and its corridor contains extensive deer and 
mountain goat winter range and excellent riparian habitat. Its corridor 
retains a diverse riparian forest, including remnant stands of low-
elevation old-growth.
    The Middle Fork Snoqualmie River also has outstandingly remarkable 
recreation, wildlife and fisheries values. The river is within an easy 
driving distance from Seattle and attracts many visitors. It provides 
important whitewater boating, fishing, hiking and dispersed recreation 
opportunities. The river corridor contains extensive deer winter range 
and excellent riparian habitat for numerous wildlife species. This is 
the premier recreational inland-fishing location on the National Forest 
due to its high-quality resident cutthroat and rainbow trout 
populations.
    Adding these rivers to the National Wild and Scenic Rivers System 
will protect their free-flowing condition, water quality and 
outstandingly remarkable values. Designation also promotes partnerships 
among landowners, river users, tribal nations and all levels of 
government to provide for their stewardship. We therefore support the 
designation of these rivers into the National Wild and Scenic River 
System.
    The Department has one concern with the wild and scenic river 
designations relating to the management of the Middle Fork Snoqualmie 
River Road. We are currently in the process of improving this road and 
feel that this work is needed to protect the wild and scenic values 
associated with this river while improving visitor safety and watershed 
health. Approximately 20 years ago, the U.S. Forest Service submitted 
the Middle Fork Road to the Federal Highway Administration for 
reconstruction via their enhancement program. The project has been 
approved, design work is approximately 50% complete, and construction 
is planned for 2013 or 2014. The Federal Highway Administration has 
expended approximately $3.5 million to date on the project. 
Notwithstanding designation as a Scenic River under this legislation, 
we would like to work with the Committee to find language which would 
allow the Middle Fork Road project to proceed as designed and assure 
that long term maintenance objectives of the road are not adversely 
impacted by this designation.
                                 ______
                                 

Statement of Jim Pena, Acting Deputy Chief for National Forest System, 
   Forest Service, U.S. Department of Agriculture, on H.R. 1413, the 
              ``Devil's Staircase Wilderness Act of 2011''

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Department of Agriculture on 
H.R. 1413, the ``Devil's Staircase Wilderness Act of 2011.''
    H.R. 1413 would designate an area known as the ``Devil's 
Staircase'' as wilderness under the National Wilderness Preservation 
System. In addition, H.R. 1413 would designate segments of Wasson and 
Franklin Creeks in the State of Oregon as wild rivers under the Wild 
and Scenic Rivers Act. The Department supports the designation of the 
Devil's Staircase wilderness as well as the Wild and Scenic River 
designations on National Forest System lands.
Devil's Staircase Wilderness Designation
    The Devil's Staircase area lies in the central Oregon Coast Range 
north of the Umpqua River and south of the Smith River. Elevations in 
the area range from near sea level to about 1,600 feet. The area is 
characterized by steep, highly dissected terrain. It is quite remote 
and difficult to access. A stair step waterfall on Wasson Creek is the 
source of the name ``Devil's Staircase''.
    The proposed wilderness encompasses approximately 30,520 acres of 
National Forest System (NFS) and Bureau of Land Management (BLM) lands. 
Approximately 7,800 acres of the NFS lands are within the Wasson Creek 
Undeveloped Area under the Forest Plan for the Siuslaw National Forest 
and were evaluated for wilderness characteristics in the 1990 Siuslaw 
National Forest Land and Resource Management Plan.
    All NFS lands that would be designated as wilderness are classified 
as Late Successional Reserve under the Northwest Forest Plan, which 
amended the Siuslaw National Forest Land and Resource Management Plan 
in 1994. This land allocation provides for the preservation of old 
growth (late successional) habitat. There are no planned resource 
management or developed recreation projects within the NFS portion of 
the lands to be designated as wilderness.
    Most of the area is forested with older stands of Douglas fir and 
western hemlock, and with red alder in riparian areas. All three tree 
species are under-represented in the National Wilderness Preservation 
System, relative to its abundance on NFS lands in Washington and 
Oregon. These older stands provide critical habitat and support nesting 
pairs of the northern spotted owl and marbled murrelet, which are 
listed as threatened species under the Endangered Species Act.
    The proposed Devil's Staircase Wilderness provides an outstanding 
representation of the Oregon Coast Range and would enhance the National 
Wilderness Preservation System. The Oregon Coast Range has been largely 
modified with development, roading, and logging. Three small wilderness 
areas currently exist along the Oregon portion of the Pacific Coast 
Range, and the proposed Devil's Staircase Wilderness would more than 
double the acres of old growth coastal rainforest in a preservation 
status. Wilderness designation would also preserve the Devil's 
Staircase which is a unique landscape feature.
Wild and Scenic River Designations
    H.R. 1413 would also designate approximately 10.4 miles of streams 
on National Forest System lands as part of the National Wild and Scenic 
Rivers System: 5.9 miles of Wasson Creek and 4.5 miles of Franklin 
Creek, both on the Siuslaw National Forest.
    Both Wasson and Franklin Creeks have been identified by the 
National Marine Fisheries Service (NMFS) as critical habitat for coho 
salmon (Oregon Coast ESU [Evolutionarily Significant Unit] of coho 
salmon), a threatened species under the Endangered Species Act.
    The Department defers to the Department of the Interior in regard 
to the proposal to designate the 4.2-mile segment of Wasson Creek 
flowing on lands administered by BLM.
    The Forest Service conducted an evaluation of the Wasson and 
Franklin Creeks to determine their eligibility for wild and scenic 
rivers designation as part of the forest planning process for the 
Siuslaw National Forest. However, the Agency has not conducted a wild 
and scenic river suitability study, which provides the basis for 
determining whether to recommend a river as an addition to the National 
System. Wasson Creek was found eligible as it is both free-flowing and 
possesses outstandingly remarkable scenic, recreational and ecological 
values. The Department supports designation of the 1.7 miles of the 
Wasson Creek on NFS lands based on the segment's eligibility.
    At the time of the evaluation in 1990, Franklin Creek, although 
free flowing, was found not to possess river-related values significant 
at a regional or national scale and was therefore determined ineligible 
for designation. Subsequent to the 1990 eligibility study the Forest 
Service has found that, Franklin Creek provides critical habitat for 
Coho salmon, currently listed as threatened under the Endangered 
Species Act, and also serves as a reference stream for research because 
of its relatively pristine character which is extremely rare in the 
Oregon Coast Range. The Department does not oppose its designation. 
Designation of the proposed segments of both Wasson and Franklin Creeks 
is consistent with the proposed designation of the area as wilderness. 
The actual Devil's Staircase landmark is located on Wasson Creek.
    We would like to work with the bill sponsors and the committee on 
several amendments and map revisions that we believe would enhance 
wilderness values and improve the bill.
    I would be happy to answer any questions the committee has on these 
designations.

Statement of Jim Pena, Acting Deputy Chief for National Forest System, 
   Forest Service, U.S. Department of Agriculture, on H.R. 2050, the 
          ``Idaho Wilderness Water Resources Protection Act''

    The U.S. Forest Service supports H.R.2050, which would direct the 
issuance of a special use permit, if certain conditions are met, for 
the continued use of a water storage, transport, or diversion facility 
located on National Forest System land in the Frank Church-River of No 
Return Wilderness and the Selway-Bitterroot Wilderness in Idaho. 
Currently, there are over 22 water developments within the Frank Church 
and the Selway-Bitterroot Wilderness Areas that predate establishment 
of the wilderness, in some cases by decades. These developments include 
irrigation, domestic water uses and small private hydropower 
developments. The legislation establishing both wilderness areas did 
not address these pre-existing water developments. H.R. 2050 would 
direct the Forest Service to issue special use authorizations, if the 
Secretary makes the following determinations: the facility was in 
existence when the wilderness area on which the facility is located was 
designated as part of the National Wilderness Preservation System; the 
facility has been in substantially continuous use to deliver water for 
the beneficial use on the owner's non-Federal land since the date of 
designation; the owner of the facility has a valid water right for use 
of the water on the owner's non-Federal land under Idaho State law, 
with a priority date that pre-dates the date of designation; and it is 
not practicable or feasible to relocate the facility outside the 
wilderness and achieve the continued beneficial use of water on non-
Federal land. We understand that the bill does not create any rights 
beyond what is provided in the special use permit and that both 
maintenance responsibilities and liabilities continue with the permit 
holder, and not the Federal government.

                                 <all>

</pre></body></html>
